No. _____
OCTOBER TERM 2020
IN THE SUPREME COURT OF THE UNITED STATES
═════════════════════════════════
JUAN DAVID RODRIGUEZ,
Petitioner,
v.
MARK INCH, Secretary,
Florida Department of Corrections
Respondent.
═════════════════════════════════
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
═════════════════════════════════
CAPITAL CASE
═════════════════════════════════

Scott Gavin*
Fla. Bar No. 0058651
Assistant CCRC–South
Capital Collateral Regional Counsel – South
110 SE 6th Street, Suite 701
Fort Lauderdale, FL 33301
Tel. (954) 713–1284
gavinS@ccsr.state.fl.us
*Counsel of Record

INDEX TO APPENDIX
The Eleventh Circuit Court of Appeals’ Opinion Denying Relief, Reported as
Rodriguez v. Sec’y, Fla. Dep’t of Corr., 818 F. App’x 945 (11th Cir.
2020)…………………………………………………………………………………………….1a
The Eleventh Circuit Court of Appeals’ Order Denying the Motion for Rehearing En
Banc…………………………………………………………………………………….......... 13a
The United States District Court for the Southern District of Florida’s Order Denying
Mr. Rodriguez’s Petition for Writ of Habeas Corpus, Referenced as Rodriguez v. Sec’y,
Fla. Dep’t of Corr., Case No. 13-24567-CIV (S.D. Fla. Jan. 4,
2016)…………………………………………………………………………………………..15a
The Florida Supreme Court’s Opinion Affirming the Circuit Court’s Summary Denial
of Mr. Rodriguez’s 2017 Motion for Postconviction Relief Pursuant to Hall v. Florida,
572 U.S. 701 (2014), Reported as Rodriguez v. State, 219 So. 3d 751 (Fla.
2017)………………………………………………………………………………………… 129a
The Florida Supreme Court’s Order Denying the Motion for Rehearing, Referenced
as Rodriguez v. State, Order, Case No. SC15-1795 (Fla. June 15,
2017)………………...……………………………………………………………………….136a
The State Circuit Court Order Denying Mr. Rodriguez’s Atkins Claim, Referenced as
Rodriguez v. State, Case No. F88-18180B (Fla. 11th Cir. Dec. 31,
2010)…………………………………………………………………………………………137a
The Florida Supreme Court’s Order Affirming the Circuit Court’s Denial of Mr.
Rodriguez’s Atkins Claim, Referenced as Rodriguez v. State, 110 So. 3d 411 (2013)
(unpublished
table
decision)……………………………………………………………………………………..191a

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

818 Fed.Appx. 945
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.

Affirmed.
Jill A. Pryor, Circuit Judge, concurred in result only.
Attorneys and Law Firms
*947 Rachel Lawrence Day, Scott Gavin, Capital Collateral
Regional Counsel - South, Fort Lauderdale, FL, for
Petitioner-Appellant

Juan David RODRIGUEZ,
Petitioner-Appellant
v.
SECRETARY, FLORIDA DEPARTMENT
OF CORRECTIONS, Respondent-Appellee

Carla Suzanne Bechard, Attorney General's Office, Criminal
Division, Tampa, FL, Melissa Roca Shaw, Attorney General's
Office, Miami, FL, for Respondent-Appellee
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 1:13-cv-24567-JAL

No. 16-11258
|
(June 22, 2020)

Before WILLIAM PRYOR, Chief Judge, WILSON, and JILL
PRYOR, Circuit Judges.
Opinion

Synopsis
Background: After the Florida Supreme Court affirmed his
convictions, including first-degree murder conviction, and
death sentence on direct appeal, 609 So.2d 493, affirmed
denial of his post-conviction relief motion, 919 So.2d 1252,
and affirmed denial of his motion for determination of
intellectual disability, 2013 WL 462069, petitioner filed
federal habeas petition, claiming that he had received
ineffective assistance from penalty-phase counsel and that he
was ineligible for death penalty due to intellectual disability.
The United States District Court for the Southern District
of Florida, Joan A. Lenard, Senior District Judge, denied
petition. Petitioner appealed.

WILLIAM PRYOR, Chief Judge:
Juan David Rodriguez, a Florida prisoner under a death
sentence for murder in the course of a robbery, appeals
the denial of his petition for a writ of habeas corpus,
28 U.S.C. § 2254. After unsuccessfully pursuing state
postconviction relief, Rodriguez filed a federal petition,
which the district court denied. Rodriguez argues that his
penalty-phase counsel was ineffective because he failed to
investigate and present mitigating evidence of his mental
health. He also argues that he is ineligible for the death penalty
because he is intellectually disabled. Because Rodriguez
cannot establish that he suffered prejudice from his trial
counsel's performance, see Strickland v. Washington, 466 U.S.
668, 691–92, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), and the
Supreme Court of Florida reasonably determined that he is
eligible for the death penalty, see Atkins v. Virginia, 536 U.S.
304, 321, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002), we affirm.

Holdings: The Court of Appeals, William H. Pryor, Chief
Judge, held that:
penalty-phase
assistance;

counsel

had

not

rendered

ineffective

the Florida Supreme Court's determination that petitioner did
not have intellectual disability did not involve unreasonable
application of clearly established federal law; and

I. BACKGROUND
We divide the background of this appeal in three parts.
First, we discuss the facts of Rodriguez's crime, trial, and
direct appeal. Second, we describe his state postconviction
proceedings. Third, we review Rodriguez's federal habeas
proceedings.

same determination was not based on unreasonable
determination of facts.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1a

1

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

After the jury returned its verdict, the trial court discussed
scheduling the penalty phase with counsel. Rodriguez's trial
counsel, Scott T. Kalisch, advised the trial court, “I am not in
any way prepared to go forward in a death penalty phase in
this case. I need at least two weeks to even understand what
it is about.” So the trial court deferred the penalty phase for
two weeks. It later granted another two-week continuance on
Kalisch's request. Kalisch explained he was busy working on
another case, “[a]ll of [his] efforts [had been] addressed to
demonstrating that [Rodriguez] was not the assailant in this
case,” and he “was unprepared for the outcome insofar as
preparing for the death phase in advance of the verdict.”

A. Rodriguez's Crime, Trial, and Appeal.
In May 1988, shortly after he was released on bail in an
unrelated case, 32-year-old Rodriguez led several teenage
coconspirators on a two-day crime spree to obtain money
to pay off a debt he owed to Ramon Fernandez, one of the
coconspirators. Rodriguez v. State (Rodriguez I), 609 So. 2d
493, 495–97 (Fla. 1992). The spree began when Rodriguez
led Fernandez and Carlos Sponsa to the parking lot of a
local shopping center and told them to remain in front while
he went to the back. Id. at 495–96. Behind the shopping
center, Rodriguez accosted one of the shop owners, Abelardo
Saladrigas. Id. at 496. Rodriguez demanded that Saladrigas
hand over his Rolex watch and briefcase before shooting
Saladrigas four times while he pleaded, “Don't do this to me.”
Id. (internal quotation marks omitted). Rodriguez fired the
first shot in Saladrigas's leg and the second in his stomach.
Id. After being shot twice, Saladrigas gave up the briefcase,
which contained a revolver and some cash, but he did not
surrender the Rolex. Id. So Rodriguez shot Saladrigas a third
time, and after Saladrigas ran behind a car, Rodriguez shot
him once more and grabbed the Rolex. Id. Rodriguez then fled
the scene. Id. Saladrigas died after being transported to the
hospital. Id.

Kalisch also moved for the appointment “of an independent
psychiatric examiner, namely Dr. Leonard Haber ... to assist
[the defense] in the death phase of this case.” The trial court
granted the motion, and Dr. Haber met with Rodriguez twice.
Dr. Haber conducted a psychological interview, a mental
status examination, and the Bender Gestalt Visual Motor Test.
In conducting his evaluation, Dr. Haber elicited information
from Rodriguez about his personal and medical history, but
he received no documents from Kalisch about Rodriguez's
background. Dr. Haber instead reviewed information that he
received from the State about Rodriguez's prior convictions
and the latest crimes. Dr. Haber described his examination and
conclusions in a letter to the trial court and during a deposition
that the State conducted and Kalisch attended.

The next day, Rodriguez, Fernandez, Sponsa, and others
attempted a home-invasion robbery. *948 Rodriguez v. State
(Rodriguez II), 919 So. 2d 1252, 1259 (Fla. 2005). Although
Rodrigues anticipated that the residents would be home and
planned to tie them up, he did not anticipate that the residents
would be able to defend themselves. Rodriguez I, 609 So.
2d at 497. The robbery was foiled when one resident began
firing his gun at the invaders. Id. As the men fled, Fernandez
dropped the revolver that belonged to Saladrigas. Id.

Dr. Haber reviewed the information relevant to statutory
mitigation and concluded that Rodriguez did not satisfy
any of the criteria. See Fla. Stat. § 921.141(6) (1990). In
considering Rodriguez's mental capacity, Dr. Haber found
that Rodriguez demonstrated an “appreciation of the charges
placed against him,” “thought processes that were productive
and goal oriented,” and that he a “fund of general information
[that] was adequate.” Although Rodriguez reported becoming
unconscious when he fell from a horse as a child, two
suicide attempts because of unrequited love, and short term
admissions to psychiatric hospitals in connection with the
suicide attempts and nerves, Dr. Haber concluded this history
did not establish “a significant ... history of mental disorder or
a[n] extreme mental disorder.” And Dr. Haber concluded that
he had no significant history of drug or alcohol use to support
mental impairment because Rodriguez denied abusing drugs
or alcohol.

Police arrested Fernandez three weeks later. Id. He confessed
to his involvement in the crimes and told the police that
Rodriguez had shot Saladrigas. Id. The authorities then
arrested Rodriguez and charged him with first-degree murder,
armed robbery, conspiracy to commit a felony, attempted
armed robbery, armed burglary with an assault, aggravated
assault, and attempted first-degree murder. Id. at 495, 497.
While he was awaiting trial, Rodriguez offered a fellow
inmate $3,000 in exchange for perjured testimony that
Fernandez had confessed to the murder. Id. at 496–97. The
fellow inmate instead testified at trial to the bribe. Id. The jury
found Rodriguez guilty of all charges. Id. at 497.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2a

2

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

*949 Dr. Haber also explored Rodriguez's family
background. He stated that Rodriguez was born in “San
German, Cuba” and “only attended school up until the 1st
grade in Cuba” and then “had to work.” Dr. Haber testified
that Rodriguez said his parents divorced when he was two
years old and described his four siblings. Rodriguez said he
“came to this country in 1979 via the Mariel Boatlift” and
spoke about his work and criminal history. Dr. Haber testified
that he “asked if he was a happy or unhappy person and
what kind of childhood he had,” and Rodriguez said “he's an
unhappy person and has always been unhappy” except that he
“loved his wife” and when “he thinks about his child.”

to the hospital,” and “did not have an easy time.” The State
rested.
For the defense, Kalisch decided not to call Dr. Haber and
instead called only Marlene Castellano, Rodriguez's wife.
Castellano testified that she and Rodriguez had been married
for nearly 11 years and had one child, who was almost
two. When asked whether Rodriguez had been a supportive
husband, she answered “yes.” She testified that Rodriguez
was a “very good father” who was “tender and loving”
and had never been violent, but she conceded on crossexamination that Rodriguez had been in jail continuously
since his son was two months old. Although Castellano said
she never knew her husband to be violent, she admitted on
cross-examination that she knew nothing about the facts of his
crime, Rodriguez's past before their marriage, or his friends
or associates. When asked about her husband's jealous and
controlling nature, Castellano gave only a partial and indirect
denial, saying he permitted her to leave the house to spend
time with members of her family. She also *950 told the jury
she believed Rodriguez to be innocent.

Although Rodriguez's test results and personal history did not
support finding any statutory mitigation, Dr. Haber explained
that Rodriguez's results from the Bender Gestalt Visual
Motor Test raised the possibility that Rodriguez suffered “an
organic brain syndrome.” He opined that “[t]he presence or
absence of such a disorder is best made following a complete
neurological and neuropsychological test examination.” In
any event, Dr. Haber concluded that an “organic brain
dysfunction would likely not provide the basis, in and of itself,
for statutory mitigation.” See Fla. Stat. § 921.141(6) (1990).
Dr. Haber explained that the “absence of a significant history
of drug abuse symptoms, major mental disorder, treatment
for the same or other evidence of significant impairment of
mental or emotional functioning at the time of the alleged
offense appears to preclude the applicability of an organic
brain syndrome to statutory mitigation.”

The jury unanimously recommended a death sentence. See
Fla. Stat. § 921.141(2) (1990). After the jury recommendation
but before the trial court imposed sentence, Dr. Noble David,
a neurologist and a professor in the Department of Neurology
at the University of Miami School of Medicine, conducted
a neurological evaluation of Rodriguez. Dr. David's
examination revealed nothing “to suggest brain damage,” but
he ordered an electroencephalogram of Rodriguez “before
concluding that his neurological examination is entirely
within normal limits.” The electroencephalogram revealed
“no abnormalities.” The trial court received a copy of Dr.
David's report.

On the morning the penalty phase was to start, Kalisch moved
to prohibit the State from questioning defense witnesses about
Rodriguez's criminal record. Kalisch stated that he wanted
to call Dr. Haber as a witness to testify about Rodriguez's
background and childhood and the possibility that Rodriguez
may be suffering from an organic brain disorder. But Kalisch
was concerned that putting Dr. Haber on the stand would
open the door for the State to question him about Rodriguez's
previous felony convictions, which Kalisch believed would
be detrimental given the “very, very difficult jury.” The trial
court denied Kalisch's motion.

Based on all the information presented, the trial court
determined the aggravating and mitigating factors and
imposed a death sentence. It found three statutory aggravating
factors: Rodriguez had a prior violent felony conviction; the
murder was committed during a robbery and for financial
gain; and the murder was especially heinous, atrocious,
or cruel. See Fla. Stat. § 921.141(5) (1990). Although the
court identified no statutory mitigating factors, see id. §
921.141(6), it found that Rodriguez's good marriage and
family life constituted one nonstatutory mitigating factor.
After weighing these factors, the trial court adopted the jury's
recommendation and imposed a death sentence. See Fla. Stat.
§ 921.141(2)–(3) (1990).

The penalty phase started with the testimony of the State's
only witness, paramedic Dante Perfumo. Perfumo testified
that while he and other first responders transported Saladrigas
to the hospital, the victim “was in extreme pain.” Perfumo
recalled that Saladrigas “asked ... all the way into the hospital
if he was going to make it,” “stayed conscious all the way

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3a

3

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

about his childhood at the hearing. Instead, he called only his
trial counsel, Kalisch, and a psychologist, Dr. Ruth Latterner.

On direct appeal, the Supreme Court of Florida affirmed
Rodriguez's “convictions and sentences, including the
sentence of death.” Rodriguez I, 609 So. 2d at 501. The
Supreme Court of the United States denied his petition for
certiorari. Rodriguez v. Florida, 510 U.S. 830, 114 S.Ct. 99,
126 L.Ed.2d 66 (1993) (Mem.).

Kalisch testified about his investigation and use of mentalhealth mitigation evidence at the penalty phase of Rodriguez's
trial. He testified that he had arranged for Dr. Haber, the
mental-health expert, to evaluate Rodriguez. But he decided
not to call Dr. Haber because he “had nothing from Dr.
Haber” to establish either “mental retardation” or “any
statutory mitigators” and wanted to avoid having the State
cross-examine Dr. Haber about Rodriguez's criminal history.
Kalisch also testified that Rodriguez did not cooperate with
him to develop mitigation evidence. In Kalisch's words, “[i]t
was difficult to talk to [Rodriguez] about the case” because
Rodriguez acted as if the case “ha[d] nothing to do with
[him].”

B. Rodriguez's Motion for Postconviction Relief.
In 1994, Rodriguez filed a motion for postconviction relief,
Fla. R. Crim. P. 3.850, which he thrice amended. Rodriguez II,
919 So.2d at 1260. His motion raised thirty claims for relief
and requested an evidentiary hearing on each claim.
The postconviction trial court conducted a hearing pursuant
to Huff v. State, 622 So. 2d 982, 983 (Fla. 1993), to determine
which, if any, of Rodriguez's claims warranted an evidentiary
hearing. During the hearing, the State preemptively agreed,
out of “an abundance of caution,” to a hearing on all issues
raised under Claim VIII, including the “mental litigation”
and “family history” claims. And in response to a request
for clarification from Rodriguez as to whether it agreed to a
hearing only on the mental-health claim, the State explained
that Rodriguez could “litigate” “[w]hatever [he] put in [his]
claim.” So the postconviction trial court granted Rodriguez
an evidentiary hearing on his claim that his counsel rendered
ineffective assistance at the penalty phase of his trial by
failing to investigate and present mitigating evidence. See
Rodriguez II, 919 So. 2d at 1260–61 & n.3. Although the
postconviction trial court initially limited the hearing to
evidence about “mental retardation in the penalty phase only,”
it later clarified that it would permit Rodriguez to introduce
evidence that his counsel failed to investigate and present
evidence about his background, including his childhood in
Cuba. The postconviction trial court also granted a hearing
on Rodriguez's claim that his counsel failed both to obtain an
adequate mental health evaluation and to provide necessary
background information to the mental health consultants.

In her testimony, Dr. Latterner described the results of
the intelligence and neuropsychological tests that she
administered to Rodriguez. Based on the results, she
diagnosed Rodriguez with “mild mental retardation” and
“characteristics of ... brain damage.” She testified that she
followed the diagnostic guidelines in the ninth revision of the
International Classification of Diseases, or ICD-9, instead of
those in the fourth edition of the Diagnostic and Statistical
Manual of Mental Disorders, or DSM-IV. Dr. Latterner
explained that the ICD-9 and the DSM-IV had different
definitions of intellectual disability. She elaborated that “the
only requirement” for establishing intellectual disability in
the ICD-9 was an IQ score below 70, but the DSM-IV also
required “concurrent difficulties or impairment in present
adaptive functioning” and “onset before 18 years of age.”
Dr. Latterner also relied on Rodriguez's test results to find
two statutory mitigating circumstances: that Rodriguez had
a substantially impaired capacity to conform his conduct to
the requirements of the law and that he was under extreme
emotional disturbance when he committed the crime. See Fla.
Stat. § 921.141(6)(b), (f) (1990).
Some of Dr. Latterner's testimony on direct examination
undermined the credibility or mitigation value of her opinion.
For example, she testified that when she met with Rodriguez
for a clinical interview, his “social skills ... seemed to be
functioning at a higher cognitive level” than his low scores
would suggest. She testified that brain damage does not
necessarily correlate with impairment; indeed, even having
“a huge structural lesion” with “no neuropsychological
impairment” would be “not that unusual.” When she
acknowledged that the diagnostic guidelines for intellectual

Before the evidentiary hearing, Rodriguez's counsel
submitted a list of 30 possible witnesses from Cuba and
discussed the *951 testimony of these witnesses at two
preliminary hearings. During those hearings, the parties
and the postconviction trial court also discussed the best
method of obtaining the Cuban witnesses’ testimonies.
And the postconviction trial court granted extensions to
allow Rodriguez to obtain their testimonies. Despite every
opportunity to do so, Rodriguez offered none of this evidence

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4a

4

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

[Rodriguez's] childhood he was regarded by his teacher and
various family members and people in the community as
retarded,” she emphasized that this evidence would support a
diagnosis of intellectual disability only under the diagnostic
framework of the DSM-IV, which, she made a point of stating,
“I don't use.”

disability in the DSM-IV required concurrent difficulties
or impairment in present adaptive functioning in addition
to a low intelligence quotient, she explained that, without
reference to the included explanation, she had “difficulty
understanding what [adaptive functioning] mean[t] in [her]
language.” And she testified that she found it “very difficult”
to relate the findings of her evaluation of Rodriguez
to the “legal definition[s]” of the statutory mitigating
circumstances.

Despite his expert's indifference to the background materials,
Rodriguez offered these “composite exhibits” into evidence
“as background materials that a mental health professional
would reasonably rely on in rendering a diagnosis.” He added
that “any and all of these documents would be admissible in
a penalty phase in Florida, because hearsay is admissible in
a penalty phase.” The State responded that it did not object
to any of the background materials “coming in for what [Dr.
Latterner] relied on.” But it insisted that it “would object” to
admitting “the actual substance” of the materials “for the truth
of the matter asserted.” The postconviction trial court then
ruled that “[w]ith [the State's] limited objection, I will admit
[the background materials] in that way.” After Rodriguez
asked it to repeat its ruling, the postconviction trial court
confirmed that it “admitted them with [the State's] limited
objection”—that is, as Rodriguez's counsel conceded at oral
argument, background materials for Dr. Latterner's evaluation
and not for their substance. See Oral Argument at 34:43–
53 (Aug. 24, 2017) (agreeing that this evidence was only
“presented as something for an expert to look at”).

On cross-examination, Dr. Latterner admitted that her
diagnosis of brain damage was based on “soft science,”
not “hard science,” because she had not looked at a brain
scan of Rodriguez. When the State *952 challenged her
about her preference for the ICD-9 over the DSM-IV, she
“agree[d]” that to determine whether someone is “truly
mentally retarded, it would be important to look and see how
they conducted themselves in everyday life,” even though her
diagnosis of Rodriguez was based on “testing” and not on
evidence “from his family” or others of his functioning “in
his everyday life.” She also admitted that her understanding
of the statutory mitigating circumstances was based not on
Rodriguez's emotions at the time of the crime but on her
estimate of his permanent functional capacity. Indeed, she
admitted that she never asked Rodriguez about his crime,
“how he felt that day,” or “whether he had some problem
controlling himself that day.” And she agreed that Rodriguez
knew it was wrong to kill and rob.

The State presented testimony from two experts, Dr. Haber
and Lisa Wiley, a psychological specialist at the prison
where Rodriguez was incarcerated. Both testified that in
their opinion Rodriguez is not intellectually disabled. But Dr.
Haber acknowledged *953 that Rodriguez's intelligence was
probably below average. He considered Rodriguez's facility
with language, his employment history, his ability to maintain
a bank account, his understanding of financial transactions,
his schemes to use false names and birthdates, the details of
crimes in which he participated, his leading role in the home
invasion as described by the other participants, his attempt to
procure perjured testimony, and his leadership role in prison.

During Dr. Latterner's testimony, Rodriguez asked if she “had
an opportunity to review [any] background” material before
offering an opinion. She said she had reviewed “several boxes
of papers,” most of which “were not helpful.” Rodriguez then
requested these “background” materials be marked without
further description. But the postconviction trial court wanted
to know what this background material contained, so it
asked for more information. Rodriguez replied again that
“they are background materials”—“composite exhibits”—
which included “some investigative reports from [some]
people interviewed in Cuba, concerning Mr. Rodriguez's
background, family members, teacher, etc.”

Dr. Haber maintained that Rodriguez did not meet the
criteria for any statutory mitigation. He testified that, in his
opinion, Rodriguez had the ability to conform his conduct
to the law and that there was no information to indicate
that Rodriguez was under extreme emotional disturbance
when he killed Saladrigas. He also acknowledged that he
received nothing from Rodriguez's trial counsel in preparation
for his evaluation. The postconviction trial court accepted

Dr. Latterner made clear that these background materials
were irrelevant to her diagnosis because, consistent with her
adherence to the ICD-9, she believed that “mental retardation
is diagnosed by an IQ test.” She testified that she was
not “happy about reviewing them” and that “[m]ost of
them were not helpful.” Although she testified that some of
the background materials provided evidence that “through

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5a

5

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

Rodriguez's request that Dr. Haber's original report and
deposition, described previously, be admitted into evidence.

the statutory mental health mitigators or mental retardation.”
Id. And it determined that trial counsel made a reasonable
strategic decision not to *954 call Dr. Haber as a witness at
the penalty phase because the potential mitigating effect of his
testimony did not clearly outweigh the harm of permitting the
State to question him about Rodriguez's criminal history. Id.
It then agreed with the postconviction trial court's assessment
that Dr. Latterner's testimony, which contained weaknesses,
was insufficient to establish an intellectual disability in the
light of the countervailing evidence. See id. at 1265–66.

The postconviction trial court denied Rodriguez's petition. It
discounted Dr. Latterner's testimony because “her diagnosis
[was] incompatible with the facts of the crimes” and
“[in]consistent with the DSM IV.” And it found Dr. Haber's
opinion that Rodriguez was not intellectually disabled to be
“completely supported by the evidence.” So in addition to
finding Dr. Haber's evaluation adequate, it concluded that
Kalisch was not ineffective for failing to investigate further
or to present additional evidence of mental-health mitigation.
It also concluded that Kalisch could not be faulted for not
traveling to Cuba for two independent reasons: “First, the
defendant would not talk to Mr. Kalisch about his family
in Cuba, and [s]econd, ... Mr. Kalisch would not have been
permitted entry to Cuba anyway.”

The Supreme Court of Florida also concluded that Rodriguez
failed to establish prejudice. Id. at 1266–67. It explained
that any useful background information that Kalisch would
have uncovered if he had traveled to Cuba was “substantially
the same background information” already known to Dr.
Haber. Id. at 1266; see also id. at 1264. In other words, any
additional background information would have added little to
the presentation of mental-health-mitigation evidence. Id. at
1266–67. The Supreme Court of Florida affirmed the denial
of Rodriguez's motion. Id. at 1288.

Rodriguez appealed the denial of his motion to the Supreme
Court of Florida. He argued that “the lower court erred in
denying [him] a new penalty phase” because of his “trial
counsel's failure to investigate and present mental health
mitigation.” The Supreme Court of Florida affirmed the
denial of all postconviction relief. Rodriguez II, 919 So. 2d
at 1288.

Rodriguez then filed a motion for a determination of
intellectual disability under Florida Rule of Criminal
Procedure 3.203 (2009), which required proof of an IQ score
of 70 or below and concurrent adaptive behavioral deficits
that onset before age 18. See Rodriguez v. State (Rodriguez
III), 110 So. 3d 441 (Fla. 2013) (Table); Jones v. State, 966 So.
2d 319, 329 (Fla. 2007). The postconviction trial court held
an evidentiary hearing on this issue. It considered testimony
from a total of 16 witnesses. Rodriguez's star witness was Dr.
Ricardo Weinstein, a psychologist who diagnosed Rodriguez
with intellectual disability based on a battery of mental
tests and his assessment of Rodriguez's adaptive behavior
throughout his life. Another psychologist, Dr. Enrique Suarez,
testified for the State and denied that Rodriguez was
intellectually disabled. Dr. Suarez testified that Rodriguez's
test scores were consistent with malingering and were
questionable for methodological reasons, that Rodriguez's life
activities were inconsistent with an intellectual disability, that
he had no deficits in adaptive behavior, and that the evidence
of manifestation before the age of 18 was thin.

The Supreme Court of Florida rejected Rodriguez's argument
that the postconviction trial court “erred in denying him a
new penalty phase” based on the “mental health mitigation”
presented at the evidentiary hearing. Id. at 1263. It held that
“counsel did not render ineffective assistance to Rodriguez
by failing to fully investigate mental health mitigation.”
Id. at 1264. It agreed with the postconviction trial court's
finding that Rodriguez did not cooperate with Kalisch to
develop mitigation evidence and “did not wish to involve
his family,” which supported Kalisch's decision not to
travel to Cuba. Id. at 1263; see also id. (“Rodriguez's lack
of cooperation undermines his allegations of ineffective
assistance of counsel.”). But the Supreme Court of Florida
disagreed with the finding that Kalisch could not have legally
traveled to Cuba by law. Id. at 1264.
The Supreme Court of Florida also reviewed Dr. Haber's
clinical findings and held that Kalisch could not “be faulted
for not pursuing further testing” after Dr. Haber's findings
proved unhelpful and an electroencephalogram “revealed no
evidence of brain damage.” Id. at 1265. So it upheld Kalisch's
decision not to call Dr. Haber as a penalty-phase witness “[i]n
light of the fact that Dr. Haber's report did not substantiate

The postconviction trial court denied Rodriguez's motion. It
accepted Dr. Suarez's testimony and found that “no valid
test results” established an IQ below 70. It also found that
Rodriguez had failed to establish adaptive-behavior deficits
and manifestation before the age of 18. The Supreme Court of
Florida affirmed the denial of Rodriguez's Rule 3.203 motion

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6a

6

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

in 2013. Rodriguez III, 110 So. 3d at 441. It concluded that the
trial court's ruling was “supported by competent, substantial
evidence” and that no evidence supported a reliable IQ score
of 70 or below or that Rodriguez exhibited adaptive-behavior
deficits. Id.

See Wilson v. Sellers, ––– U.S. ––––, 138 S. Ct. 1188, 1191–
92, 200 L.Ed.2d 530 (2018). The Act bars federal courts
from granting habeas relief on a claim that was adjudicated
on the merits in state court unless the relevant decision
“was contrary to, or involved an unreasonable application
of, clearly established Federal law,” or “was based on an
unreasonable determination of the facts in light of the
evidence.” 28 U.S.C. § 2254(d). The Act requires us to
review the decision based on the record developed in the
state court. See 28 U.S.C. § 2254(d); Cullen v. Pinholster,
563 U.S. 170, 180–81, 131 S.Ct. 1388, 179 L.Ed.2d 557
(2011). Section 2254(d) sets a “highly deferential standard for
evaluating state-court rulings,” Pinholster, 563 U.S. at 181,
131 S.Ct. 1388 (internal quotation marks omitted), with all
factual findings accorded “substantial deference,” Daniel v.
Comm'r, Ala. Dep't of Corr., 822 F.3d 1248, 1259 (11th Cir.
2016) (internal quotation marks omitted).

C. Rodriguez's Federal Petition for a Writ of Habeas Corpus.
After he exhausted his state remedies, Rodriguez filed a
petition for a writ of habeas corpus in the district court. He
reasserted several claims he had made in his postconviction
motion, including his claims of ineffective assistance of
penalty-phase counsel and ineligibility for the death penalty.
Although the district court concluded that the Supreme Court
of Florida unreasonably applied Strickland v. Washington,
28 U.S.C. § 2254(d), the district court, on de novo review,
determined that Kalisch's deficient performance did not
prejudice the outcome of the penalty phase. The district court
also concluded that the denial by the Supreme Court of
Florida of the Atkins claim did not involve an unreasonable
application of clearly established law or an unreasonable
determination *955 of the facts. As a result, the district court
denied Rodriguez's petition.

“[C]learly established Federal law,” 28 U.S.C. § 2254(d)(1),
refers to “the governing legal principle or principles set forth
by the Supreme Court at the time the state court renders
its decision,” Lockyer v. Andrade, 538 U.S. 63, 71–72, 123
S.Ct. 1166, 155 L.Ed.2d 144 (2003) (emphasis added). “That
statutory phrase refers to the holdings, as opposed to the
dicta, of [the Supreme] Court's decisions as of the time of the
relevant state-court decision.” Williams v. Taylor, 529 U.S.
362, 412, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000). To obtain
relief under this subsection, a petitioner must show a conflict
with those holdings so clear that it is “beyond any possibility
for fair-minded disagreement.” Harrington v. Richter, 562
U.S. 86, 102–03, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011).

The district court granted Rodriguez a certificate of
appealability on his claim of ineffective assistance of penaltyphase counsel and on his claim that the Supreme Court of
Florida rejected his Atkins claim based on an unreasonable
determination of the facts. This Court then expanded the
certificate of appealability to include his argument that the
Supreme Court of Florida's rejection of Rodriguez's Atkins
claim was an unreasonable application of clearly established
law.

When evaluating whether a state court made “an unreasonable
determination of the facts,” 28 U.S.C. § 2254(d)(2), we
presume its factual findings are correct unless rebutted “by
clear and convincing evidence.” Conner v. GDCP Warden,
784 F.3d 752, 761 (11th Cir. 2015) (citing 28 U.S.C. 2254(e)
(1)). We must be careful not to “characterize ... statecourt factual determinations as unreasonable merely because
we would have reached a different conclusion in the first
instance.” Brumfield v. Cain, 576 U.S. 305, 135 S. Ct. 2269,
2277, 192 L.Ed.2d 356 (2015) (alteration adopted) (internal
quotation marks omitted). “If ‘reasonable minds reviewing
the record might disagree about’ the state court factfinding
in question, ‘on habeas *956 review that does not suffice
to supersede’ the state court's factual determination.” Daniel,
822 F.3d at 1259 (alteration adopted) (quoting Rice v. Collins,
546 U.S. 333, 341–42, 126 S.Ct. 969, 163 L.Ed.2d 824
(2006)).

II. STANDARDS OF REVIEW
“When reviewing a district court's grant or denial of habeas
relief, we review questions of law and mixed questions of law
and fact de novo, and findings of fact for clear error.” Reaves
v. Sec'y, Fla. Dep't of Corr., 717 F.3d 886, 899 (11th Cir. 2013)
(internal quotation marks omitted). A claim of ineffective
assistance of counsel “presents a mixed question of law and
fact that we review de novo.” Pope v. Sec'y, Fla. Dep't of Corr.,
752 F.3d 1254, 1261 (11th Cir. 2014).
The Antiterrorism and Effective Death Penalty Act governs
our review of the decision of the Supreme Court of Florida.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7a

7

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

returned with a different sentence.” Wiggins v. Smith, 539
U.S. 510, 536, 123 S.Ct. 2527, 156 L.Ed.2d 471 (2003).
To answer that question, “we consider the totality of the
available mitigation evidence—both that adduced at trial, and
the evidence adduced in the habeas proceeding—and reweigh
it against the evidence in aggravation.” Porter v. McCollum,
558 U.S. 30, 41, 130 S.Ct. 447, 175 L.Ed.2d 398 (2009)
(alteration adopted) (internal quotation marks omitted).

III. DISCUSSION
We divide our analysis in two parts. First, we conclude
that, even under de novo review, Rodriguez failed to prove
prejudice sufficient to establish his claim of ineffective
assistance of penalty-phase counsel. Second, we conclude
that the Supreme Court of Florida reasonably concluded that
Rodriguez was eligible for the death penalty.

We review only the evidence actually admitted during the
state trial or postconviction proceedings. See Pinholster, 563
U.S. at 180–81, 131 S.Ct. 1388; Pope v. Sec'y for Dep't of
Corr., 680 F.3d 1271, 1289 (11th Cir. 2012). The statements
of his family and friends describing Rodriguez's upbringing
were admitted only as evidence of what an expert might look
at in evaluating mental health. See Oral Argument at 34:43–
53 (agreeing the statements of the Cuban witnesses were only
*957 “presented as something for an expert to look at”).
Because these statements were not admitted into evidence for
their substance, they were not mitigation evidence in their
own right. And Rodriguez is not entitled now to present this
evidence even on de novo review, see 28 U.S.C. § 2254(e)
(2), because he did not take advantage of the opportunity to
present the evidence during the postconviction proceedings.
See Pope, 680 F.3d at 1289 (“[W]here a petitioner was granted
an evidentiary hearing or other means of presenting evidence
to the state court on the particular claim, and the petitioner
failed to take full advantage of that hearing, despite being
on notice of and having access to the potential evidence
and having sufficient time to prepare for the hearing, that
petitioner did not exercise diligence in developing the factual
foundation of his claim in state court.”).

A. Rodriguez's Claim of Ineffective Assistance Fails Even on
De Novo Review.
We affirm the denial of relief on Rodriguez's claim
of ineffective assistance of counsel because there is no
reasonable likelihood that the postconviction evidence would
have led to a different sentence, even under de novo review.
See Berghuis v. Thompkins, 560 U.S. 370, 390, 130 S.Ct.
2250, 176 L.Ed.2d 1098 (2010) (“Courts can ... deny writs
of habeas corpus under § 2254 by engaging in de novo
review when it is unclear whether AEDPA deference applies,
because a habeas petitioner will not be entitled to a writ
of habeas corpus if his or her claim is rejected on de novo
review.” (citing 28 U.S.C. § 2254(a))). To prevail on his claim
of ineffective assistance of penalty-phase counsel, Rodriguez
“must establish both that trial counsel's performance was
deficient, and that the deficiency prejudiced the defense
during the penalty phase.” Evans v. Sec'y, Dep't of Corr., 703
F.3d 1316, 1326 (11th Cir. 2013) (en banc) (internal quotation
marks omitted). The Supreme Court has advised that “[i]f it
is easier to dispose of an ineffectiveness claim on the ground
of lack of sufficient prejudice, which ... will often be so, that
course should be followed.” Strickland, 466 U.S. at 697, 104
S.Ct. 2052. We follow that course here.

Nobody doubts that the evidence presented at trial was
unfavorable to Rodriguez. He “was convicted of first-degree
murder, armed robbery, conspiracy to commit a felony,
attempted armed robbery, armed burglary with an assault,
aggravated assault, and attempted first-degree murder.”
Rodriguez I, 609 So. 2d at 495. The State proved that
Rodriguez robbed and murdered Saladrigas. See id. at 495–
96. Indeed, Rodriguez shot Saladrigas four times after he
begged for his life—twice before he surrendered his briefcase,
once after he surrendered his briefcase, and once more after he
ran away to hide. See id. at 496. And when Rodriguez rejoined
his teenage coconspirators, he split the money in the briefcase
but kept the Rolex watch for himself. Id.

To establish prejudice, Rodriguez must prove that “there is a
reasonable probability that, but for [Kalisch's] unprofessional
errors, the result of the proceeding would have been
different.” Id. at 694, 104 S.Ct. 2052. “The likelihood of a
different result must be substantial, not just conceivable.”
Richter, 562 U.S. at 112, 131 S.Ct. 770. Indeed, “the
difference between Strickland’s prejudice standard and a
more-probable-than-not standard is slight and matters ‘only
in the rarest case.’ ” Id. (quoting Strickland, 466 U.S. at
697, 104 S.Ct. 2052). In the context of a challenge to
a sentence of death, the question is whether “there is a
reasonable probability that [the judge and jury] would have

The next day, Rodriguez, wearing the Rolex, joined
Fernandez, Sponsa, Sergio Valdez, and two others in an

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8a

8

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

attempted armed home invasion. Id. at 497. When they
arrived, he told Valdez that the two of them and a third
co-conspirator were “to tie up the people in the house and
search for money and drugs” after Fernandez and two other
confederates forced their way in. Id. This scheme was foiled
only because the homeowner opened fire on the would-be
invaders. Id. And after Rodriguez was arrested for these
crimes, he attempted to bribe another inmate to perjure
himself by framing Fernandez for the murder. Id. at 496–97.
The jury heard all of these facts. Id.

To the evidence “adduced at trial,” we must add that “adduced
in the habeas proceeding.” Porter, 558 U.S. at 41, 130 S.Ct.
447 (internal quotation marks omitted). In the postconviction
proceedings, Rodriguez called only one mitigation witness,
Dr. Latterner. “[W]e have held more than once that the mere
fact a defendant can find, years after the fact, a mental
health expert who will testify favorably for him does not
demonstrate that trial counsel was ineffective for failing to
produce that expert at trial.” Davis v. Singletary, 119 F.3d
1471, 1475 (11th Cir. 1997). That admonition could make
it difficult for Rodriguez to establish prejudice from Dr.
Latterner's testimony alone, even if its mitigation value had
not been severely compromised on cross-examination. But it
was.

At the penalty phase, the jury heard from Perfumo, the
paramedic who helped transport Saladrigas to the hospital.
Perfumo testified that although he had “been in this business
10 years” and the shooting happened two years before he
testified, Saladrigas's “case st[ood] out in [his] mind.” He
testified that Saladrigas seemed to be “in more agony than
most” shock victims, “was conscious all the way to the trauma
room,” “did not have an easy time,” and asked “more than
three or four times” on the way to the hospital if he was going
to survive. Perfumo told him he had “a good chance” even
though he “personally did not think he was going to make
it,” and he “held [Saladrigas's] hand most of the way into the
hospital.” On cross-examination, he also testified that one of
Saladrigas's wounds could “very well have been through the
heart.”

The State's cross-examination left the mitigation value
of Dr. Latterner's testimony in tatters. She admitted that
she diagnosed Rodriguez with brain damage without ever
looking at a brain scan of Rodriguez. She “agree[d]”
that her testing-only approach to diagnosing intellectual
disability conflicted not only with the DSM-IV but also
with “the common sense standpoint in determining whether
someone is truly impaired.” Dr. Latterner admitted that she
based her conclusions concerning the statutory mitigating
circumstances on her estimate of Rodriguez's permanent
mental disabilities instead of his emotions at the time of
the crime. She admitted to not even questioning Rodriguez
about the murder, his emotions on that day, or “whether
he had some problem controlling himself that day.” She
acknowledged that Rodriguez knew, even at the time of the
murder, that it was wrong to kill and rob. And even on direct
examination, Dr. Latterner confessed to struggling with the
“legal definition[s]” of the mitigating factors.

Based on this evidence, the jury recommended a sentence of
death. Rodriguez I, 609 So. 2d at 497. At the time, Florida
law required only 7 of the 12 jurors to agree to recommend a
death sentence. See Capehart v. State, 583 So. 2d 1009, 1012,
1015 (Fla. 1991). But the recommendation for Rodriguez was
unanimous. Rodriguez I, 609 So. 2d at 497.
The trial court adopted the jury's recommendation and
sentenced Rodriguez to death. Id. It found three statutory
aggravating factors: Rodriguez had a prior conviction *958
for a violent felony; Rodriguez had murdered Saladrigas
during a robbery and for financial gain; and the murder was
especially heinous, atrocious, or cruel. Id.; see also Fla. Stat.
§ 921.141(5) (1990). The trial court found “great relevance
in” Rodriguez's participation in the home invasion, explaining
that it “show[s] the kind of person he is and the despicably
bad and dangerous behavior he has exhibited.” The trial
court found only one nonstatutory mitigating factor, that
“Rodriguez had a good marriage and family life.” Rodriguez
I, 609 So. 2d at 497. But it discounted this factor based
on Castellano's admission that she knew nothing about her
husband's friends or his criminal activities.

To be sure, Rodriguez introduced evidence other than Dr.
Latterner's testimony, but that evidence was also weak. He
introduced a two-page report and a summary of test results
by another psychologist, Dr. Denis Keyes, whose findings
mirrored Dr. Latterner's and were open to all of the same
criticisms. Indeed, Rodriguez did not call Dr. Keyes as a
witness at the evidentiary hearing because “[h]is evidence
would have been substantially the same as Dr. Latterner's.”
Rodriguez also introduced Dr. Haber's report and deposition,
in which Dr. Haber referred to Rodriguez's two suicide
attempts; his childhood injury from falling off a horse; his
first-grade formal-education level; his parents’ divorce when
he was two; his admission for treatment “for nerves” to a
Cuban psychiatric hospital, which he voluntarily left on the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9a

9

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

same day after deciding “he was really okay and didn't really
belong there”; and his statement that he had “been unhappy
all of his life.” The mitigation value of Dr. Haber's report and
deposition was slender in the light of Dr. Haber's opinion—
expressed in the report, the deposition, and his postconviction
testimony—that no statutory mitigators applied to Rodriguez.
Indeed, in his deposition, Dr. Haber opined *959 that
Rodriguez's history did not raise any significant nonstatutory
mitigators either.
The State also presented powerful rebuttal evidence at
the postconviction hearing. Its most important witness was
Dr. Haber himself. He testified that Rodriguez had been
“oriented,” “pleasant,” “cooperative,” and “responsive” when
he interviewed him before the penalty phase of his trial. He
testified that he had recommended testing for possible brain
damage but that an electroencephalogram came back normal.
He offered an expert opinion that Rodriguez was “clearly
not mentally retarded.” He testified that mental deficiency
was inconsistent with multiple aspects of Rodriguez's life
history, including his facility with language, his employment
history, his understanding of financial transactions, his past
criminal activities, his leading role in the home invasion, and
his preeminent social position in jail.
Dr. Haber also contradicted Dr. Latterner's testimony. He
explained that IQ tests alone, which is all that Dr. Latterner
relied upon, could not diagnose intellectual disability. And
he disagreed with Dr. Latterner's findings that any statutory
mitigating circumstances existed. Dr. Haber explained that, in
his opinion, Rodriguez had the ability to conform his conduct
to the law and that there was no information to indicate that
Rodriguez was under extreme emotional disturbance when he
killed Saladrigas.
The State's other witnesses—Sergeant Mike Young, a deathrow prison officer; George Morin, a homicide investigator for
the City of Miami Police Department; and Wiley, the prison
psychologist—also provided compelling testimony. Sergeant
Young testified that he saw Rodriguez virtually every day, that
his verbal abilities “seemed above average,” and that he was
a “leader” of the Hispanic inmates. Morin testified that when
he interviewed Rodriguez in prison to investigate a murder,
Rodriguez gave Morin valuable details about a conversation
he had a year earlier with one of the suspects. And Wiley
gave her opinion that Rodriguez “is not retarded” based on her
years of monthly interviews with him. She also testified that
the DSM-IV was “the bible of diagnostic criteria,” and when
asked if Rodriguez showed any adaptive-behavior deficits

that would support a diagnosis of intellectual disability under
the DSM-IV, she replied that he showed “[n]one whatsoever.”
Even if Rodriguez's jury and sentencing judge had heard
the evidence from the postconviction proceedings, “[t]he
likelihood of a different result” would not have been
“substantial,” Richter, 562 U.S. at 112, 131 S.Ct. 770.
Rodriguez's postconviction mental-health evidence “was not
clearly mitigating.” Evans, 703 F.3d at 1327. Dr. Latterner's
testimony was seriously undermined on cross-examination,
and the State's witnesses thoroughly rebutted every important
point in her testimony.
Not only was the postconviction evidence weak, it was also
“a two-edged sword [that] would have opened the door to
damaging evidence.” Wood v. Allen, 542 F.3d 1281, 1313
(11th Cir. 2008) (internal quotation marks omitted), aff'd,
558 U.S. 290, 130 S.Ct. 841, 175 L.Ed.2d 738 (2010). The
postconviction evidence would have apprised the jury of
Rodriguez's criminal history, including his federal conviction
for drug trafficking and his use of aliases. The same jury
that unanimously concluded Rodriguez was guilty beyond
a reasonable doubt would have heard Dr. Haber say that
Rodriguez showed “no remorse” but rather “stated that he
was a victim himself” because he was innocent. And it would
have heard Dr. Haber's tentative but still unfavorable opinion
that nothing in his interview with Rodriguez suggested the
possibility of rehabilitation. See *960 Pinholster, 563
U.S. at 201, 131 S.Ct. 1388 (“The new evidence relating to
Pinholster's family ... is also by no means clearly mitigating,
as the jury might have concluded that Pinholster was simply
beyond rehabilitation.”).
When Rodriguez's weak postconviction mitigation evidence
is weighed against the aggravation evidence it would have
invited and the lopsided evidence adduced at trial, there is no
substantial likelihood that it would have persuaded six of 12
jurors to vote against a recommendation of death. Nor does
it create a substantial likelihood that it would have convinced
the judge to impose a different sentence.

B. The Supreme Court of Florida Reasonably Determined that
Rodriguez Is Eligible for the Death Penalty.
Rodriguez next argues that he is ineligible for the death
penalty because of intellectual disability. But this argument
too fails. The rejection of this claim neither involved an
unreasonable application of then-existing Supreme Court

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10a

10

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

precedent nor was based on an unreasonable determination of
the facts. See 28 U.S.C. § 2254(d).
To establish intellectual disability, Rodriguez needed to
present clear and convincing evidence to prove “(1)
significantly subaverage general intellectual functioning;
(2) concurrent deficits in adaptive behavior; and (3)
manifestation of the condition before age eighteen.”
Rodriguez III, 110 So. 3d at 441; see also Fla. R. Crim. P.
3.203 (2009); Atkins, 536 U.S. at 318, 122 S.Ct. 2242. At the
time, Florida law equated “significantly subaverage general
intellectual functioning” with an IQ score of 70 or below. See
Jones, 966 So. 2d at 329 (internal quotation marks omitted).
“The term ‘adaptive behavior’ ” refers to “the effectiveness
or degree with which an individual meets the standards of
personal independence and social responsibility expected of
his or her age, cultural group, and community.” Fla. R. Crim.
P. 3.203(b) (2009). The Florida Supreme Court concluded
that Rodriguez failed to present evidence establishing either a
sufficiently low IQ or deficits in adaptive behavior. Rodriguez
III, 110 So. 3d at 441.
Rodriguez argues that the decision of the Supreme
Court of Florida involved an unreasonable application of
Atkins because the then-existing standards for determining
intellectual disability conflicted with the “basic principle”
of Atkins “that state courts must defer to scientific
understandings of intellectual disability.” To prove that Atkins
“clearly established” this principle, 28 U.S.C. § 2254(d)(1),
he directs us to two footnotes in Atkins, see 536 U.S. at
308 n.3, 317 n.22, 122 S.Ct. 2242, and relies heavily on the
decisions in Hall v. Florida, 572 U.S. 701, 134 S.Ct. 1986,
188 L.Ed.2d 1007 (2014), Brumfield v. Cain, 576 U.S. 305,
135 S. Ct. 2269, 192 L.Ed.2d 356, and Moore v. Texas, –––
U.S. ––––, 137 S. Ct. 1039, 197 L.Ed.2d 416 (2017).
The Supreme Court of Florida did not unreasonably apply
Atkins, which held only that the intellectually disabled
cannot constitutionally be executed, 536 U.S. at 307, 321,
122 S.Ct. 2242, not that states must “defer to scientific
understandings” in any specific way. The footnotes cited
by Rodriguez do nothing more than say that the “state
statutory definitions of mental retardation at the time ...
‘generally conformed to the clinical definitions’ ” adopted
by the American Association on Mental Retardation and
the American Psychiatric Association. Shoop v. Hill, –––
U.S. ––––, 139 S. Ct. 504, 507, 202 L.Ed.2d 461 (2019)
(first alteration adopted; second alteration rejected) (citing
Atkins, 536 U.S. at 308 n.3, 317 n.22, 122 S.Ct. 2242). These

footnotes did not “clearly establish” that states *961 had
to defer to scientific understandings. 28 U.S.C. § 2254(d)
(1). Indeed, the Atkins Court expressly “le[ft] to the States
the task of developing appropriate ways to enforce th[is]
constitutional restriction.” 536 U.S. at 317, 122 S.Ct. 2242
(alteration adopted) (quoting Ford v. Wainwright, 477 U.S.
399, 416, 106 S.Ct. 2595, 91 L.Ed.2d 335 (1986) (plurality
opinion)).
Rodriguez's argument about the decisions that postdate Atkins
also cannot establish an unreasonable application of clearly
established law. His argument is exactly the kind of argument
foreclosed by the Antiterrorism and Effective Death Penalty
Act, which limits habeas relief based on legal error to
violations of “clearly established Federal law, as determined
by the Supreme Court.” 28 U.S.C. § 2254(d)(1) (emphasis
added). Hall, Brumfield, and Moore had yet to be decided
when the Supreme Court of Florida affirmed the finding that
Rodriguez is not intellectually disabled. So none provided
legal principles that were “clearly established” when the
Supreme Court of Florida rendered its decision. See Shoop,
139 S. Ct. at 507; Lockyer, 538 U.S. at 71–72, 123 S.Ct. 1166;
Williams, 529 U.S. at 412, 120 S.Ct. 1495.
Rodriguez also argues that the finding that he is
not intellectually disabled was an unreasonable factual
determination in the light of the evidence. See 28 U.S.C. §
2254(d)(2). Because that determination was a finding of fact,
see Fults v. GDCP Warden, 764 F.3d 1311, 1319 (11th Cir.
2014), it is presumed correct in federal habeas proceedings
unless rebutted by clear and convincing evidence, see 28
U.S.C. § 2254(e)(1). Rodriguez has produced no such
evidence, and the evidence in the state-court record supported
the finding that he is not intellectually disabled.
Although Dr. Weinstein diagnosed Rodriguez with an
intellectual disability, Dr. Suarez testified that Rodriguez is
not intellectually disabled “within a reasonable degree of
medical certainty.” And “[r]easonable minds reviewing the
record,” Collins, 546 U.S. at 341, 126 S.Ct. 969, could agree
with the decision to trust Dr. Suarez's judgment instead of Dr.
Weinstein's. Dr. Suarez testified that Dr. Weinstein's use of
the Mexican version of the Wechsler Adult Intelligence Scale,
or WAIS-III, was questionable because of cultural differences
between Mexico and Cuba. He explained that Dr. Weinstein's
method of norming the Mexican WAIS-III to United States IQ
levels was likely to underestimate the IQ of a subject without
a high school education.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11a

11

Rodriguez v. Secretary, Florida Department of Corrections, 818 Fed.Appx. 945 (2020)

Dr. Suarez also testified that he suspected Rodriguez of
malingering on tests because of his obvious motive for
underperformance, the conflict between his low scores and his
everyday functioning, his lack of cooperation with evaluation,
and his antisocial personality traits. Dr. Suarez explained
that he tested Rodriguez for malingering by administering
the Validity Indicator Profile and a dot-counting test, and
the results from both suggested malingering. For example,
Dr. Suarez testified that Rodriguez did no better on
extremely easy questions on the Validity Indicator Profile
than on extremely hard ones, which strongly suggested that
Rodriguez was answering at random.
Dr. Suarez testified that a finding of adaptive-behavior
deficits was undermined by many aspects of Rodriguez's
life history. Dr. Suarez pointed to Rodriguez's enlistment
in the Cuban Merchant Marines as a teenager, his ability
to carry on correspondence in English with a pen pal in
Holland, his employment history, his use of aliases, his ability
to negotiate and organize a large-scale drug transaction,
his interest *962 in and ability to monitor his medical
treatment, and his detailed correspondence with his girlfriend.
Dr. Suarez explained that some intellectually disabled people
might be able to engage in any one of these behaviors, but the
likelihood of an intellectually disabled person being able to
engage in all of them was minimal.

Other witnesses’ testimony supported Dr. Suarez's opinion.
For example, Wiley testified on cross-examination that
when she told Rodriguez she would be testifying in his
postconviction proceedings, he replied that his lawyers had
told him to lean back with a blank look on his face. This
testimony was consistent with Rodriguez's intent to malinger.
Faced with conflicting expert testimony, the Supreme Court
of Florida credited Dr. Suarez's opinion instead of Dr.
Weinstein's and determined that Rodriguez is eligible for the
death penalty. We are bound to respect that determination
because it was reasonable in the light of the evidence before
the state court, and Rodriguez has failed to rebut it by clear
and convincing evidence.

IV. CONCLUSION
We AFFIRM the denial of Rodriguez's petition for a writ of
habeas corpus.
JILL PRYOR, Circuit Judge, concurring in result:
I concur in the result only.
All Citations
818 Fed.Appx. 945
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12a

12

Case: 16-11258

Date Filed:
(1 of 2)
07/27/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
______________
No. 16-11258-P
______________
JUAN DAVID RODRIGUEZ,
Petitioner - Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.
__________________________________________
Appeal from the United States District Court
for the Southern District of Florida
__________________________________________
BEFORE: WILLIAM PRYOR, Chief Judge, WILSON, and JILL PRYOR, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by Juan David Rodriguez is DENIED.

ORD-41

13a

Case: 16-11258

Date Filed:
(2 of 2)
07/27/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

July 27, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 16-11258-P
Case Style: Juan Rodriguez v. Secretary, FL DOC
District Court Docket No: 1:13-cv-24567-JAL
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: David L. Thomas
Phone #: (404) 335-6171
REHG-1 Ltr Order Petition Rehearing

14a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 1 of 114

UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
Case No. 13-24567-CIV-LENARD

JUAN DAVID RODRIGUEZ,
Petitioner,
vs.
JULIE L. JONES, Secretary,
Florida Department of Corrections1,
Respondent.
______________________________\
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS
THIS CAUSE is before the Court upon, Petitioner, Juan David Rodriguez’s (“Mr.
Rodriguez”) Petition for Writ of Habeas Corpus Pursuant to 28 U.S.C. §2254. [DE 1]. Mr.
Rodriguez is on Florida’s death row at the Union Correctional Institution in Raiford, Florida
following his conviction for the first-degree murder of Abelardo Saladrigas. Mr. Rodriguez filed
this petition on December 19, 2013. [DE 1]. On March 18, 2014, the State filed its Response.
[DE 10]. On August 21, 2014, Mr. Rodriguez filed his Reply. [DE 22]. The Court has carefully
reviewed Mr. Rodriguez’s petition, the entire court file, and is otherwise fully advised in
premises. For the reasons that follow, the Petition for Writ of Habeas Corpus is DENIED.

1

During the course of these proceedings, Michael D. Crews was replaced as the Secretary
of the Department of Corrections by Julie L. Jones who is now the proper respondent in this
proceeding. Jones should, therefore, “automatically” be substituted as a party under Federal Rule
of Civil Procedure 25(d)(1). The Clerk is directed to docket and change the designation of the
Respondent.
1

15a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 2 of 114

I. FACTUAL BACKGROUND
Juan David Rodriguez was convicted of first-degree murder, armed robbery,
conspiracy to commit a felony, attempted armed robbery, armed burglary with an
assault, aggravated assault, and attempted first-degree murder. The charges which
stem from two incidents occurring on consecutive days were tried together.
Rodriguez appeals his convictions and the attendant sentences, including a
sentence of death imposed in connection with the first-degree murder. We have
jurisdiction, article V, section 3(b)(1), Florida Constitution, and affirm the
convictions and sentences.
According to his testimony at trial, on April 22, 1988, Ramon Fernandez was
introduced to the defendant at a bail bondman’s office by Carlos Sponsa. Sponsa
asked Fernandez to give the bondsman the title to his car for a few hours, so
Rodriguez could go get some money to pay his bail. Fernandez complied with the
request; however, Rodriguez never returned with the money.
On May 13, 1988, Fernandez met with Sponsa and Rodriguez and asked
Rodriguez to pay the bondsman so his car would be returned. Rodriguez told
Fernandez and Sponsa that he knew where he could get the money and told them
to follow him. The two followed Rodriguez, who drove a blue Mazda, to a
shopping center. According to Fernandez, Rodriguez went to the door of an auto
parts store in the shopping center and talked to a man inside. Rodriguez then came
over to their vehicle and told Fernandez and Sponsa to wait in front while he
drove around to the back of the shopping center to wait for the owner of the auto
parts store. Instead of waiting in the car, Fernandez went up some stairs to the
other end of the shopping center, where he saw the owner exit the store through
the front door carrying a briefcase. The owner, Abelardo Saladrigas, began
walking to the back of the shopping center. When Fernandez could no longer see
Saladrigas, he heard two shots. As Fernandez was coming down the stairs, he
heard a third shot and then saw Rodriguez chasing the victim with a gun in one
hand and the victim’s briefcase in the other. Rodriguez was yelling, “Give me the
watch; give me the watch.” The victim ran behind a car where Rodriguez shot him
a fourth time, grabbed the victim’s watch and ran to the Mazda. Fernandez also
ran to the Mazda and left with the defendant. After fleeing, Rodriguez and
Fernandez met Sponsa who had fled as soon as the first shots were fired.
Rodriguez opened the briefcase which contained papers, keys, a revolver, and
$1,200 in cash. He gave $600 to Sponsa and kept the other $600 and the victim’s
Rolex watch.
According to Fernandez, Rodriguez then described the events leading up to the
murder. Rodriguez explained that he shot Saladrigas first in the leg and then in the
stomach because the victim would not surrender his briefcase and watch. After
2

16a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 3 of 114

being shot, the victim threw the briefcase at Rodriguez and began screaming.
Rodriguez shot him again in an attempt to get the watch. After the victim ran
behind a car, Rodriguez shot him the final time and took the watch.
There was also testimony from another witness that pleas of “Don’t do this to me,
please” were heard coming from the back parking lot prior to the shots being
fired.
Jose Arzola, an employee of the murder victim, testified that he was the man who
spoke to the defendant at the front door of the auto parts store. Although
Rodriguez’s appearance had changed, Arzola made an in-court identification of
him. Arzola further testified that he had seen Rodriguez at the shopping center on
two or three occasions prior to the murder, standing on the side of the stairwell
next to the entrance to the auto parts store.
Several witnesses testified concerning Saladrigas’ dying declarations. A woman
who worked in the shopping center testified that at approximately 7:00 p.m. on
the day of the murder, she heard an argument in the back lot and heard four
muffled gunshots. According to the witness, a few seconds after hearing a scream,
Saladrigas came to the front of the shopping center and fell near the door to her
shop. When she went to him, Saladrigas told her that he had been shot by a
Mulatto, that he had been robbed of his watch and purse, and that they had left in
a blue Mazda.
The victim’s sister-in-law testified that when she arrived at the scene, Saladrigas
told her, “They robbed me, and they take my keys from the business. They take
my watch and my briefcase.” When she asked him if he knew the robbers, he told
her, “No, but I’ve seen them. They are two Mulattos.” He also told her, “They go
away in a blue Mazda.”
Officer Jans testified that he overheard Saladrigas describe the shooting.
According to the officer, Saladrigas said a couple of Mulatto males robbed him in
the back parking lot. The man who shot him was taller than average, 5 10" or 5
11" and very skinny. The robbers left in a small blue car which was either a
Mazda or a Toyota. They took his briefcase and Rolex watch. As he approached
his car, they tried to get his briefcase. There was a struggle, and he was shot a
couple of times.
Saladrigas died a short time after being taken to the hospital. According to the
medical examiner, although there were six separate gunshot wounds on the body,
these wounds were consistent with four separate projectiles having struck the
victim. The victim had two wounds to the right arm; one wound to the upper left
chest; one wound one inch above the right knee; and two wounds to the right
3

17a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 4 of 114

chest, one of which was fatal.
Francisco Reyes, who met Rodriguez in the county jail prior to trial, testified that
Rodriguez told him that Fernandez was a “snitch” and because of him Rodriguez
was “facing the chair.” According to Reyes, Rodriguez also told him Fernandez
could not have seen him commit the murder because he had told him to wait
around the corner and if Rodriguez could “get rid” of Fernandez, “they would
never know he was the one that killed or murdered.” Reyes also testified that the
defendant offered to pay him $3,000 if Reyes would testify that Fernandez
confessed to Reyes that he committed the murder.
Testimony concerning the attempted home invasion came primarily from
Fernandez and another of the participants in that incident. According to
Fernandez, the day after the murder, he, the defendant, and several other young
men went to a residence intending to invade it and rob the occupants who
according to Sponsa had large amounts of drugs and cash. Fernandez and two of
the men went in one vehicle; Rodriguez and the other two went in a separate
vehicle. Fernandez and the two men who rode with him went to the door. When a
man answered, the three attempted to push their way in. However, when the
man’s wife brought him a gun, the three ran from the house. The attempted
robbery victim shot at the three and one of them returned fire. Although
Fernandez was carrying the murder victim’s revolver during the attempted home
invasion, he did not fire it. Fernandez dropped the revolver on the front lawn
while fleeing.
Sergio Valdez, a participant in the attempted home invasion, who rode to the
scene with the defendant, also testified. Valdez’ account of the attempted home
invasion was generally consistent with that of Fernandez. He explained that he,
Rodriguez, and another man circled the residence while the other three men went
to the door. According to Valdez, Rodriguez told him it was their job to tie up the
people in the house and search for money and drugs after the others gained entry.
Valdez also testified that while in route to the residence, Rodriguez admitted that
he “had done a job” at an auto parts store the day before, and that he had stolen a
thousand dollars and the Rolex watch he was wearing from the victim.
Three weeks after the attempted home invasion, Fernandez was arrested. He
confessed to his involvement in both crimes and told police that Rodriguez shot
the victim at the auto parts store. Rodriguez was arrested and ultimately charged
in a single indictment with first-degree murder and the other offenses stemming
from the robbery/murder and the attempted home invasion.
Rodriguez v. State, 609 So.2d 493, 495-97 (Fla. 1993).

4

18a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 5 of 114

II. STATUTE OF LIMITATIONS
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) imposed a oneyear limitations period for the filing of an application for relief under § 2254. Accordingly, 28
U.S.C. § 2244(d) provides:
(1)

(2)

A 1-year period of limitation shall apply to an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of State court. The
limitation period shall run from the latest of (A)

the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;

(B)

the date on which the impediment to filing an application created by
State action in violation of the Constitution or laws of the United States
is removed, if the applicant was prevented from filing by such State
action;

(C)

the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly recognized
by the Supreme Court and made retroactively applicable to cases on
collateral review; or

(D)

the date on which the factual predicate of the claim or claims presented
could have been discovered through the exercise of due diligence.

The time during which a properly filed application for State postconviction or
other collateral review with respect to the pertinent judgment or claim is pending
shall not be counted toward any period of limitation under this subsection.

In most cases, including the present case, the limitation period begins to run pursuant to
§2244(d)(1)(A). The Eleventh Circuit has decided that the judgment becomes “final” within the
meaning of § 2244(d)(1)(A) as follows: (1) “if the prisoner files a timely petition for certiorari,
the judgment becomes ‘final’ on the date on which the Supreme Court issues a decision on the
merits or denies certiorari, or (2) the judgment becomes ‘final’ on the date on which the

5

19a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 6 of 114

defendant’s time for filing such a petition expires.” Bond v. Moore, 309 F.3d 770, 773-74 (11th
Cir. 2002). The State has not argued that the petition is time-barred. The Court proceeds to the
merits.
III. PROCEDURAL HISTORY
Mr. Rodriguez was found guilty of all charges, and a unanimous jury recommended that
Mr. Rodriguez be sentenced to death for the murder of Abelardo Saladrigas. The trial court
followed the recommendation, and found three aggravating factors: (1) a prior conviction of
violent felony; (2) the murder was committed during a robbery and for financial gain; and (3) the
murder was especially heinous, atrocious, or cruel (HAC). The trial court found that Mr.
Rodriguez’s good marriage and family life constituted one nonstatutory mitigating factor.
On direct appeal, Rodriguez raised multiple claims relating to both the guilt and penalty
phases of his trial.2 The Florida Supreme Court did not find reversible error on any of
Rodriguez’s claims and affirmed both his convictions and sentences, including the death
sentence. Id. at 501.
In September 1994, Mr. Rodriguez filed his first motion for postconviction relief pursuant

2

Rodriguez claimed that the trial court erred by proceeding without the presence of a
defense witness and by refusing to permit introduction of the witness’s prior deposition
testimony; it was fundamental error to conduct a joint trial for the first-degree murder charge and
the charges stemming from the attempted home invasion; it was error to admit the identification
testimony by the victim’s sister-in-law; inadmissible hearsay was introduced to improperly
bolster the testimony of State witnesses; the death penalty is disproportionate in his case; the
prosecutor made improper comments on Rodriguez’s demeanor off the stand; the murder was not
HAC; the sentencing order was deficient and reflected that the trial court did not consider certain
mitigating factors; the trial court improperly considered the impassioned pleas of family
members; and Florida’s death penalty statute is unconstitutional. Rodriguez, 609 So.2d at 497,
500.
6

20a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 7 of 114

to Florida Rule of Criminal Procedure 3.850. He filed amended motions in October 1995, April
1997, and July 1997. Mr. Rodriguez based each amendment on continued compliance with his
public records requests by state agencies. At a Huff hearing, the defense attempted to file a
fourth amended motion, but the trial court refused to recognize this amendment and proceeded
on the claims raised in the third amended motion. After argument, the trial court ruled that an
evidentiary hearing would be conducted on two of the thirty claims raised in Mr. Rodriguez’s
motion.3 The trial court granted an evidentiary hearing on claims three and eight, regarding the
3

The thirty claims raised in Mr. Rodriguez’s 192-page motion alleged: (1) certain public
files and records pertaining to his case were withheld in violation of chapter 119, Florida Statutes
(1997); (2) the State withheld exculpatory evidence; (3) counsel failed to obtain an adequate
mental health evaluation and failed to provide the necessary background information to the
mental health consultants as required under Ake v. Oklahoma, 470 U.S. 68, 105 S.Ct. 1087, 84
L.Ed.2d 53 (1985); (4) counsel rendered ineffective assistance at the guilt phase in failing to
prepare an adequate defense, to request a severance of the offenses, to object to the admission of
identification testimony, and other deficient performance; (5) counsel was ineffective in failing to
discover and remove biased jurors during voir dire; (6) Mr. Rodriguez was denied adversarial
testing when exculpatory evidence was withheld; (7) Mr. Rodriguez is innocent of first-degree
murder; (8) counsel rendered ineffective assistance at both the guilt and sentencing phases in
failing to investigate mitigating evidence; (9) the aggravating circumstances set forth in the death
penalty statute are unconstitutionally vague and overbroad; (10) the jury instruction on the
violent felony aggravating circumstance was vague and overbroad; (11) the jury instruction on
the pecuniary gain aggravating circumstance was vague and overbroad; (12) the jury instruction
on the committed during the course of a robbery aggravating circumstance was vague and
overbroad; (13) the jury was improperly instructed on the HAC aggravating circumstance; (14)
the jury was improperly instructed that one single act supported two separate aggravating
circumstances; (15) comments by the court and the prosecutor as to the jury’s advisory role
diluted the jury’s sense of responsibility for sentencing in violation of Caldwell v. Mississippi,
472 U.S. 320 (1985); (16) the penalty phase jury instructions improperly shifted the burden to
Rodriguez to prove that the death penalty was inappropriate; (17) the use of the underlying
robbery to support the felony aggravating circumstance is an unconstitutional automatic
aggravating circumstance; (18) the sentencing judge failed to find mitigating circumstances
established by the evidence in the record; (19) newly discovered evidence establishes that Mr.
Tata planned the crimes and was the leader of the group, not Mr. Rodriguez; (20) the prosecutor
introduced nonstatutory aggravating factors which the sentencing court relied upon in imposing
the death penalty; (21) counsel rendered ineffective assistance in failing to object to the
prosecutor's improper conduct and argument; (22) Florida’s capital sentencing statute is
7

21a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 8 of 114

adequacy of Mr. Rodriguez’s mental health evaluation and counsel’s investigation of possible
mitigating evidence. At the evidentiary hearing, the trial court heard testimony from Mr.
Rodriguez’s trial counsel, the mental health expert who evaluated Mr. Rodriguez for trial, and
the mental health expert who evaluated Mr. Rodriguez for his postconviction claims. After the
hearing, the trial court found no merit to Mr. Rodriguez’s mental health, mitigation, and other
claims, and denied postconviction relief.
Mr. Rodriguez appealed the denial of postconviction relief4 to the Florida Supreme Court

unconstitutional on its face and as applied; (23) the prosecutor impermissibly suggested that the
law required the jury to recommend a sentence of death; (24) Mr. Rodriguez was denied a proper
direct appeal due to omissions in the record; (25) Rule Regulating the Florida Bar 4-3.5(d)(4)
prohibits Mr. Rodriguez from interviewing jurors regarding juror misconduct; (26) juror
misconduct occurred in both the guilt and penalty phases of the trial; (27) cumulative error
requires a new trial; (28) judicial bias, including that the judge permitted the State to prepare the
sentencing order, requires a new trial; (29) Mr. Rodriguez was incapable of making a knowing,
intelligent waiver of any constitutional rights due to his mental retardation; and (30) newly
discovered evidence establishes that execution by electrocution is cruel and unusual punishment.
Rodriguez, 919 So.2d at 1261 (Fla. 2005).
4

On appeal, Mr. Rodriguez raised twelve issues and several sub-issues regarding the trial
court’s original denial of postconviction relief. Mr. Rodriguez contends that (1) the trial court
erred in denying a new penalty phase where the evidentiary hearing showed that trial counsel
failed to investigate and present mental health mitigation and the mental health expert rendered
inadequate mental health assistance; (2) the trial court erred in allowing the State to prepare the
sentencing order; (3) the trial court erred in summarily denying his claims of a Brady violation
based on the State’s failure to disclose information concerning Mr. Tata, an Ake violation based
on failure to provide him with an adequate mental health evaluation, and ineffective assistance of
trial counsel based on counsel’s failure to investigate or prepare for trial, to request a severance
of offenses, and to object to various other errors at trial; (4) Mr. Rodriguez was denied effective
assistance of counsel due to the failure of various agencies to comply with his public records
requests; (5) the trial judge displayed judicial bias at trial and during the postconviction
proceedings; (6) trial counsel was ineffective in failing to object to jury instructions regarding the
aggravating circumstances, burden shifting, the jury’s responsibility for sentencing, and an
automatic aggravating circumstance; (7) prosecutorial misconduct occurred during the closing
argument; (8) the Florida death penalty statute is unconstitutional; (9) an incomplete record on
direct appeal led to ineffective assistance of counsel; (10) the Rule Regulating the Florida Bar
8

22a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 9 of 114

and also sought a writ of habeas corpus.5
The Florida Supreme Court concluded that Mr. Rodriguez’s allegation relating to the
preparation of his sentencing order, which Mr. Rodriguez had attempted to raise in the fourth
amended motion, warranted an evidentiary hearing. Thus, the court temporarily relinquished
jurisdiction to the trial court for the purpose of conducting an evidentiary hearing on that issue
and to make additional findings and conclusions. The trial court denied Mr. Rodriguez relief on
the sentencing order claim and he appealed. During the pendency of his appeal, Mr. Rodriguez
also moved for the court to relinquish jurisdiction to the trial court so that he could file a motion
under Florida Rule of Criminal Procedure 3.2036 for a determination of mental retardation. The

4-3.5(d)(4) prohibition on communication with jurors restricts Mr. Rodriguez’s access to the
courts; (11) impermissible victim impact was considered in Mr. Rodriguez’s sentencing; and (12)
Mr. Rodriguez did not receive a fundamentally fair trial because of cumulative error.
5

Mr. Rodriguez raised the following claims in his petition for a writ of habeas corpus:
(1) appellate counsel was ineffective for failing to raise numerous issues, including improper
prosecutorial argument, improper jury instructions, the unconstitutionality of Florida’s death
penalty statute, the improper admission of opinion testimony, the introduction of gruesome and
misleading photographs, the improper exclusion of testimony regarding Tata’s non-arrest, and an
incomplete record on appeal; (2) this Court failed to conduct a meaningful harmless error
analysis when considering the effect of improper prosecutorial argument and inadmissible
hearsay testimony in the direct appeal case; and (3) the constitutionality of the first-degree
murder indictment must be revisited in light of the United States Supreme Court’s decisions in
Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002), and Apprendi v. New
Jersey, 530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed.2d 435 (2000).
6

Florida Rule of Criminal Procedure 3.203, which became effective on October 1, 2004,
“applies in all first-degree murder cases in which the state attorney has not waived the death
penalty on the record and the defendant’s mental retardation becomes an issue.” Fla. R.Crim. P.
3.203(a). The rule specifies the time for filing a motion for determination of mental retardation as
a bar to execution. In circumstances such as Mr. Rodriguez’s, i.e., if the death-sentenced prisoner
has filed a motion for postconviction relief that has been ruled on by the trial court and an appeal
is pending on or before the effective date of the rule, the prisoner may file a motion to relinquish
jurisdiction for determination of mental retardation. Fla. R.Crim. P. 3.203(d)(4)(E).
9

23a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 10 of 114

court issued an order denying the motion, but without prejudice to Mr. Rodriguez’s right to file a
rule 3.203 motion upon disposition of his postconviction appeal. Ultimately, the Florida
Supreme Court found “no merit to Mr. Rodriguez’s rule 3.850 claims, affirm[ed] the trial court’s
denial of the motion, and den[ied] his petition for writ of habeas corpus.” Rodriguez, 919 So. 2d
at 1288.
Thereafter, Mr. Rodriguez filed a Motion to Vacate Sentence of Death and for
Determination of Mental Retardation as a Bar to Execution. See Rodriguez v. State, 110 So.3d
441 (Fla. 2013). After an evidentiary hearing, the trial court concluded that Mr. Rodriguez was
not mentally retarded as defined by Florida Rule of Criminal Procedure 3.203. On appeal, the
Florida Supreme Court concluded that the trial court’s finding that Mr. Rodriguez was not
mentally retarded was supported by competent, substantial evidence and affirmed the denial of
relief. Id.
On December 19, 2013, Mr. Rodriguez filed his petition for writ of habeas corpus by a
person in state custody pursuant to 28 U.S.C. §2254 . [DE 1]. The State has responded and Mr.
Rodriguez has replied. This matter is now ripe.
IV. MR. RODRIGUEZ’S CLAIMS AND APPLICABLE STANDARDS
Mr. Rodriguez’s habeas corpus petition is governed by the Anti-Terrorism and Effective
Death Penalty Act of 1996 (AEDPA), Pub. L. 104-132, 110 Stat. 1214 (1996) (codified at
various provisions in Title 28 of the U.S. Code), which significantly changed the standards of
review that federal courts apply in habeas corpus proceedings. Under the AEDPA, if a claim was
adjudicated on the merits in state court, habeas corpus relief can only be granted if the state
court’s adjudication “resulted in a decision that was contrary to, or involved an unreasonable
10

24a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 11 of 114

application of, clearly established federal law, as determined by the Supreme Court of the United
States,” or “resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the state court proceeding.” 28 U.S.C. § 2254(d)(1)-(2). This
is an “exacting standard.” Maharaj v. Sec’y, Dep’t. of Corr., 432 F.3d 1292, 1308 (11th Cir.
2005). Pursuant to § 2254(d)(1), a state court decision is “contrary to” Supreme Court precedent
if it “arrives at a conclusion opposite to that reached by [the Supreme] Court on a question of
law” or “confronts facts that are materially indistinguishable from a relevant Supreme Court
precedent and arrives at [an] [opposite] result.” Williams v. Taylor, 529 U.S. 362, 405 (2000). In
other words, the “contrary to” prong means that “ the state court’s decision must be substantially
different from the relevant precedent of [the Supreme] Court.” Id.
With respect to the “unreasonable application” prong of § 2254(d)(1), which applies when
a state court identifies the correct legal principle but purportedly applies it incorrectly to the facts
before it, a federal habeas court “should ask whether the state court’s application of clearly
established federal law was objectively unreasonable.” Id. at 409; see also Wiggins v. Smith, 539
U.S. 510, 520-21 (2003). Significantly, an “objectively unreasonable application of federal law is
different from an incorrect application of federal law.” Woodford v. Visciotti, 537 U.S. 19, 24-25
(2002). An “unreasonable application” can also occur if a state court “unreasonably extends, or
unreasonably declines to extend, a legal principle from Supreme Court case law to a new
context.” Putman v. Head, 268 F.3d 1223, 1241 (11th Cir. 2001).
As noted above, § 2254(d)(2) provides an alternative avenue for relief. Habeas relief may
be granted if the state court’s determination of the facts was unreasonable. “A state court’s
determination of the facts, however, is entitled to deference” under § 2254(e)(1). See Maharaj,
11

25a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 12 of 114

432 F.3d at 1309. This means that a federal habeas court must presume that findings of fact by a
state court are correct; and, a habeas petitioner must rebut that presumption by clear and
convincing evidence. See Hunter v. Sec’y, Dep’t. of Corr., 395 F.3d 1196, 1200 (11th Cir.
2005).
Finally, where a federal court would “deny relief under a de novo review standard, relief
must be denied under the much narrower AEDPA standard.” Jefferson v. Fountain, 382 F.3d
1286, 1295 n.5 (11th Cir. 2004). Even if the Court believed the Florida Supreme Court’s
determination to be an incorrect one, under AEDPA deference that alone is not enough to grant
habeas relief, the Court must also find that “there is no possibility fair-minded jurists could
disagree that the state court’s decision conflicts with [United States Supreme Court] precedents.”
Harrington v. Richter, 131 S.Ct. 770, 783 (2011). In other words, as a condition for obtaining
habeas corpus relief from a federal court, a state prisoner must show that the state court’s ruling
on the claim being presented in federal court was so lacking in justification that there was an
error well understood and comprehended in existing law beyond any possibility for fairminded
disagreement. See id. (emphasis added).
V. ANALYSIS
Mr. Rodriguez asserts six claims for federal habeas relief. First, Mr. Rodriguez argues
that his trial counsel failed to obtain an adequate mental health evaluation and provide necessary
background information to his mental health consultants in violation of Ake v. Oklahoma.
Second, Mr. Rodriguez asserts that he is mentally retarded and his execution is barred by Atkins
v. Virginia. Third, Mr. Rodriguez contends his counsel was ineffective during the penalty phase
of his trial, in particular, that trial counsel failed to investigate and present mitigating evidence.
12

26a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 13 of 114

Fourth, the Florida courts made an unreasonable determination of the facts when it concluded
that Mr. Rodriguez is not mentally retarded. Fifth, Mr. Rodriguez contends his counsel was
ineffective during the guilt phase of his trial, in particular, that trial counsel failed to investigate
and prepare for trial and he also alleges that the State withheld information in violation of Brady
and Giglio. Sixth, Mr. Rodriguez contends he received ineffective assistance of appellate
counsel when counsel failed to argue on direct appeal that his constitutional right to
confrontation was denied at trial. For the reasons that follow, the Court finds that Mr. Rodriguez
has not satisfied the statutory mandates of the AEDPA. Therefore, federal habeas relief cannot
be granted.
Claim I: Ake v. Oklahoma Violation
In Mr. Rodriguez’s first claim for federal habeas relief, he asserts that his counsel failed
to obtain an adequate mental health evaluation and provide necessary background information to
his mental health consultants.7 ([DE 1] at 22). Mr. Rodriguez argues that he was not only
prejudiced during the penalty phase of his trial for this failure but that he was also prejudiced
7

Mr. Rodriguez’s claim seems to vacillate between an ineffective assistance of trial
counsel and ineffective assistance of the appointed clinical psychologist. Neither argument is
directly supported by Ake v. Oklahoma which held “that when a defendant demonstrates to the
trial judge that his sanity at the time of the offense is to be a significant factor at trial, the State
must, at a minimum, assure the defendant access to a competent psychiatrist who will conduct an
appropriate examination and assist in evaluation, preparation, and presentation of the defense.”
470 U.S. at 83. In analyzing an Ake claim, “[w]e first examine the information before the trial
court when it is alleged to have deprived the defendant of due process. We then determine
whether that information should have led the trial court to conclude that the defendant would
probably not receive a fair trial.” Clisby v. Jones, 960 F.2d 925, 929-30 (11th Cir. 1992)(en
banc)(“Specifically, we must assess the reasonableness of the trial [court]'s action at the time [it]
took it and we are to evaluate the actions of the trial [court] based on the evidence presented to
[it].”).

13

27a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 14 of 114

during the guilt phase because his mental state “was also relevant to his waiver of his rights, to
his capacity to form the requisite intent for the charged offenses, and his ability to assist counsel
in his own defense.” (Id.). Specifically, Mr. Rodriguez contends that while his counsel did seek
an independent psychiatric examiner and Mr. Rodriguez was evaluated by a clinical psychologist,
it was the defense expert’s opinion that the presence or absence of organic brain disorder could
not be diagnosed until a complete neurological and neuropsychological test examination was
conducted. (Id. at 23). Where Mr. Rodriguez finds fault is in defense counsel’s failure to retain a
neuropsychologist to examine Mr. Rodriguez and for failing to provide background information
concerning Mr. Rodriguez’s family history, educational background, and medical history to the
retained expert. Without that information, the expert could not conduct a complete or thorough
evaluation of Mr. Rodriguez.8
Here, Mr. Rodriguez’s Ake claim does not satisfy the pleading requirements of the
Federal Rules Governing Habeas Petitions. To the extent this is an Ake claim at all, it is
insufficiently pled.9 Habeas corpus petitions must meet heightened pleading requirements, see

8

Mr. Rodriguez did not advise the Court that in addition to retaining a psychologist,
defense counsel also retained a neurologist following Dr. Haber’s evaluation. This fact was
brought to the Court’s attention by the State. ([DE 10] at 63). “Based on Dr. Haber’s concerns,
trial counsel retained Dr. Noble David, a professor and acting chairman of Department of
Neurology at the University of Miami School of Medicine, to conduct a neurological evaluation.
Dr. David reported “no evidence of significant neurologic or brain disease.” Rodriguez, 919
So.2d at 1265.
9

Mr. Rodriguez has simply duplicated his appellate brief to the Florida Supreme Court
in his federal habeas petition by merging the allegations in his Ake claim with his other sub-claim
that “[t]he lower court erred in denying Mr. Rodriguez a new penalty phase after the limited
evidentiary hearing” claim. (See [DE 15-4] at 33 & [DE 15-4] at 87). The Florida Supreme
Court viewed this sub-claim to be part of Mr. Rodriguez’s ineffective assistance of counsel claim
not an Ake claim. Here, Mr. Rodriguez does not cite or argue Strickland.
14

28a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 15 of 114

28 U.S.C. § 2254 Rule 2©, and comply with this Court’s doctrines of procedural default and
waiver, see Coleman v. Thompson, 501 U.S. 722, 111 S.Ct. 2546, 115 L.Ed.2d 640 (1991).
Federal courts are authorized to dismiss summarily any habeas petition that appears legally
insufficient on its face, see 28 U.S.C. § 2254, Rule 4. Mr. Rodriguez’s petition fails to advise the
Court of even the most minimal information required for the Court to make the requisite
determinations pursuant to the AEDPA. Mr. Rodriguez has failed to cite or attempt to explain
how the decision of the Florida Supreme Court was an unreasonable application of clearly
established federal law. This omission, in and of itself, is enough to warrant denial of federal
habeas relief.
Mr. Rodriguez must show that the highest state court, in this instance, the Florida
Supreme Court, made an unreasonable application of clearly established federal law or made an
unreasonable determination of the facts based on the record. It is imperative for a petitioner to
advise the federal habeas court of the state court’s determination and explain why that
determination is either: (1) an unreasonable application of clearly established federal law (citing
the clearly established federal law) or (2) an unreasonable determination of the facts based on the
record (citing the portions of the record that supports his argument). Mr. Rodriguez has done
neither.
Nonetheless, the Court culled the opinions of the Florida Supreme Court. The denial of
this claim was affirmed on appeal without a merits determination. The court found that this
claim was “procedurally barred because it should have been raised on direct appeal.” Rodriguez,
919 So.2d at 1267. In Florida, issues which could be but are not raised on direct appeal may not
be the subject of a subsequent Rule 3.850 motion for postconviction relief. Kennedy v. State,

15

29a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 16 of 114

547 So.2d 912 (Fla. 1989). Further, even if the subject claim was amenable to challenge in a
Rule 3.850 motion, it cannot now be raised in a later Rule 3.850 motion because, except under
limited circumstances not present here, Florida law bars successive Rule 3.850 motions. See
Fla.R.Crim.P. 3.850(f); see also Moore v. State, 820 So.2d 199, 205 (Fla. 2002)(holding that a
second or successive motion for postconviction relief can be denied on the ground that it is an
abuse of process if there is no reason for failing to raise the issues in the previous motion).
Claims that are unexhausted and procedurally defaulted in state court are not reviewable
by the Court unless the petitioner can demonstrate cause for the default and actual prejudice,
Wainwright v. Sykes, 433 U.S. 72 (1977), or establish the kind of fundamental miscarriage of
justice occasioned by a constitutional violation that resulted in the conviction of a defendant who
was “actually innocent,” as contemplated in Murray v. Carrier, 477 U.S. 478 (1986). See House
v. Bell, 547 U.S. 518 (2006). Since Mr. Rodriguez has not alleged, let alone established, cause to
excuse his default, it need not be determined whether he suffered actual prejudice.10 See Glover v.
Cain, 128 F.3d 900, 904 n.5 (5th Cir. 1997). This claim is insufficiently pled and procedurally
barred. Habeas relief is denied.
Claim II: Legal Determination of Mental Retardation
Mr. Rodriguez’s second claim for federal habeas relief is that he is mentally retarded and
ineligible for the death penalty. Mr. Rodriguez argues that his death sentence is contrary to
Atkins v. Virginia and is in violation of the prohibition against cruel and unusual punishment

10

Moreover, Mr. Rodriguez has not argued that his postconviction counsel was
ineffective such that any procedural bar should be excused. Martinez v. Ryan, 132 S.Ct. 1309
(2012)(a federal habeas court may excuse the procedural default of an ineffective assistance of
trial counsel claim when that claim was not properly presented in state court due to
postconviction counsel’s errors in an initial-review collateral proceeding.).
16

30a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 17 of 114

under the Eighth and Fourteenth Amendments. ([DE 1] at 35). The substance of this claim is
legal argument; rather, than factual argument. Mr. Rodriguez makes his factual arguments
relating to his Atkins claim in Claim IV of the instant petition. (See [DE 1] at 54).
Mr. Rodriguez admits that he does not meet Florida’s definition of mental retardation but
argues that Florida’s definition is unconstitutional. Specifically, Mr. Rodriguez asserts that “the
Florida scheme for determining whether a death sentenced inmate is mentally retarded is
arbitrary and runs the very real risk that people who meet the accepted clinical definition of
mental retardation will still be executed.” (Id. at 37). Mr. Rodriguez contends that the Florida
Supreme Court unreasonably applied Atkins. The Florida Supreme Court denied Mr.
Rodriguez’s Atkins claim as follows:
Juan David Rodriguez, a prisoner under sentence of death, appeals the trial court's
order denying his Motion to Vacate Sentence of Death and for Determination of
Mental Retardation as a Bar to Execution. After an evidentiary hearing, the trial
court concluded that Rodriguez is not mentally retarded under Florida Rule of
Criminal Procedure 3.203. We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.
We conclude that the trial court's finding that Rodriguez is not mentally retarded
is supported by competent, substantial evidence and affirm the denial of relief.
To establish mental retardation as a bar to the imposition of the death penalty,
Rodriguez must prove each of the following three elements: (1) significantly
subaverage general intellectual functioning; (2) concurrent deficits in adaptive
behavior; and (3) manifestation of the condition before age eighteen. See Fla.
R.Crim. P. 3.203(b); see also § 921.137(1), (4), Fla. Stat. (2009); Franqui v. State,
59 So.3d 82 (Fla.2011). “ ‘[S]ignificantly subaverage general intellectual
functioning’ correlates with an IQ of 70 or below.” Jones v. State, 966 So.2d 319,
329 (Fla.2007). Here, there is no evidence that Rodriguez has ever had a reliable
IQ score of 70 or below. Furthermore, there is no evidence that Rodriguez exhibits
adaptive behavior deficits. Thus, Rodriguez has failed to prove that he is mentally
retarded under Florida law. Accordingly, we affirm the trial court’s order which
concluded that Rodriguez is not mentally retarded. We also deny Rodriguez’s
claim that Florida’s scheme for the assessment of mental retardation in
post-conviction death penalty cases is unconstitutional.
Rodriguez v. State, 110 So.3d 441 (Fla. 2013).
17

31a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 18 of 114

In the interim period between when Mr. Rodriguez filed his federal habeas petition and
the date of this Order, the Supreme Court has clarified how state courts should interpret mental
retardation statutes. See Hall v. Florida, 134 S.Ct. 1986 (2014). The Court considers the law
before and after Hall.
Atkins v. Virginia, 536 U.S. 304 (2002)
In Atkins, the United States Supreme Court held that the execution of mentally retarded
offenders is categorically prohibited by the Eighth Amendment to the U.S. Constitution. 536 U.S.
at 321. Atkins did not define mental retardation, leaving it to the states to develop appropriate ways
to prohibit the execution of the mentally retarded. However, the Court did provide some guidance
to the states regarding the definition of mental retardation by citing two clinical definitions of mental
retardation that it noted were consistent with many state statutory definitions.
The American Association on Mental Retardation (AAMR) defines mental
retardation as follows: “ Mental retardation refers to substantial limitations in present
functioning. It is characterized by significantly subaverage intellectual functioning,
existing concurrently with related limitations in two or more of the following
applicable adaptive skill areas: communication, self-care, home living, social skills,
community use, self-direction, health and safety, functional academics, leisure, and
work. Mental retardation manifests before age 18.” Mental Retardation: Definition,
Classification, and Systems of Supports 5 (9th ed.1992).
The American Psychiatric Association’s definition is similar: “The essential feature
of Mental Retardation is significantly subaverage general intellectual functioning
(Criterion A) that is accompanied by significant limitations in adaptive functioning
in at least two of the following skill areas: communication, self-care, home living,
social/interpersonal skills, use of community resources, self-direction, functional
academic skills, work, leisure, health, and safety (Criterion B). The onset must occur
before age 18 years (Criterion C). Mental Retardation has many different etiologies
and may be seen as a final common pathway of various pathological processes that
affect the functioning of the central nervous system.” Diagnostic and Statistical
Manual of Mental Disorders 41 (4th ed. 2000). “Mild” mental retardation is typically
used to describe people with an IQ level of 50–55 to approximately 70. Id., at 42–43.

18

32a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 19 of 114

Atkins, 536 U.S. at 308, n. 3. Since 2002, when the United States Supreme Court determined that
“mentally retarded defendants are unable to contribute fully to their defenses, particularly having an
under-developed conception of blameworthiness, a lack of knowledge of basic facts, and an
increased susceptibility to the influence of authority figures,” state courts have varied as to how to
define mental retardation. Atkins, 536 U.S. at 318. This variance resulted from the Court not
defining mental retardation; instead, leaving it up to the states to craft a definition within the bounds
of the established medical community.
At the time of Mr. Rodriguez’s state collateral proceedings, Florida defined “mental
retardation” as “significantly subaverage general intellectual functioning existing concurrently with
deficits in adaptive behavior and manifested during the period from conception to age 18.” The
Florida statutes further defined “significantly subaverage general intellectual functioning” as
“performance that is two or more standard deviations from the mean score on a standardized
intelligence test.” The Florida Supreme Court interpreted this definition as requiring a petitioner to
establish that he has an IQ of 70 or below. See Jones v. State, 966 So.2d 319, 329 (Fla. 2007).
Mr. Rodriguez argues that Florida’s requirement that a defendant must have an IQ of 70
or below to be considered mentally retarded violates the clear dictates of Atkins and is
unconstitutional under the Eighth Amendment. Mr. Rodriguez avers that is so because, in
Atkins, the Court (while explaining the Wechsler Adult Intelligence Scales test and how the
results are often interpreted) stated that “[i]t is estimated that between 1 and 3 percent of the
population has an IQ between 70 and 75 or lower, which is typically considered the cutoff IQ
score for the intellectual functioning prong of the mental retardation definition.” Atkins, 536 U.S.
at 2245, n.5. The Court cited the Diagnostic and Statistical Manual of Mental Health Disorders

19

33a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 20 of 114

in Atkins which states that “[m]ild mental retardation is typically used to describe people with an
IQ level of 50-55 to approximately 70.” Id. at 309, n.3. (emphasis added). The Court could
have, but did not, dictate a numerical score that would be the cut-off for IQ test results and
mental retardation. Rather, the Court left it up to the states to “develop appropriate” ways to
enforce the constitutional restriction. See Hill v. Schofield, 608 F.3d 1272, 1278 (11th Cir.
2010)(rev’d on other grounds). This was the clearly established federal law at time the Florida
Supreme Court denied Mr. Rodriguez’s Atkins claim.
It was not until May 27, 2014, that the United States Supreme Court determined
“Florida’s law contravenes our Nation’s commitment to dignity and its duty to teach human
decency as the mark of a civilized world” and that “[s]tates are laboratories for experimentation,
but those experiments may not deny the basic dignity the Constitution protects.” Id. at 2001.
Specifically, “Florida’s rule disregards established medical practice in two interrelated ways. It
takes an IQ score as final and conclusive evidence of a defendant’s intellectual capacity, when
experts in the field would consider other evidence. It also relies on a purportedly scientific
measurement of the defendant’s abilities, his IQ score, while refusing to recognize that the score
is, on its own terms, imprecise.” Id. at 1995 (emphasis added). Effectively, the Supreme Court
found that a strict IQ cut-off of 70, without more, cannot be the sole consideration in the
determination of mental retardation. This change, however, does not effect the outcome of Mr.
Rodriguez’s claim.
Hall v. Florida, 134 S.Ct. 1986 (2014)
At issue in Hall was whether or not the Florida Supreme Court’s interpretation of Florida
law (“a person whose test score is above 70, including a score within the margin for

20

34a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 21 of 114

measurement error, does not have an intellectual disability and is barred from presenting other
evidence that would show his faculties are limited”) violates the Eighth Amendment. Id. at 1994.
The Court held that “the Florida statute [Fla. Stat. 921.137(1)], as interpreted by its courts, is
unconstitutional.” Id. at 2000. (emphasis added). The Court, citing medical experts, agreed that
“when a defendant’s IQ test score falls within the test’s acknowledged and inherent margin of
error, the defendant must be able to present additional evidence of intellectual disability,
including testimony regarding adaptive deficits.” Id. at 2001. The Court remanded the case back
to the Florida Supreme Court with the directive that “Freddie Lee Hall may or may not be
intellectually disabled, but the law requires that he have the opportunity to present evidence of
his intellectual disability, including deficits in adaptive functioning over his lifetime.” Id.
Mr. Rodriguez’s claim is not factually similar to Mr. Hall’s. Mr. Rodriguez has had the
opportunity to present evidence of his alleged intellectual disability during an evidentiary hearing
in state court. While Mr. Rodriguez disagrees with the state court’s factual findings (Claim IV),
the application of the clearly established federal law to the facts is not unreasonable. The Florida
Supreme Court reviewed the testimony from the Rule 3.203 hearing and determined, not only,
did Mr. Rodriguez not establish an IQ of 70 or below but it also found that Mr. Rodriguez failed
to show that he exhibits adaptive deficits. Considering Atkins and Hall, the court’s legal analysis
was not unreasonable. Habeas relief is denied.
Claim III: Ineffective Assistance of Penalty Phase Counsel
Mr. Rodriguez’s third claim for federal habeas relief is that trial counsel’s performance
during the penalty phase was ineffective. ([DE 1] at 54). Specifically, Mr. Rodriguez alleges that
“[t]rail [sic] counsel Scott Kalisch failed to conduct the ‘requisite, diligent’ investigation into Mr.

21

35a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 22 of 114

Rodriguez’s background to unearth available and plentiful mitigation.” (Id. at 60). In support of
his claim, Mr. Rodriguez argues that his counsel did not retain a mental health expert until after
he was convicted of first-degree murder. (Id. at 61). Mr. Rodriguez contends this illustrates
counsel’s unpreparedness for the penalty phase of his trial. (Id.) Further, Mr. Rodriguez argues
that “without having conducted any research into likely areas of mental health investigation, and
without having conducted any adequate investigation into Mr. Rodriguez’s family history in
Cuba, Mr. Kalisch was in large part responsible for Dr. Haber’s constitutionally inadequate
evaluation.” (Id. at 96-97). Mr. Rodriguez contends that the social and family background
information should have been an integral part of a psychological assessment but also that
information was mitigation in its own right. (Id. at 68-69). Mr. Rodriguez seeks “a full hearing
on these mattes [sic], as evidence of mitigation its [sic] own.” (Id. at 95). The State contends
that Mr. Rodriguez’s arguments regarding the reasonableness of the state court’s determination
“should be rejected and the claim denied . . . as the record amply supports the state court’s factual
findings.” ([DE 10] at 205). Mr. Rodriguez replies that the Florida Supreme Court’s factual
determination - even if trial counsel attempted to contact collateral sources such as family
members and friends in Petitioner’s native Cuba, the investigation would have only uncovered
the same information that was already known - is refuted by thirty interviews of family and
friends conducted by postconviction counsel. ([DE 27 at 38). The substance of the interviews
revealed a much more extensive and detailed social history than that which was contained in Dr.
Haber’s report. (Id.) Mr. Rodriguez concluded that “[t]he Florida Supreme Court finding is
simply not supported by the record and an unreasonable determination of fact.” (Id. at 38).
The Court has conducted a thorough review of the state court record. The facts are as

22

36a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 23 of 114

follows:
Penalty Phase
On January 31, 1990, the jury recessed at 2:37 p.m. to deliberate on Mr. Rodriguez’s
guilt. ([DE 15-31] at 51). At 4:45 p.m., the jury reached their verdict. Mr. Rodriguez was found
guilty of first-degree murder. (Id. at 52-54). Immediately following the verdict, the trial court
inquired about timing for the sentencing phase of the trial. Counsel for Mr. Rodriguez, Scott T.
Kalisch, Esq. advised the court.
Frankly, I have never had to do this before.
Frankly, the verdict takes me by surprise. I am not in any way prepared to go
forward in a death penalty phase in this case. I need at least two weeks to even
understand what it is about.

([DE 15-31] at 58). The court set the penalty phase of trial for February 15, 1990. (Id. at 60).
One week later, while requesting a further continuance of the sentencing date, the record shows
that Mr. Rodriguez’s case was not the only matter occupying Mr. Kalisch’s time in the weeks
preceding the penalty phase. The continuance sought by Mr. Kalisch on February 6, 1990 (one
week before the penalty phase was to begin) was, in part, because he needed to travel to Santo
Domingo, Dominican Republic the upcoming week to obtain releases from other clients who
were involved in “what has been described as the largest mass disaster litigation in United States
history.” ([DE 15-71] at 13-14). Mr. Kalisch further advised the court that “[a]ll of undersigned
counsel’s efforts were addressed to demonstrating that the defendant was not the assailant in this
case and undersigned was unprepared for the outcome insofar as preparing for the death phase in
advance of the verdict.” ([DE 15-17] at 14).
The trial court rescheduled the penalty phase for March 1, 1990. In the twenty-nine days
23

37a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 24 of 114

between the guilty verdict and the penalty phase, Mr. Kalisch filed only one motion requesting
the appointment of “an independent psychiatric examiner...to assist him in the death penalty
phase of this case.” ([DE 15-17] at 11). The court granted the motion and appointed Dr. Leonard
Haber “to conduct an independent psychological evaluation of the defendant... prior to
sentencing in this case.” ([DE 15-17] at 15). On February 22 and 26, 1990, Dr. Haber examined
Mr. Rodriguez “pursuant to a Court Order issued by Circuit Court Judge Thomas M. Carney.”
([DE 15-17] at 49). Dr. Haber believed that his examination was, in part, to determine if Mr.
Rodriguez was “competent to proceed with sentencing.”11 (Id. at 52). Following the
examinations, Dr. Haber prepared a written report in which he concluded that his examination of
Mr. Rodriguez revealed “no statutory mitigation.” (Id. at 53). Dr. Haber closed his report by
thanking the judge “for the opportunity to examine this interesting person and to be of service to
the Court.” (Id.). The report was addressed and mailed to Judge Thomas M. Carney at the
Metropolitan Justice Building. (Id. at 49).
Dr. Haber’s report was dated February 26, 1990. On February 27, 1990, the State
deposed Dr. Haber. Mr. Kalisch attended the deposition. Shortly after the deposition began, Mr.
Kalisch asserted a doctor-patient privilege objection. The prosecutor stated that “[i]f you have no
intention on calling Doctor Haber as a witness, then I have no reason to conduct this deposition.”
([DE 15-92] at 19). Mr. Kalisch responded:
My problem is I have never spoken to Doctor Haber, and I don’t know what Mr.

11

The record shows that counsel did not clarify with Dr. Haber that his evaluation for
sentencing should be vastly different from a competency evaluation. See Blanco v. Sec’y, Dep’t
of Corr., 943 F.2d 1477, 1503 (11th Cir. 1991)(“One can be competent to stand trial and yet
suffer from mental health problems that the sentencing jury and judge should have had an
opportunity to consider.”).
24

38a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 25 of 114

Rodriguez told Doctor Haber, and based on that I don’t know what I should advise
Doctor - - excuse me, I mean Mr. Rodriguez to do regarding what I believe to be a
privilege between a client and a psychologist. I just want that on the record. You
can continue with the questions at trial time.
(Id. at 20)(emphasis added). The penalty phase began two days later. The complexities of Dr.
Haber’s perceived role became apparent when defense counsel wanted Dr. Haber to testify but
only if the State was precluded from asking Dr. Haber about Mr. Rodriguez’s prior convictions.
([DE 15-32] at 38). The State objected and argued that if Dr. Haber considered Mr. Rodriguez’s
prior convictions in forming his opinion then the State should be able to inquire. (Id. at 39). Dr.
Haber happened to be in the courtroom at the time of the objection. Before ruling on the
objection, the court asked Dr. Haber whether or not he had reviewed Mr. Rodriguez’s prior
criminal record. Dr. Haber advised that he had. Dr. Haber further stated that he “was not given
any documents by defense counsel” and that the only documents he reviewed were given to him
by the Assistant State Attorney. (Id.). The records from the State Attorney’s Office included Mr.
Rodriguez’s prior convictions. Thereafter, Dr. Haber answered questions from counsel and the
court regarding his opinion on whether certain statutory mitigators had a basis such that they
should be submitted to the jury. Defense counsel asked for an exemption to the sequestration
rule so that Dr. Haber could act as an advisor at counsel table during the testimony and also
testify in the proceedings.
MR. KALISCH: Judge, may I ask the Court’s indulgence on a matter with regard
to Dr. Haber?
Dr. Haber has been appointed as a court expert; however, I submitted a form of
order motion to appoint an independent psychiatric examiner, which motion I
believe your Honor did sign.
What I would like to do is use Dr. Haber during the course of this proceeding as a
source of advice as to how to go forward in presenting my case, and in that way he
25

39a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 26 of 114

becomes more my expert because the Court named him a court expert. I would
like to have the Court to authorize Dr. Haber to assist me in this proceeding.

([DE 15-32] at 56-57). The State and Dr. Haber objected to this dual role. In particular, Dr.
Haber stated that he felt he was unable to perform both roles as an advocate and an impartial
witness.
DR. HABER: Let me add, your Honor, I think I would be prohibited ethically
from carrying on two functions simultaneously.
Respectfully, either if I’m an expert witness who is totally independent no matter
who appoints me or who I work for as an expert for one side or the other, I do
have an interest and I cannot testify, but in assisting with ideas that I may myself
not testify to, but to simply advise to what the possibilities are, and there would be
a conflict in that role. I could do one or the other.
(Id. at 58). When faced with the choice of having Dr. Haber testify or act as an advisor, Mr.
Kalisch decided that he would like Dr. Haber to be available to testify as an expert witness for
the defense. (Id. at 59). Dr. Haber left the courtroom. The State called its first witness.
The State called Dante Perfumo. Mr. Perfumo is a fireman and paramedic with the City
of Miami Fire Department. Mr. Perfumo arrived at the scene of the murder and had rendered aid
to Mr. Saladrigas. Mr. Perfumo testified that Mr. Saladrigas was in “extreme pain.” ([DE 15-32]
at 71). During the transport to the hospital, Mr. Saladrigas asked Mr. Perfumo many times if he
was going to survive. (Id.). Mr. Perfumo testified that Mr. Saladrigas had multiple gun shot
wounds which would have “inflicted tremendous amounts of pain.” (Id. at 75). Following Mr.
Perfumo’s testimony, the State rested.
Following the State’s case, Mr. Kalisch called Marlen Castellano. Mrs. Castellano is Mr.
Rodriguez’s wife. Ms. Castellano testified that Mr. Rodriguez was a supportive husband and a
good father. On cross-examination, Ms. Castellano admitted that Mr. Rodriguez had been
26

40a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 27 of 114

incarcerated during most of their son’s life. (Id. at 83). Ms. Castellano’s entire testimony
encompassed ten pages of the transcript. (Id. at 78-88). Following Ms. Castellano’s testimony,
the defense rested. Counsel rested without having Dr. Haber testify. Dr. Haber’s report was not
admitted into evidence and the jury heard no testimony regarding his report and clinical findings.
At 11:30 a.m., the jury retired to deliberate and make a sentencing recommendation to the
judge. ([DE 15-33] at 46). In less than an hour, the jury returned with an advisory sentence of
death. The vote was twelve to zero. (Id. at 47). One month later, the trial court held a Spencer
hearing.12 At the hearing, Mr. Rodriguez addressed the trial court and proclaimed his innocence.
([DE 15-31] at 86). The defense presented no additional testimony. The State presented the
testimony of Mr. Saladrigas’ brother, sister and niece. All the witnesses testified as to how the
murder has taken a toll on their family and about Mr. Saladrigas’ character. Following their
testimony, the trial court sentenced Mr. Rodriguez to death by electrocution. ([DE 15-32] at 25).
Here, Mr. Rodriguez argues that the result of his penalty phase would have been different had his
counsel investigated available family background and history and conducted an adequate mental
health investigation.
Rule 3.851/Postconviction Proceedings
Eight years later, Mr. Rodriguez asserted an ineffective assistance of penalty phase
counsel claim in his Rule 3.851 motion. On March 13, 1998, the Court held a Huff hearing.13 At
the hearing, the State conceded that Mr. Rodriguez had raised two claims which required an

12

In Florida, the parties can present additional evidence before the sentencing judge that
the sentencing jury did not consider. See Spencer v. State, 615 So.2d 688, 691 (Fla. 1993).
13

Huff v. State, 622 So. 2d 982 (Fla. 1993).
27

41a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 28 of 114

evidentiary hearing. One of those claims was Claim VIII (ineffective assistance of counsel for
failing to “adequately investigate and prepare additional mitigating evidence and failed to
adequately challenge the State’s case as well as to present evidence in support of the mitigating
circumstances.”).
On April 5, 1999, the court held the evidentiary hearing. Mr. Rodriguez did not call any
family members or lay witnesses to the stand. The only two witnesses called by the defense were
Dr. Ruth Latterner and Scott Kalisch, Esq.14 The State called Dr. Leonard Haber, two employees
of the Florida Department of Corrections, and a homicide detective from the City of Miami
Police Department. (See [DE 15-82] at 71-113).
Ruth Latterner, PhD was the first witness called during the Rule 3.851 hearing. Dr.
Latterner is a licensed psychologist who is board certified in psychology and neuropsychology.
([DE 15-81] at 34). Dr. Latterner evaluated Mr. Rodriguez on September 20, 1995. (Id. at 35).
She administered the WAISR and Woodcock Brief Cognitive Cluster examinations to test Mr.
Rodriguez’s intellect and neuro-psychological functioning. Mr. Rodriguez scored a full scale IQ
score of 64. ([DE 15-81] at 39). In making her clinical diagnosis, Dr. Latterner reviewed Mr.
Rodriguez’s Department of Corrections medical records, Federal Bureau of Prisons records, the
investigative summaries of Mr. Rodriguez’s relatives, friends, and teachers in Cuba. It is Dr.
Latterner’s opinion that Mr. Rodriguez is educable mentally retarded. ([DE 15-81] at 62)
Scott Kalisch, Esq. is an attorney licensed in the State of Florida. Mr. Rodriguez’s trial
was his first death penalty case. ([DE 15-82] at 31). Mr. Kalisch had no experience with a capital

14

The defense was planning on calling a second expert witness, Dr. Denis W. Keyes.
However, the decision was made not to call him because his testimony would have been
“substantially the same as Dr. Latterner.” ([DE 15-83] at 90).
28

42a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 29 of 114

penalty phase of trial, had attended no continuing legal education courses, nor did he receive any
training in law school related to mental health mitigation. (Id.). Mr. Kalisch described Mr.
Rodriguez as “on the low scale of a person who would become involved in his own defense.” (Id.
at 39). When he was asked if he was able to interview Mr. Rodriguez’s relatives or family
members in Cuba, Mr. Kalisch responded: “I don’t know. I didn’t make a request to go to Cuba.
I had thought at the time that we were not able to go down to Cuba.” (Id. at 40). On crossexamination, Mr. Kalisch stated that “[I]t was difficult to talk to this defendant about the case, or
what I was going to do. His position was this has nothing to do with me, even when he knew they
were about to do these mental mitigators.” ([DE 15-82] at 57).
The State called three lay witness. Sergeant Mike Young and Psychological Specialist,
Lisa Wiley from the Florida Department of Corrections and George Morin, Special Homicide
Unit, City of Miami Police Department. Each witness testified that in their interactions with Mr.
Rodriguez, he spoke in English, had good cognitive abilities, and did not present as mentally
retarded. (See [DE 15-82]).
Finally, Dr. Leonard Haber testified. Dr. Haber evaluated Mr. Rodriguez the week before
the penalty phase. At that time, he had reviewed documents provided to him by the State,
including “the defendant’s own statement; police reports; the defendant’s prior record; codefendant’s statement, things of that kind.” ([DE 15-83] at 23). Dr. Haber testified that, after he
issued his 1990 report, he had also reviewed “trial testimony, and state and federal pre-sentence
investigation reports, and records of incarceration.” (Id.). Ultimately, Dr. Haber found that Mr.
Rodriguez was of below average intelligence but not mentally retarded. (Id. at 26-28). However,
Dr. Haber testified “there was a possibility that there may be an underlying organic brain

29

43a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 30 of 114

disfunction [sic]. I raised that as a possible issue for the defense to consider.” (Id. at 25).
Consistent with his 1990 report, Dr. Haber testified that no statutory mitigating circumstances
applied to Mr. Rodriguez. (Id. at 52).
Appeal to Florida Supreme Court
On November 23, 1999, the trial court denied Mr. Rodriguez’s Rule 3.851 motion. The
court found that “even if this mitigating evidence had been introduced, in light of all the
aggravating factors in this case, there is no reasonable probability that the jury recommendation
would have been different.” ([15-74] at 87). On appeal, the Florida Supreme Court affirmed.
In the instant case, the trial court found trial counsel was not ineffective for failing
to investigate because Rodriguez did not wish to involve his family. Trial counsel
testified at the evidentiary hearing that “[i]t was difficult to talk to this defendant
about the case, or what I was going to do. His position was this has nothing to do
with me, even when he knew they were about to do these mental mitigators.” Trial
counsel also stated that Rodriguez did not want his family involved and refused to
offer information that would have helped in the presentence investigation. This
testimony reveals that trial counsel was limited by his client’s lack of cooperation.
As the Supreme Court noted in Strickland, “[t]he reasonableness of counsel’s
actions may be determined or substantially influenced by the defendant’s own
statements or actions.” Strickland, 466 U.S. at 691, 104 S.Ct. 2052. Rodriguez’s
lack of cooperation undermines his allegations of ineffective assistance of
counsel. See Sims v. Singletary, 155 F.3d 1297, 1316 (11th Cir.1998) (finding
counsel not deficient for failure to present additional mitigation evidence which
counsel was unaware of due to defendant’s refusal to assist him); Cherry v. State,
781 So.2d 1040 (Fla.2000) (finding no ineffective assistance of counsel in light of
defendant’s refusal to supply names of witnesses who would have testified on his
behalf); Rose v. State, 617 So.2d 291, 294-95 (Fla.1993) (finding counsel was not
ineffective for failing to call family members as witnesses where defendant told
counsel that he had no contact with his family for several years and that his
family’s testimony would not be helpful).
Trial counsel was also questioned about his failure to travel to Cuba in order to
interview Rodriguez’s family, friends, and acquaintances and to search for
possible mitigating evidence. The trial court concluded that trial counsel would
not have been permitted to travel to Cuba. However, this finding is refuted by
federal legislation existent at that time and still in effect today. See 31 C.F.R. §
515.560 (2004) (permitting travel-related transactions to, from, and within Cuba
30

44a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 31 of 114

by persons subject to U.S. jurisdiction for a number of listed activities, including
professionals conducting research related to their profession as long as a license is
obtained). During the evidentiary hearing, trial counsel admitted he did not make
a request to go to Cuba because he believed travel to that country was prohibited.
Rodriguez argues that had trial counsel gone to Cuba, he would have been able to
uncover the type of mitigating evidence presented by collateral counsel at the
evidentiary hearing. This evidence, which collateral counsel gathered from
interviews with Rodriguez’s friends and family, reveals the following: family,
peers, and teachers considered Rodriguez to be slow intellectually; there is a
substantial family history of mental health problems including Rodriguez’s father,
grandparents, and other relatives; Rodriguez’s family was impoverished;
Rodriguez went without medical care even after he fell off a horse and sustained a
head injury; Rodriguez was often beaten by family members including an uncle
who once tied him to a tree and whipped him; and Rodriguez was sent to work
camps by his family because they considered him uneducable.
***
The record in this case shows that counsel did not render ineffective assistance to
Rodriguez by failing to fully investigate mental health mitigation. This case is
distinguishable from Wiggins v. Smith, 539 U.S. 510, 123 S.Ct. 2527, 156 L.Ed.2d
471 (2003), in which counsel curtailed their investigation of mitigating evidence
in favor of the alternative strategy of convincing the jury that the defendant was
not directly responsible for the murder. In the instant case, the court appointed Dr.
Haber to interview Rodriguez before the penalty phase. Dr. Haber filed a report
indicating that he had interviewed Rodriguez on two separate occasions. That
report included much of the mitigation that Rodriguez now raises, including the
following: Rodriguez’s birth and childhood in Cuba; his immigration to the
United States as part of the Mariel boatlift; his injury after falling off a horse as a
child; his desertion from the Merchant Marine and resulting incarceration in a
Cuban prison; his imprisonment for four years in Washington, D.C., for cocaine
trafficking; his temporary confinement in a Cuban psychiatric hospital; and two
separate suicide attempts. Dr. Haber also noted that Rodriguez was able to explain
his rejection of a plea offer, deny his participation in the murder, and appreciate
the seriousness of the charges against him. Based on his interviews, Dr. Haber
found that Rodriguez had no “suicidal or homicidal ideation” and seemed “alert ...
responsive and cooperative.”
***
Trial counsel was also questioned about his strategic decision not to call Dr.
Haber as a witness in the penalty phase. Counsel explained that he made this
decision in order not to open up Rodriguez’s criminal history during
cross-examination questioning by the State. As counsel explained, “I had nothing
31

45a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 32 of 114

from Dr. Haber as to ... mental retardation,” which he balanced against a history
of prior felony convictions, including drug trafficking conviction and escape, that
could have been revealed to the jury. In light of the fact that Dr. Haber’s report did
not substantiate the statutory mental health mitigators or mental retardation,
counsel’s decision not to put Dr. Haber on the stand and thereby open up
Rodriguez’s prior convictions to inquiry by the State was a reasonable decision.
***
Rodriguez’s conduct also supports the State’s contention that although Rodriguez
has a low IQ, he is not mentally retarded. Thus, Rodriguez’s claims are without
merit. See Hall v. State, 742 So.2d 225 (Fla.1999) (noting that although the
defendant had several mental deficits which had required treatment for several
years, all members of the defense team were aware of the impairments and the
defendant understood the proceedings against him). Although trial counsel could
have traveled to Cuba, his efforts would have uncovered substantially the same
background information that was already known. Even if this evidence had been
admitted, there is no reasonable probability that the outcome of this case would
have been different. See Spencer v. State, 842 So.2d 52, 61 (Fla. 2003) (“For the
prejudice prong, the reviewing court must determine whether there is a reasonable
probability that, but for the deficiency, the result of the proceeding would have
been different.”). Thus, Rodriguez cannot satisfy the prejudice prong of his claim
of ineffective assistance in this regard.
Rodriguez, 919 So.2d at 1263-68. (footnote omitted).
Standard of Review on §2254 Claims
As this claim was decided on the merits,15 habeas relief cannot be granted unless the
Florida Supreme Court’s determination “resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established federal law, as determined by the Supreme

15

Although the decision of the Florida Supreme Court does not directly analyze the
implications of the investigative information from Mr. Rodriguez’s family and friends in Cuba as
independent mitigation, the Court must still apply AEDPA deference to this claim. See Lee v.
Comm., Dep’t of Corr., 726 F.3d 1172, 1223 (11th Cir. 2013)(“Under Supreme Court and our
Circuit precedent, a state court’s written opinion is not required to mention every relevant fact or
argument in order for AEDPA deference to apply. Just the opposite is true. AEDPA deference
under § 2254(d)(1) or (2) applies to summary adjudications and does not depend in any way on
whether a state court opinion “mentions” or discusses a particular relevant fact or argument for
purposes of § 2254(d).”).
32

46a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 33 of 114

Court of the United States,” or “resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the state court proceeding.” 28
U.S.C. §2254(d)(1)-(2). In making such a determination, the Court may only consider the record
that was before the state court. See Cullen v. Pinholster, 131 S.Ct. 1388, 1398 (2011)(“We now
hold that review under §2254(d)(1) is limited to the record that was before the state court that
adjudicated the claim on the merits.”).
If, after review, the Court concludes that Mr. Rodriguez satisfies either 28 U.S.C.
§2254(d)(1) or (d)(2), then the Court should determine if he is entitled to present additional
evidence in support of his claim in a federal evidentiary hearing. To be entitled, Mr. Rodriguez
must show diligence. See Pope v. Sec’y, Dep’t of Corr., 680 F.3d 1271, 1289 (11th Cir.
2012)(“In general, our precedent says that when a petitioner requested an evidentiary hearing at
every appropriate stage in state court and was denied a hearing on the claim entirely, the
petitioner has satisfied the diligence requirement for purposes of avoiding Section 2254(e)(2).”).
However, if a petitioner fails to develop the factual basis of a claim in the State court
proceedings, an evidentiary hearing is barred. See Williams v. Alabama, 2015 WL 3916740, *8
(11th Cir. 2015)(“In this context, the Supreme Court has ‘explained that “fail” connotes some
omission, fault, or negligence’ on the part of the petitioner . . . [t]hus, ‘a failure to develop the
factual basis of a claim is not established unless there is lack of diligence, or some greater fault,
attributable to the prisoner or the prisoner’s counsel.’”). Once the entitlement to an evidentiary
hearing is resolved, the Court will conduct a de novo review of the claim. Jones v. Walker, 540
F.3d 1277, 1288 n. 5 (11th Cir. 2008) (en banc); see also Green v. Nelson, 595 F.3d 1245, 1251
(11th Cir. 2010) (finding state court unreasonably determined the facts under 2254(d)(2) and

33

47a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 34 of 114

applying de novo review).
The Court begins its review of Mr. Rodriguez’s claim of ineffective assistance of penalty
phase counsel with: (1) an AEDPA analysis of Mr. Rodriguez’s claim, (2) a determination on
entitlement to an evidentiary hearing in federal court, and (3) concludes with a de novo review of
the claim.
28 U.S.C. §2254(d)(1) &(2)
Any analysis of an ineffective assistance of counsel claim should begin with Strickland v.
Washington, 466 U.S. 668 (1984). In Strickland, the United States Supreme Court set forth the
two-prong test that a convicted defendant must meet to demonstrate that his or her counsel
rendered ineffective assistance. First, a defendant “must show that counsel’s representation fell
below an objective standard of reasonableness . . . under prevailing professional norms.”
Strickland, 466 U.S. at 688. Second, a defendant “must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Id. at 694. The Court defines a “reasonable probability” as one “sufficient to
undermine confidence in the outcome.” Id. And “[i]t is not enough for the defendant to show
that the errors had some conceivable effect on the outcome of the proceeding.” Id. at 693. The
Supreme Court clarified the Strickland standard as follows:
In Strickland, this Court made clear that “the purpose of the effective assistance
guarantee of the Sixth Amendment is not to improve the quality of legal
representation ... [but] simply to ensure that criminal defendants receive a fair
trial.” 466 U.S., at 689, 104 S. Ct. 2052. Thus, “[t]he benchmark for judging any
claim of ineffectiveness must be whether counsel’s conduct so undermined the
proper functioning of the adversarial process that the trial cannot be relied on as
having produced a just result.” Id., at 686, 104 S. Ct. 2052 (emphasis added). The
Court acknowledged that “[t]here are countless ways to provide effective
assistance in any given case,” and that “[e]ven the best criminal defense attorneys
would not defend a particular client in the same way.” Id., at 689, 104 S. Ct. 2052.
34

48a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 35 of 114

Cullen v. Pinholster, 131 S. Ct. 1388, 1403 (2011). The Court reviews Mr. Rodriguez’s claim
applying the clearly established federal law of Strickland and its progeny while also giving
deference to the state court’s decisions as required by the AEDPA.
§2254(d)(1)
Mr. Rodriguez asserted two primary arguments in support of his claim. First, he argued
that his counsel did not conduct an adequate mental health investigation. ([DE 1] at 60) Second,
he argued that his counsel failed to investigate available family background and history. (Id.).
The Florida Supreme Court, in denying these claims, cited to Strickland and concluded that Mr.
Rodriguez must show “both deficient performance by counsel and resulting prejudice from the
deficient performance.” Rodriguez, 919 So.2d at 1263. Here, the Court must determine if the
court’s legal determinations were either contrary to or an unreasonable application of clearly
established federal law. “Under the statute, a federal court may grant a writ of habeas corpus if
the relevant state-court decision was either (1) ‘contrary to ... clearly established Federal law, as
determined by the Supreme Court of the United States,’ or (2) ‘involved an unreasonable
application of ... clearly established Federal law, as determined by the Supreme Court of the
United States.’” Williams v. Taylor, 529 U.S. 362, 404-405 (2000)(emphasis in original). The
two clauses have independent meaning. See id.
“contrary to”
If a state court were to reject a prisoner’s claim of ineffective assistance of counsel
on the grounds that the prisoner had not established by a preponderance of the
evidence that the result of his criminal proceeding would have been different, that
decision would be “diametrically different,” “opposite in character or nature,” and
“mutually opposed” to our clearly established precedent because we held in
Strickland that the prisoner need only demonstrate a “reasonable probability that
35

49a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 36 of 114

... the result of the proceeding would have been different.” Id., at 694, 104 S.Ct.
2052. A state-court decision will also be contrary to this Court’s clearly
established precedent if the state court confronts a set of facts that are materially
indistinguishable from a decision of this Court and nevertheless arrives at a result
different from our precedent.

Id. at 405-06. Mr. Rodriguez has not established that the Florida Supreme Court’s
determination was “contrary to” clearly established federal law as defined by the United States
Supreme Court. Here, the Florida Supreme Court found that “[e]ven if this evidence had been
admitted, there is no reasonable probability that the outcome of this case would have been
different.” Rodriguez, 919 So.2d at 1266-67. (emphasis added). As “reasonable probability” is
the correct standard, the state court properly applied the rule from Strickland. Therefore, the
court “correctly identifie[d] Strickland as the controlling legal authority and, applying that
framework, reject[ed] the prisoner’s claim.” Williams, 529 U.S. at 406. While the Court may
disagree with the resolution of the claim, it cannot find that the decision was “diametrically
different” from, “opposite in character or nature” from, or “mutually opposed” to clearly
established federal precedent. See id. Having found that the court’s determination was not
“contrary to” clearly established federal law, the Court must next consider the reasonableness of
the court’s “application” of clearly established federal law.
“unreasonable application”
Stated simply, a federal habeas court making the “unreasonable application”
inquiry should ask whether the state court's application of clearly established
federal law was objectively unreasonable. The federal habeas court should not
transform the inquiry into a subjective one by resting its determination instead on
the simple fact that at least one of the Nation's jurists has applied the relevant
federal law in the same manner the state court did in the habeas petitioner's case.
Williams, 529 U.S. at 409-410. In applying Strickland, the Florida Supreme Court made three

36

50a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 37 of 114

critical determinations. First, that Dr. Haber’s report “included much of the mitigation that
Rodriguez now raises.” Rodriguez, 919 So.2d at 1264. Second, that counsel made a “strategic
decision not to call Dr. Haber as a witness in the penalty phase.” Id. at 1265. Third, the court
found that “trial counsel was limited by [his client’s] lack of cooperation.” Id. at 1263.
Ultimately, the court concluded that counsel’s performance was not deficient nor was Mr.
Rodriguez prejudiced by any perceived deficiency. After review, the Court finds that the Florida
Supreme Court unreasonably applied clearly established federal law.
First, the Florida Supreme Court’s application of clearly established federal law was
unreasonable when it determined that counsel conducted a thorough investigation, made a
strategic decision not to call a witness; therefore, his performance cannot be deemed deficient.
See Strickland v. Washington, 466 U.S. 668, 690-91 (1984)(“strategic choices made after
thorough investigation of law and facts relevant to plausible options are virtually
unchallengeable; and strategic choices made after less than complete investigation are reasonable
precisely to the extent that reasonable professional judgments support the limitations on
investigation.”).
While it is true that counsel made a strategic decision to not call Dr. Haber to testify, that
decision was made by Mr. Kalisch without him having ever investigated Mr. Rodriguez’s family
background, mental health history, or any other mitigation. Counsel cannot have made a
reasonable strategic decision without having conducted any investigation. As such, the Florida
Supreme Court’s determination that Mr. Kalisch’s strategic decision was reasonable becomes an
unreasonable application of clearly established federal law. See Horton v. Zant, 941 F.2d 1449,
1462 (11th Cir. 1991)(“The question of whether a decision was a tactical one is a question of fact.

37

51a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 38 of 114

See Bundy v. Wainwright, 808 F.2d 1410, 1419 (11th Cir.1987) . . . [h]owever, whether this
tactic was reasonable is a question of law.”).
There is no question that Mr. Kalisch balanced the value of Dr. Haber’s opinion against
the potential damage to Mr. Rodriguez if the jury found out that he had prior felony convictions.
Mr. Kalisch made a strategic decision to not call Dr. Haber. However, that decision came from
uninformed judgment because counsel failed to conduct even the most minimal of investigation
into Mr. Rodriguez’s background; not because he believed to be counterproductive, but rather
because he erroneously believed that he could not travel to Cuba to meet Mr. Rodriguez’s family.
See Williams v. Taylor, 529 U.S. 362 (2000). Counsel was unable to make a sound strategic
decision which considered the pros and cons of Dr. Haber’s testimony because counsel did not
have an informed view of all the possible mitigation. It certainly may have been that after
hearing all the possible mitigation, the scales would have shifted and counsel would find that the
value of the mitigation evidence outweighed any negative effect of Mr. Rodriguez’s prior
criminal record. Likewise, counsel may have considered all the mitigating evidence and still
made a strategic decision not to call Dr. Haber but it would have been a reasonable informed
strategic decision. See Wong v. Belmontes, 558 U.S. 15 (2009)(counsel was limited in his ability
to put on character evidence because of an uncharged murder case which the trial judge had ruled
would come into evidence if Mr. Belmontes “opened the door.”). Based solely on the record
before the Court, to find Mr. Kalisch’s strategic choice to have been a reasonable strategic
decision was an unreasonable application of Strickland. See Wiggins v. Smith, 539 U.S. 510, 527
(2003)(“Strickland does not establish that a cursory investigation automatically justifies a tactical
decision with respect to sentencing strategy. Rather, a reviewing court must consider the

38

52a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 39 of 114

reasonableness of the investigation said to support that strategy. 466 U.S., at 691, 104 S.Ct.
2052.”). Therefore, the “unreasonable application” clause of §2254(d)(1) is satisfied.
Second, the Florida Supreme Court unreasonably applied clearly established federal law
when it found that Mr. Kalisch’s performance was not deficient because “[t]rial counsel also
stated that Rodriguez did not want his family involved and refused to offer information that
would have helped in the presentence investigation. This testimony reveals that trial counsel was
limited by his client’s lack of cooperation.” Rodriguez, 919 So.2d at 1263.
As an initial matter, this is not an accurate recitation of trial counsel’s testimony. There is
no indication in the record that before, during, or after the penalty phase Mr. Rodriguez indicated
that he did not want his family involved or that he refused to offer information. During
postconviction, Mr. Kalisch testified as follows:
Q: Now, you go to explain to him, review the application what is involved for
defense motions and the trial, the penalty phase, what is involved, possible
mitigating circumstances; you presented that, sir? Correct?
A: Correct.
Q: And you talk to the defendant about that, correct, about what was going to
happen in trial?
A: It was difficult to talk to this defendant about the case, or what I was going to
do. His position was this has nothing to do with me, even when he knew they
were about to do these mental mitigators.
Q: He did not want to consult with you and give you information that would aid you in
that pre-sentence investigation?
A: That’s correct.
Q: He didn’t want his family involved, correct?
A: The only family member that I remember was Marleny, his wife. And I wanted
Marleny for before, and he never told [sic] to get Marleny as a witness.
39

53a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 40 of 114

Q: But other family members he didn’t want involved?
A: No, not particularly.
([DE 15-82] at 56-57). At best, the record shows that Mr. Rodriguez was ambivalent about his
criminal trial. In context, the record shows that Mr. Rodriguez did not do much to help his cause
in the way of volunteering information which could have been fruitful to investigate for
mitigation but it certainly falls short of a refusal.
“It’s just his general attitude which was not at all unpleasant or problematic. It just didn’t
have that element of intense interest of someone who is facing the death penalty.” ([DE 15-92]
at 64; testimony of Dr. Leonard Haber). “He is that way. I have to admit.” (Id.; statement of
Scott Kalisch). These are the words of the court-appointed psychologist and Mr. Rodriguez’s
lawyer describing his demeanor prior to the penalty phase. This characterization of Mr.
Rodriguez as disinterested or dispassionate is how he was portrayed throughout trial and in the
postconviction record.
Moreover, the deposition of Dr. Haber and his subsequent report indicate the opposite of
uncooperative behavior. In fact, Dr. Haber testified many times about how cooperative and
pleasant Mr. Rodriguez was during his evaluations. There is no evidence that Mr. Rodriguez
ever stated that he did not want to talk to Dr. Haber even when he knew that Dr. Haber was there
to examine him for possible mitigation. In his report, Dr. Haber found Mr. Rodriguez did not
demonstrate “disinterest, disrespect, or in any way interfere with this examiner.” ([DE 15-115] at
24). The trial transcript does not have a single reference to any overt express unwillingness to
involve his family or refusing to provide information for possible mitigation. In fact, his wife did
testify at the penalty phase of the trial while his two-year old son sat in the front row of the

40

54a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 41 of 114

gallery. Mr. Kalisch even pointed the child out to the jury during closing arguments when
pleading for mercy. ([DE 15-32] at 79). While circumstantial, these actions do not support a
factual finding that Mr. Rodriguez did not want his family involved. The facts here are vastly
different from those cases where the petitioner explicitly refused to allow counsel to put on
mitigating evidence. A lack of enthusiasm differs from a refusal. See Cummings v. Sec’y, Dep’t
of Corr., 588 F.3d 1331, 1366 (11th Cir. 2009) (defendant “consistently opposed the presentation
of mitigating evidence at his trial” and told counsel and the trial court “repeatedly that he did not
want a penalty-phase presentation.”); Pope v. Sec’y Dep’t of Corr., 752 F.3d 1254, 1266 (11th
Cir. 2014) (defendant “told the court, ‘I’d really rather not have him make a presentation on my
behalf to the jury. You only have two choices, and I know what my choice is.... I would rather
have the death sentence than the twenty-five years in prison.’”); Schriro v. Landrigan, 550 U.S.
465 (2007)(Landrigan explicitly and repeatedly informed the trial court at sentencing that he did
not wish to put on any mitigating evidence—even going so far as to interrupt his counsel’s
attempt to proffer evidence to which the mitigating witnesses would have testified.).
More importantly, even if Mr. Rodriguez did “not wish to involve his family” and
“refused” to offer information, it was an unreasonable application of clearly established federal
law to conclude that this refusal absolved Mr. Kalisch of his duty to investigate possible
mitigation. Clearly established federal law at the time of the Florida Supreme Court’s decision
was that counsel had a duty to conduct a reasonable investigation even for an disinterested and
uncooperative client. Mr. Rodriguez’s appeal to the Florida Supreme Court concluded after the
denial of rehearing on January 19, 2006, when a revised opinion issued. At that time, the United
States Supreme Court had recently determined that even when a defendant made minimal

41

55a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 42 of 114

contribution to any mitigation, was uninterested in helping, said he was “bored being here
listening” and was “actively obstructive by sending counsel off on false leads” counsel still had
an obligation to investigate. See Rompilla v. Beard, 545 U.S. 374, 381 (2005)(defendant refused
to assist in the development of a mitigation case, but did not inform the court that he did not want
mitigating evidence presented.). The law recognizes a distinction between passive noncooperation and active instruction. At the time of the Florida Supreme Court’s decision,
Rompilla did not obviate counsel’s obligation to investigate and present mitigation evidence even
when the client failed to cooperate. See Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)(“We
look for “the governing legal principle or principles set forth by the Supreme Court at the time
the state court renders its decision.” Lockyer v. Andrade, 538 U.S. 63, 71–72, 123 S.Ct. 1166,
155 L.Ed.2d 144 (2003).”).
Indeed, it was more than a year after Mr. Rodriguez’s appeal when the United States
Supreme Court first considered whether a defendant who refused to allow the presentation of any
mitigating evidence (a different factual scenario than here where the court found that Mr.
Rodriguez refused to offer information which would have helped in the presentence
investigation) could establish Strickland prejudice based on his counsel’s failure to investigate
further possible mitigating evidence. See Schriro v. Landrigan, 550 U.S. 465, 478 (2007)
(“Indeed, we have never addressed a situation like this.”).
Therefore, when the Florida Supreme Court found that trial counsel was not ineffective
for failing to investigate mitigation because Mr. Rodriguez did not want his family involved and
refused to offer information that would have helped in a mitigation investigation, the court made
an unreasonable application of clearly established federal law. In so finding, the Court

42

56a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 43 of 114

recognizes “an unreasonable application of federal law is different from an incorrect application
of federal law.” Williams, 529 U.S. at 365. (emphasis added). The facts of this case present such
a rare circumstance. The Court finds that the Florida Supreme Court’s application of clearly
established federal law was unreasonable because no “fairminded jurist” could agree with the
court’s determination or conclusion. Holsey v. Warden, 694 F.3d, 1230, 1257 (11th Cir.
2012)(quoting Harrington, 562 U.S. at 101, 131 S.Ct. at 786).
Finally, as to the one legal determination by the Florida Supreme Court that was a
reasonably applied (Dr. Haber’s report contained much of the mitigation now raised), the Court
finds that the underlying factual determination to which the law was applied to be unreasonable.
Accordingly, while Mr. Rodriguez satisfied §2254(d)(1) as to the failure to cooperate and
counsel’s strategic decision determinations, he also satisfied §2254(d)(2) because the court’s
rejection of his ineffective assistance of counsel claim based on the redundancy of mitigating
evidence in Dr. Haber’s report was an “unreasonable determination of facts.”
§2254(d)(2)
In affirming the denial of postconviction relief to Mr. Rodriguez, the Florida Supreme
Court made a crucial factual finding. Given the state court record, the Court finds that factual
determination to be unreasonable.
We may not characterize these state-court factual determinations as unreasonable
“merely because [we] would have reached a different conclusion in the first
instance.” Wood v. Allen, 558 U.S. 290, 301, 130 S.Ct. 841, 175 L.Ed.2d 738
(2010). Instead, § 2254(d)(2) requires that we accord the state trial court
substantial deference. If “ ‘[r]easonable minds reviewing the record might
disagree’ about the finding in question, ‘on habeas review that does not suffice to
supersede the trial court's ... determination.’ ” Ibid. (quoting Rice v. Collins, 546
U.S. 333, 341–342, 126 S.Ct. 969, 163 L.Ed.2d 824 (2006)). As we have also
observed, however, “[e]ven in the context of federal habeas, deference does not
imply abandonment or abdication of judicial review,” and “does not by definition
43

57a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 44 of 114

preclude relief.” Miller–El v. Cockrell, 537 U.S. 322, 340, 123 S.Ct. 1029, 154
L.Ed.2d 931 (2003). Here, our examination of the record before the state court
compels us to conclude that both of its critical factual determinations were
unreasonable.
Brumfield v. Cain, 135 S.Ct. 2269, 2277 (2015). When conducting the §2254(d)(2) analysis “we
do not question the propriety of the legal standard the trial court applied...[i]nstead, we train our
attention on the [] underlying factual determinations on which the trial court’s decision was
premised.” See id. at 2276. The Florida Supreme Court’s rejection of Mr. Rodriguez’s
ineffective assistance of penalty phase counsel claim rested, in part, on this critical factual
finding: Dr. Haber’s report “included much of the mitigation that Rodriguez now raises.”
Rodriguez, 919 So.2d at 1264-65 (emphasis added). However, there is no record support for
finding that “much of the mitigation” now raised by Mr. Rodriguez was included in Dr. Haber’s
report. No fairminded jurists would agree with the state court’s determination.
The Florida Supreme Court found that Dr. Haber’s report included information about:
“Rodriguez’s birth and childhood.” (Id.)(emphasis added). However, a comparison of Dr.
Haber’s report (which was never submitted to the jury and not admitted into evidence until after
the jury gave the sentencing recommendation) and the investigative summaries from the family,
friends, and educators in Cuba illustrates just how cursory and incomplete the report was in
comparison to the available mitigation information. More importantly, the court’s factual finding
suggests that the report contained more information than it did.
While it is true that Dr. Haber’s report included Mr. Rodriguez’s birth date and place of
birth, the report did not include any of the detailed information contained in the investigative
reports. According to Mr. Rodriguez, this information was available for mitigation purposes.
The investigative reports reveal that at the time of Mr. Rodriguez’s “birth”:
44

58a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 45 of 114

•
•
•
•
•
•

Mr. Rodriguez’s mother was malnourished throughout her pregnancy
His mother had no prenatal care or vitamins
His mother consistently drank shots of alcohol and beer during her pregnancy
His mother lived next to about 50 chemical tanks leaking toxic chemicals and during a
hurricane those tanks opened and the chemicals were floating in waist high water
Mr. Rodriguez was born in and lived in a house with a dirt floor, no running water, no
toilet and no electricity
Mr. Rodriguez was born with crossed eyes

([DE 15-90] at 26-66). Further, the only “childhood” information contained in Dr. Haber’s
report aside from his place of birth being in San German, Cuba was that Mr. Rodriguez selfreported that he stopped attending school in first grade because he “had to work” and he “once
fell from a horse, ‘when [he] was a kid.’” ([DE 15-17] at 50). However, the mitigating evidence
in the investigative reports showed that:
• Mr. Rodriguez’s teachers considered Mr. Rodriguez to be the “slowest” child in the class
• He could not read, do math, or recite the alphabet.
• Mr. Rodriguez’s family sent him to work camps because he did so poorly in school
• He could not understand basic errands or simple chores
• His family consistently described him as “crazy”
• Mr. Rodriguez fell from a horse, did not receive medical treatment, and afterwards
“seemed slower in the head.”
• He was universally described as “hyperactive”
• Mr. Rodriguez’s family has a long history of mental illness and substance abuse
• His elementary school teachers believed him to be “retarded”
• Other children at school called him “dummy”, “idiot”, and “stupid”
• Mr. Rodriguez was reported to have talked to himself.
• He inappropriately sucked on his hand
• He had poor body control, and frequently walked into walls
• Mr. Rodriguez’s uncle tied him to a tree while naked and beat him, sometimes striking
him in the face or neck and threatening to “kill” him
• Mr. Rodriguez’s mother and uncle would punish him by having him kneel on the dirt floor
which was full of peebles. Mr. Rodriguez would cry until he was allowed to get up.
• Mr. Rodriguez’s mother, uncle, and grandfather beat him with a belt
• Mr. Rodriguez’s grandmother also beat him with a thorny vine on his bare legs.
• His grandmother sometimes punished him by making him kneel on a piece of tin with
little holes punched in it.
([DE 15-90] at 26-66). For the court to have found that Dr. Haber’s report “contained much

45

59a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 46 of 114

of the mitigation that Mr. Rodriguez now raises” is simply unreasonable based on the record. In
fact, a comparison of the investigative summaries and Dr. Haber’s report shows that almost none
of the mitigation information raised during postconviction was in Dr. Haber’s report; let alone
“much” of the information. Having found that Mr. Rodriguez has satisfied §2254(d)(1) & (d)(2),
the Court must consider if he is entitled to an evidentiary hearing in federal court pursuant to
§2254(e)(2).
Evidentiary Hearing
Mr. Rodriguez argued that he was “not granted an evidentiary hearing on his family and
social history as mitigation in and of itself.” ([DE 1] at 71). Therefore, Mr. Rodriguez seeks an
evidentiary hearing in federal court. However, Mr. Rodriguez has failed to establish an
entitlement to one because he had an opportunity to present relevant evidence at his evidentiary
hearing in state court but failed to do so. See Pope v. Sec’y, Dep’t of Corr., 680 F.3d 1271, 1289
(11th Cir. 2012). The record shows the following:
Huff hearing and Rule 3.851 evidentiary hearing
On March 13, 1998 the Court held a Huff hearing. At the hearing, the State (ASA Penny
Brill) conceded that Mr. Rodriguez had raised two claims which required an evidentiary hearing.
MS. BRILL: Claim VIII. It deals with ineffective assistance of counsel at his
sentencing and it deals with counsel’s inadequate investigation on mental
litigation, on family history. Basically everything that you do in sentencing pretty
much. And the State feels that in abundance of caution that Your Honor in spite of
the fact that we think they would not be able to prove prejudice at the hearing, but
I think that in an abundance of caution we should have an evidentiary hearing and
give the defendant an opportunity to prove his allegations. So, as to that claim,
maybe we can speed up on that particular claim, you don't have to waste time
arguing that. We would certainly agreed to that and we can argue other claims.
([DE 15-80] at 49)(emphasis added).

46

60a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 47 of 114

MS. BRILL: Claim VIII includes part of the allegations of Claim III. Anything
to do with mental health at sentencing the State has basically said in an
abundance of caution this court should grant an evidentiary hearing on that issue.
I don't think you want to call part of Claim III or all of Claim VIII because they
are interwoven together. But as it deals with the sentencing, the State agrees to
that in an abundance of caution.
([DE 15-80 at 50-51).
The Huff hearing concluded with what appears to be an understanding that Mr. Rodriguez
intends to produce witnesses from Cuba and that the claim involves testimony from the family.
([DE 15-80] at 78).
Specifically, Ms. Brill clarified with the court:
“But VIII is a little bit more - - we have to bring the family members to testify
about his past and all of that stuff.”
THE COURT: “Yes.”
(Id.). Then a logistical and financial discussion ensued - without resolution - regarding the
testimony of witnesses from Cuba. Later that day, the judge issues a written order granting an
evidentiary hearing with the caveat - “The issue defined is the question of mental retardation at
the penalty phase of the trial only.” ([DE 15-69] at 6)(emphasis added). On May 19, 1998,
CCRC filed its witness list - including the family members from Cuba. ([DE 15-86] at 18-21).
On June 19, 1998, there was a status conference where the family witnesses were discussed. ([DE
15-69] at 93-97). At that time, it appeared that Mr. Rodriguez was still planning on calling
family members from Cuba. On July 10, 1998, there was another status conference where the
family witnesses were discussed. ([DE 15-81] at 21-27). At that time, it still appeared that Mr.
Rodriguez was planning on calling family members from Cuba. On October 7, 1998, the
Assistant State’s Attorney sent a letter to CCRC requesting a proffer of what the witnesses were

47

61a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 48 of 114

going to say. The State requested that the witness proffers be submitted before October 16, 1998.
([DE 15-72] at 7). On February 22, 1999, the State filed a response to the defendant’s objection
to the State’s witness list which indicated that it still had not received the proffers of the family's
testimony. ([DE 15-72] at 41-45). After that, the record is silent on the issue.
On April 5, 1999, the court held the evidentiary hearing. Mr. Rodriguez did not call any
family members or lay witnesses to the stand. The issue was not discussed except for when the
witness summaries were admitted along with the other background materials that Dr. Latterner
relied on for her report. The ASA did not object to the admission of the summaries as something
that the defense expert relied on but did object to their admission for the “actual substance.”
Defense counsel voiced no objection to the limited admission as long they were “entered.” ([DE
15-81] at 60-62).
Post Rule 3.850 Hearing
After the April 5, 1999 hearing each side submitted a post hearing memorandum to the
court. In the initial memo, Mr. Rodriguez argued that “[h]ad family members been able to travel
from Cuba to testify at the evidentiary hearing, further non-statutory mitigating circumstances
would have been established." ([DE 15-74] at 45, n.6)(emphasis added). The State characterized
the witness summaries as “[t]hese statements were entered into evidence, only as part of material
the[sic] Dr. Latterner reviewed, and not substantive evidence for this Court to consider as proof,
that this mitigation existed and was available to defense counsel. Although hearsay is admissible
in penalty proceedings, the opposing party must have a fair opportunity to rebut that testimony,
something which the State did not have in this case.” ([DE 15-74] at 72, n.1). In reply, Mr.
Rodriguez (for the first time) argued that "[t]he scope of the evidentiary hearing was narrowly

48

62a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 49 of 114

defined to mental health issues only. In practical terms, however, it is impossible to disentangle
family history issues form [sic] mental health issues neatly. Mr. Rodriguez was thus deprived of
his rights by the failure of this Court to grant a full evidentiary hearing on ineffective assistance
of counsel." ([DE 15-74] at 80, n.3). The court denied the motion without comment on the issue.
([DE 15-74] at 83-87).
Florida Supreme Court
On appeal to the Florida Supreme Court, Mr. Rodriguez separated out the family history
which would have been helpful to the expert witnesses’ evaluation from the family history which
would have been independent non-statutory mitigation. A differentiation was made between the
mental retardation/expert witness penalty phase claim and the “summary denial of the non mental
health penalty phase claim.” ([DE 15-4] at 3). In his brief, Mr. Rodriguez argued that he “was
not afforded the opportunity of putting on evidence from family members and other individuals
who could have shown his abusive, poverty stricken and neglected early life.” ([DE 15-4] at 52).
In response, the State argued that Mr. Rodriguez did not meet his burden and his claim
was properly denied. “Moreover, Defendant was given the opportunity at an evidentiary hearing
and did not present any alleged witnesses from Cuba to testify regarding Defendant’s alleged
retardation and background.” ([DE 15-5] at 21). “In fact, Defendant failed to present any
witnesses at his evidentiary hearing from Cuba to testify regarding Defendant's alleged mental
retardation mitigation evidence, despite the fact that the lower court indicated a willingness to
consider this evidence during the Huff hearing.” ([DE 15-5] at 49).
In reply, Mr. Rodriguez again asserted that he was denied the opportunity to present the
witnesses from Cuba at his Rule 3.850 evidentiary hearing. ([DE 15-5] at 118-120 & [DE 15-6]

49

63a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 50 of 114

at 1-3). “However, the lower court’s order is unequivocal in its limitation of the evidentiary
hearing to ineffective assistance of counsel relating to trial counsel’s failure to investigate Mr.
Rodriguez’s mental retardation.” ([DE 15-5] at 119). Later, Mr. Rodriguez seemed to indicate
that, because the hearing was limited to mental retardation, the only information needed to be
provided to Dr. Latterner were summaries of the family’s testimony and those summaries were
sufficient. However, “had a full evidentiary hearing been granted on Mr. Rodriguez’s penalty
phase issues, Mr. Rodriguez would have been compelled to present witness testimony in some
form, whatever the administrative and logistical hurdles.” ([DE 15-6] at 1). The Florida Supreme
Court referenced the witness summaries only when it found that mitigation information was
already known to Dr. Haber. The concept of it being mitigation, in and of itself, was not reflected
anywhere in the opinion. The court did not address Mr. Rodriguez’s argument that he was not
granted an evidentiary hearing on this issue and was limited in his representation of evidence at
the trial court.
Federal Habeas Petition
In his initial petition, he argued that his counsel failed to investigate available family and
cultural background, both in Cuba and Florida, which would have provided “non statutory
mitigation in its own right.” ([DE 1] at 69). Mr. Rodriguez further argued that he “was not
granted an evidentiary hearing on his family and social history as mitigation in and of itself.” (Id.
at 71). Mr. Rodriguez then asserted that he was “not afforded the opportunity to show the
compelling mitigation arising from his wretched life history that was readily available from
family members, friends, teachers and cultural experts.” He seeks an evidentiary hearing in
federal court.

50

64a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 51 of 114

In response, the State alleged that “[w]hile the court stated that it was limiting the hearing
to retardation, it also agreed that Petitioner would be permitted to present testimony from his
family members. As a result, the state postconviction court agreed to defer the evidentiary
hearing for about six months.” ([DE 10] at 18). “Further, it should be remembered that
Petitioner presented no admissible evidence from the family members themselves.” (Id. at 223).
In reply, Mr. Rodriguez maintained that “had Petitioner been permitted to present evidence
on social history mitigation, in and of itself, it could have been established through the testimony
of family and friends had they been permitted to do so at the 1999 evidentiary hearing.” ([DE 27]
at 29, n.4). Mr. Rodriguez argued that he was precluded from presenting his family members as
witnesses at the Rule 3.850 hearing because he was not granted an evidentiary hearing regarding
background mitigation.
However, the record belies that assertion. When the state post conviction court granted
Petitioner an evidentiary hearing, both he and the State immediately recognized that testimony
from Petitioner’s family members would be relevant and admissible regarding the claims for
which an evidentiary hearing was granted. (App. V-Vol. 17 at 382-84).16 In fact, the timing of
the evidentiary hearing was substantially influenced by the need to arrange for the family
members to come from Cuba. Id. Moreover, Petitioner clearly understood that he was entitled to
call family members to testify because he listed them as witnesses for the evidentiary hearing.
(App. V-Vol. 21 at 240-43, App. V-Vol. 12 at 439-46). The time needed to obtain witnesses
from Cuba influenced the decision regarding when the evidentiary hearing would be held, and

16

Throughout the Order, the Court has cited to the record as it exists in this Court’s
electronic CM/ECF record. However, certain documents were not located in the record and the
Court has cited them in their original format.
51

65a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 52 of 114

Petitioner assured the state post conviction court he would be able to call the witnesses after the
start of the new fiscal year. (App. V-Vol. 12 at 2446). However, when the evidentiary hearing
was conducted almost 13 months after it was ordered and more than 9 months after the start of
the new fiscal year, Petitioner made no attempt to call any family members. Instead, he simply
sought to admit statements from the family members during Dr. Latterner’s testimony. (App.
V-Vol. 18 at 62-63). When the state post conviction court ruled that these statements could not
be admitted for their truth, Petitioner did not object or appeal that ruling. (App. V-Vol. 18 at
463-64). As such, the record shows that Petitioner could have presented evidence from the
family members had they been available but failed to do so. ([DE 10] at 223-24).
Based on the above information, Mr. Rodriguez has failed to show that he was denied the
opportunity to present the familial and social witnesses’ testimony. The record does not indicate
that the state court refused or denied his counsel’s request to have those witnesses testify. “If the
applicant has failed to develop the factual basis of a claim in State court proceedings, the court
shall not hold an evidentiary hearing on the claim...” §2254(e)(2). This is even more true when
“petitioner failed to take full advantage of that hearing, despite being on notice of and having
access to the potential evidence and having sufficient time to prepare for the hearing, that
petitioner did not exercise diligence in developing the factual foundation of his claim in state
court.” Pope v. Sec’y Dep’t of Corr., 680 F.3d 1271, 1289, n.12 (11th Cir. 2012).
While this conclusion does not preclude federal habeas relief on his penalty phase claim, it
does limit the facts upon which federal habeas relief could be granted to the state court record.
Having found that Mr. Rodriguez satisfied §2254(d)(1) & (d)(2) but does not meet the criteria for
a §2254(e)(2) evidentiary hearing, the Court will conduct a de novo review of Mr. Rodriguez’s

52

66a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 53 of 114

ineffective assistance of penalty phase counsel utilizing only the facts admitted in the state court
record. See Williams v. Alabama, 2015 WL 3916740, *8 (11th Cir. 2015)(“Section 2254(e)(2)
continues to have force where § 2254(d)(1) does not bar federal habeas relief.”)(citation omitted).
De Novo Review
Before reviewing the claim de novo, the Court acknowledges that it did not make a
determination regarding the factual finding of the Florida Supreme Court pursuant to
§2254(e)(1)(“In a proceeding instituted by an application for a writ of habeas corpus by a person
in custody pursuant to the judgment of a State court, a determination of a factual issue made by a
State court shall be presumed to be correct. The applicant shall have the burden of rebutting the
presumption of correctness by clear and convincing evidence.”). It did not do so because Mr.
Rodriguez’s claim fails on de novo review. See Berghuis v. Thompkins, 560 U.S. 370 (2010)
(permitting denial of “writs of habeas corpus under §2254 by engaging only in de novo review
when it is unclear whether AEDPA deference applies”).
Given the opportunity, the United States Supreme Court and the Circuit Court of Appeals
for the Eleventh Circuit have both declined to make a determination on the interplay between
§2254(d)(2) & §2254(e)(1). Burt v. Titlow, 134 S.Ct. 10, 15 (2013)(“We have not defined the
precise relationship between § 2254(d)(2) and §2254(e)(1), and we need not do so here.”); see
also Cave v. Sec’y, Dep’t of Corr., 638 F.3d 739, 746 (11th Cir. 2011)(“[A]s we have previously
observed, ‘[n]o court has fully explored the interaction of §2254(d)(2)’s “unreasonableness”
standard and §2254(e)(1)’s “clear and convincing evidence” standard.’”). The instant case does
not require the Court to define the respective purviews of (d)(2) and (e)(1). Therefore, the Court
declines to do so.

53

67a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 54 of 114

Deficiency
There can be little doubt that defense counsel did not anticipate nor did he prepare for a
penalty phase until after the guilty verdict. Indeed, he has said as much. The record shows that
Mr. Kalisch failed to conduct any presentence investigation prior to his client being found guilty
of first degree murder. Subsequent to the verdict, counsel failed to retain an investigator to find
viable mitigation evidence, conduct his own investigation, or contact any of Mr. Rodriguez’s
relatives in Cuba. With the limited exception of Marlen Castellano, Mr. Kalisch made no
attempt to present any family or social background mitigation.17 Mr. Kalisch failed to retain a
defense expert,18 mental health or otherwise, to evaluate Mr. Rodriguez for statutory and nonstatutory mitigation. Conducting a Strickland analysis shows counsel’s performance to have
been deficient. The Court has reviewed the law governing deficiency and finds that Mr.
Rodriguez’s trial counsel’s performance was similar to that of other trial counsel who were found
to have performed deficiently. See Sears v. Upton, 130 S.Ct. 3259 (2010)(the jury was told one
thing during the penalty phase when the truth was far from the picture painted in mitigation),
Porter v. McCollum, 558 U.S. 30 (2009)(defense counsel presented only one witness, Mr.
Porter’s ex-wife, and read an excerpt from one deposition), Wiggins v. Smith, 539 U.S. 510
(2003)(defense counsel had failed to conduct a reasonable investigation into Mr. Wiggins’ life

17

Mr. Rodriguez’s wife’s uncle, Orlando Herrera, knew Mr. Rodriguez and his family
when he was growing up in Cuba. Mr. Herrera resides in Miami and came to watch Mr.
Rodriguez’s trial. Mr. Herrera had a wealth of information which could have been used in
mitigation but Mr. Kalisch never spoke with him. ([DE 15-90] at 63).
18

While Dr. Noble J. David, Neurologist, University of Miami, was retained to examine
Mr. Rodriguez, the evaluation was conducted after the jury had already rendered their advisory
sentence. ([DE 15-17] at 55). Dr. Noble ordered an electroencephalogram; the result showed “no
abnormalities.” ([DE 15-17] at 57).
54

68a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 55 of 114

history before making a strategic decision to not put on mitigation other than the fact that Mr.
Wiggins had no prior convictions), Rompilla v. Beard, 545 U.S. 374 (2005)(defense counsel did
not review his prior convictions or his prison file despite knowing that the State was planning on
using those convictions as an aggravating circumstance), Wiggins v. Smith, 539 U.S. 510
(2003)(defense counsel had failed to conduct a reasonable investigation into Mr. Wiggins’ life
history before making a strategic decision to not put on mitigation other than the fact that Mr.
Wiggins had no prior convictions); compare Bobby v. Van Hook, 558 U.S. 4 (2009)(counsel
contacted their lay witnesses early and often: They spoke nine times with his mother - beginning
within a week after the indictment - once with both parents together, twice with an aunt who
lived with the family and often cared for Van Hook as a child, and three times with a family
friend whom Van Hook visited immediately after the crime).
While the Court recognizes that perfection is not required, to have done little to nothing in
preparation for Mr. Rodriguez’s penalty phase either before, during, or after the guilt phase, is
not the decision an effective counsel would have made. “The test for ineffectiveness is not
whether counsel could have done more; perfection is not required. Nor is the test whether the
best criminal defense attorneys might have done more. Instead the test is whether some
reasonable attorney could have acted in the circumstances . . . [as this attorney did]-whether what
. . . [this attorney] did was within the ‘wide range of reasonable professional assistance.’” Waters
v. Thomas, 46 F.3d 1506, 1518 (11th Cir. 1995) (en banc) (quoting Strickland, 466 U.S. at 689)
(citation omitted). See also Provenzano v. Singletary, 148 F.3d 1327, 1332 (11th Cir. 1998)
(stating that to show unreasonableness “a petitioner must establish that no competent counsel
would have made such a choice.”). The Court finds counsel’s complete failure to investigate and

55

69a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 56 of 114

prepare for the penalty phase of a capital trial to be deficient.
Nonetheless, Mr. Rodriguez must show that his penalty phase counsel’s deficiency caused
him prejudice. Strickland, 466 U.S. at 687. (“Unless a defendant makes both showings, it cannot
be said that the conviction or death sentence resulted from a breakdown in the adversary process
that renders the result unreliable.”). He has not done so.19 Despite the Court’s determination that
counsel’s performance was constitutionally deficient, habeas relief must be denied.
Prejudice
The Supreme Court has emphasized that the “Strickland standard must be applied with
scrupulous care, lest ‘intrusive post-trial inquiry’ threaten the integrity of the very adversary
process the right to counsel is meant to serve.” Harrington v. Ritcher, 562 U.S. 86, 105 (2011).
When an IATC claim is based upon a failure to present mitigating evidence, we
must consider “whether counsel reasonably investigated possible mitigating
factors and made a reasonable effort to present mitigating evidence to the
sentencing court.” Henyard v. McDonough, 459 F.3d 1217, 1242 (11th Cir.2006)
(per curiam). When mental health is at issue, counsel does not offer ineffective
assistance when it later becomes apparent that an expert who would have testified
more favorably than the expert who was actually called may have existed. See
Ward v. Hall, 592 F.3d 1144, 1173 (11th Cir.2010) (“As we have held many times
before, ‘the mere fact a defendant can find, years after the fact, a mental health
expert who will testify favorably for him does not demonstrate that trial counsel

19

The Court did not need to reach a determination on the performance prong in order to
deny habeas relief. See McClain v. Hall, 552 F.3d 1245, 1251 (11th Cir.2008) ( “We may
decline to decide whether the performance of counsel was deficient if we are convinced that [the
petitioner] was not prejudiced.”). In fact, the Supreme Court has made clear that “[t]he object of
an ineffectiveness claim is not to grade counsel’s performance” and therefore, “[i]f it is easier to
dispose of an ineffectiveness claim on the ground of lack of sufficient prejudice, which we
expect will often be so, that course should be followed.” Strickland, 466 U.S. at 697. However,
because the Court finds this claim to have met the standard for a certificate of appealability, it
must reach a determination on the deficiency prong. See Williamson v. Sec’y, Dep’t of Corr.,
2015 WL 6685369, *8 (11th Cir., Nov. 3, 2015)(“The district court should have considered both
the debatability of whether counsel was deficient and the debatability of whether the petitioner
suffered prejudice before granting a certificate of appealability.”).
56

70a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 57 of 114

was ineffective for failing to produce that expert at trial.’ “ (quoting Davis v.
Singletary, 119 F.3d 1471, 1475 (11th Cir.1997))). When evaluating the claim, the
court must “consider ‘the totality of the available mitigation evidence—both that
adduced at trial, and the evidence adduced in the habeas proceeding’—and
‘reweig[h] it against the evidence in aggravation.’ “ Porter v. McCollum, 558 U.S.
30, 41, 130 S.Ct. 447, 453–54, 175 L.Ed.2d 398 (2009) (per curiam) (quoting
Williams v. Taylor, 529 U.S. 362, 397–98, 120 S.Ct. 1495, 1515, 146 L.Ed.2d 389
(2000)).
Barwick v. Sec’y, Dep’t of Corr., 794 F.3d 1239, 1244 (11th Cir. 2015). “Prejudice occurs when
the challenger has shown ‘a reasonable probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.’” Id. Prejudice results only when
counsel’s errors were “so serious” that they deprived the defendant of a “fair trial, a trial whose
result is reliable.” Strickland, 466 U.S. at 687. To satisfy the prejudice prong, the “likelihood of
a different result must be substantial, not just conceivable.” Harrington, 131 S.Ct. at 792. In
considering whether Mr. Rodriguez has established the requisite prejudice mandated by
Strickland, the Court reviewed all the evidence admitted during trial and during the state
postconviction proceedings.
Penalty phase aggravators and mitigators
During the penalty phase, trial counsel called only Marlene Castellano, Mr. Rodriguez’s
wife and the mother of his son, to testify. Ms. Castellano testified that Mr. Rodriguez was a good
husband and father. The trial judge found that this mitigation was “not sufficient to excuse him.”
([DE 15-17] at 66). During the Spencer hearing, Mr. Rodriguez presented no additional
evidence, other than his own statement proclaiming his innocence.
The State presented the testimony of the paramedic who transported Mr. Saladrigas to the
hospital. His testimony described, in detail, the pain and fear experienced by the victim as a
result of being shot multiple times. The court used this as the basis for finding that the crime was
57

71a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 58 of 114

“wicked, heinous, and cruel.” ([DE 15-17] at 65). At the Spencer hearing, the State presented
several family members of the victim’s testimony. They all testified that the murder of Abelardo
Saladrigas has been a great loss to their family.
Postconviction mitigation and rebuttal
During postconviction, Mr. Rodriguez called Ruth Latterner, PhD. ([DE 15-81] at 30).
Dr. Latterner is a licensed neuropsychologist. Dr. Latterner evaluated Mr. Rodriguez in 1995.
Dr. Latterner conducted psychological and intelligence testing during her evaluation. Mr.
Rodriguez tested at a full scale IQ score of 64. (Id. at 39). Dr. Latterner concluded that Mr.
Rodriguez was “exhibiting characteristics of a neuropsychological impairment, or brain damage.”
(Id. at 45). Through Dr. Latterner’s testimony, the investigative summaries were admitted - not
as substantive evidence - but as evidence the doctor relied on in making her diagnosis. (See [DE
15-81] at 61). In her expert opinion, Dr. Latterner found that Mr. Rodriguez met the criteria of
two statutory mitigators: (1) defendant’s ability to appreciate the criminality of his conduct and
conformity to the law (§921.141(6)(f), Fla. Stat.), and (2) the defendant was under extreme
emotional distress at the time of the crime (§921.141(6)(b), Fla. Stat.). ([DE 15-82] at 14-15).
In rebuttal, the State produced a Department of Corrections officer, a City of Miami
police officer, a Psychological Specialist from the Union Correctional Center,20 and Dr. Leonard
Haber. (See [DE 15-82 & 15-83]). Dr. Haber testified that he conducted a psychological

20

The Court questions the admissibility of the testimony from the Department of
Corrections’ staff and the City of Miami police detective. They had no contact with Mr.
Rodriguez at the time of the penalty phase in 1990. Sergeant Mike Young and Lisa Wiley,
psychological specialist, did not meet Mr. Rodriguez until 1993. ([DE 15-82] at 73 & 96).
Detective Morin met with Mr. Rodriguez for the first time in 1998. ([DE 15-82] at 85).
58

72a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 59 of 114

interview and mental status exam of Mr. Rodriguez.21 ([DE 15-83] at 24). He found no signs of
“of any major mental illness.” (Id.). While he conducted no formal intelligence testing, he found
Mr. Rodriguez’s intelligence to be below average but not mentally retarded. (Id. at 26-27). In
making that determination, Dr. Haber considered Mr. Rodriguez’s ability to speak two languages,
his previous levels of employment, his ability to maintain a bank account, his prior criminal
convictions for drug trafficking and escape, his use of false names and birthdates, the details of
the crimes for which he been convicted, and his functioning as a leader in jail. Dr. Haber also
testified that when he interviewed Mr. Rodriguez, he was able to discuss a plea offer from the
State “directly and cogently.” (Id. at 47).

Dr. Haber opined that Mr. Rodriguez did not meet the

criteria for any statutory mitigation including the inability to conform one’s conduct under the
law and the inability to appreciate the criminality of his conduct. ([DE 15-83] at 53-54.).
As the Court begins its analysis, it is noteworthy that Mr. Rodriguez offered nothing in
postconviction which would discredit the aggravating factors found by the trial court. The trial
court found the State proved four aggravating factors during the penalty phase. Without more,
the Court accepts the establishment of those four aggravating factors as true. Barnwick, 794 F.3d
at 1251. (“Barwick’s arguments here concern mitigation, not aggravation; accordingly, the five
aggravating factors found to support the death-penalty sentence would remain.”).
In the Sentencing Order, the judge found “great relevance in [Mr. Rodriguez’s prior
violent felony convictions] to show the kind of person he is and the despicably bad and
dangerous behavior he has exhibited.” ([DE 15-17] at 65). The court also found that the murder

21

Dr. Haber examined Mr. Rodriguez in February of 1990. He did not conduct any
additional interviews or perform any additional examinations of Mr. Rodriguez during
postconviction. (See [DE 15-83] at 22-23).
59

73a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 60 of 114

“occurred during a robbery with a firearm” and was “committed for financial gain.” (Id.).
Finally, the court found the murder of Mr. Saladrigas was “wicked, heinous, and cruel.”22 (Id.)
The victim was quoted as saying “[p]lease don’t do this to me.” Mr. Rodriguez chased the
victim around a car as the victim was trying to escape and shot him three additional times.
In mitigation, the trial court considered that Mr. Rodriguez was a loving father and
husband and that his co-defendants were facing much lighter sentences. (Id. at 65-66). While the
sentencing order does not specify the weight assigned to each individual aggravating and
mitigating factor, the court concluded that no mitigating circumstances “exist to outweigh the
aggravating circumstances.” (Id.). The Florida Supreme Court affirmed the death sentence on
direct appeal. Rodriguez v. State, 609 So.2d 493 (Fla. 1992).
In conducting a de novo review, the Court has considered all the evidence adduced at trial
and during postconviction. For analytical purposes, the Court will accept the family and social
background documented in the investigative summaries as true.23 It goes without saying that any
new mitigation presented during postconviction would be more compelling than the mitigation
presented during the penalty phase of trial. Mr. Kalisch called a single witness who testified for
less than ten pages of the entire trial transcript. However, the fact that Mr. Rodriguez has
provided much more in the way of mitigation now then he did back then does not, in and of

22

The Florida Supreme Court has characterized the “heinous, atrocious and cruel”
aggravator as one of the most serious aggravating circumstances. See Brown v. State, 143 So.3d
392, 405 (Fla. 2014).
23

The Court makes no determination of whether or not those summaries would or should
have been admitted for any purpose other than information that Dr. Latterner relied upon.
Accepting that the substance of the testimony summarized in those reports would have been
properly admitted at the penalty phase, it does not change the result here.
60

74a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 61 of 114

itself, show prejudice. It is not a forgone conclusion that when a Petitioner provides mitigation
in postconviction where none had been presented during trial, he establishes prejudice. See Sears
v. Upton, 561 U.S. 945, 955 (2010)(“[W]e have explained that there is no prejudice when the
new mitigating evidence “would barely have altered the sentencing profile presented” to the
decision maker, Strickland, supra, at 700, 104 S.Ct. 2052.”). The Court must still weigh the
aggravators and mitigators just as the trial court would have twenty-five years ago had the
postconviction mitigation been presented to the jury. Having done so, the Court does not find
that Mr. Rodriguez has shown Strickland prejudice.
The Court does not reach this conclusion easily. Indeed, it is a laborious and paradoxical
process to look back in time and through history to determine if there was a reasonable
probability that six persons would have voted for a life sentence over a death sentence had certain
mitigation evidence - from witnesses the Court has not seen and cannot consider their demeanor
or credibility - had been presented. At best, it is an imperfect science. It is, however, one that
most be done. In doing so, the Court sought guidance from the facts of comparable cases where
the habeas petitioner had established prejudice from the deficient performance of penalty phase
counsel.
In Johnson v. Sec’y, Dep’t of Corr., 643 F.3d 907 (11th Cir. 2011), the Eleventh Circuit
granted federal habeas relief on an ineffective assistance of penalty phase counsel claim applying
a de novo standard of review to the prejudice prong. During the penalty phase, counsel put on
minimal mitigation evidence. Nonetheless, the jury voted for death by a bare majority of seven
to five. Id. at 911. During postconviction, Mr. Johnson was able to show that his counsel failed
to discover a multitude of mitigation which included:

61

75a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 62 of 114

An adequate investigation would have led to the jury hearing about how Johnson
and his siblings would hide in their bedroom “huddled together in terror” when
their father would come home drunk and beat their mother, knowing that if they
did not hide they would be beaten, too. And the jury would have heard that the
violence extended both ways, with Johnson’s mother getting into “knock-down,
drag-out fights” with his father and even attacking him with a butcher knife. It
would have also heard that the parents’ fights regularly got so far out of control
that Johnson’s older brother would run over to their neighbors' house and call the
police.
A minimally adequate investigation would have led to the jury hearing about the
physical and emotional abuse Johnson’s mother inflicted on him, about how she
beat him more severely than the other children—sometimes with her knuckles and
sometimes with a leather strap—and how she would “single him out” for
emotional torment.
If Jones had conducted an adequate investigation into his client’s background, the
jury would not have been left with the impression that Johnson’s grandparents
were caring and nurturing people. Instead, the jury would have learned from
Johnson’s brother that their grandparents inflicted “horrible” physical and
emotional abuse on them in a home he described as “pure hell.” The jury also
would have learned that Johnson’s grandparents targeted and psychologically
tormented him by, among other things, rubbing his face in his own urine when he
wet the bed.
The jury heard nothing about Johnson witnessing his mother’s repeated suicide
attempts. It was not told about how on one occasion Johnson, after witnessing the
usual fighting between his parents, which ended with his father hitting his mother
to “shut her up,” found his mother lying in bed after 3 a.m. with a plastic bag over
her head. Or about a family Christmas, which included the usual drunken fighting
between their parents, that ended with the police coming to their home because
their mother again had attempted to commit suicide, this time by taking an
overdose of tranquilizers. Or about when Johnson’s mother tried to slit her wrists,
yet another one of her suicide attempts.
Although the jurors did hear about how Johnson blamed himself for his younger
brother’s death in Vietnam and for his mother’s death, they did not hear how his
mother and brother died. They did not learn that his mother killed herself the same
way his brother died—with a drug overdose. And the jury was not told that
Johnson found his mother’s body, with a photograph of his dead brother clutched
in her hands. Nor was the jury told that when recalling the events surrounding
their deaths, Johnson would feel so guilty and grief-stricken that he would “fall
apart.”

62

76a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 63 of 114

Id. at 937. The Eleventh Circuit, relying on Williams v. Taylor, 529 U.S. 362 (2000), found
prejudice because “[t]he evidence about Johnson’s childhood and family that the jury did not
hear is similar to that which the jury did not hear in Williams.” The murders were no more brutal
than the murder in that case and the “defendant’s criminal record and other aggravating
circumstances were as bad in that case as in this one.” Id. at 937.
In Williams, the United States Supreme Court found the following facts relevant to its
analysis of the prejudice prong.
The record establishes that counsel did not begin to prepare for that phase of the
proceeding until a week before the trial. Id., at 207, 227. They failed to conduct an
investigation that would have uncovered extensive records graphically describing
Williams’ nightmarish childhood, not because of any strategic calculation but
because they incorrectly thought that state law barred access to such records. Had
they done so, the jury would have learned that Williams’ parents had been
imprisoned for the criminal neglect of Williams and his siblings,FN19 that
Williams had been severely and repeatedly beaten by his father, that he had been
committed to the custody of the social services bureau for two years during his
parents’ incarceration (including one stint in an abusive foster home), and then,
after his parents were released from prison, had been returned to his parents’
custody.
FN19. Juvenile records contained the following description of his home:
“The home was a complete wreck.... There were several places on the floor
where someone had had a bowel movement. Urine was standing in several
places in the bedrooms. There were dirty dishes scattered over the kitchen, and
it was impossible to step any place on the kitchen floor where there was no
trash.... The children were all dirty and none of them had on under-pants. Noah
and Lula were so intoxicated, they could not find any clothes for the children,
nor were they able to put the clothes on them.... The children had to be put in
Winslow Hospital, as four of them, by that time, were definitely under the
influence of whiskey.” App. 528–529.
Counsel failed to introduce available evidence that Williams was “borderline
mentally retarded” and did not advance beyond sixth grade in school. Id., at 595.
They failed to seek prison records recording Williams’ commendations for
helping to crack a prison drug ring and for returning a guard’s missing wallet, or
the testimony of prison officials who described Williams as among the inmates
63

77a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 64 of 114

“least likely to act in a violent, dangerous or provocative way.” Id., at 569, 588.
Counsel failed even to return the phone call of a certified public accountant who
had offered to testify that he had visited Williams frequently when Williams was
incarcerated as part of a prison ministry program, that Williams “seemed to thrive
in a more regimented and structured environment,” and that Williams was proud
of the carpentry degree he earned while in prison. Id., at 563–566.
Given this mitigation, in consideration with the defense that was put forth during the penalty
phase, the Court concluded:
Williams turned himself in, alerting police to a crime they otherwise would never
have discovered, expressing remorse for his actions, and cooperating with the
police after that. While this, coupled with the prison records and guard testimony,
may not have overcome a finding of future dangerousness, the graphic description
of Williams’ childhood, filled with abuse and privation, or the reality that he was
‘borderline mentally retarded,’ might well have influenced the jury’s appraisal of
his moral culpability.24
Id. at 398.
Finally, in Hardwick v. Sec’y, Dep’t of Corr., 2015 WL 5474275 (11th Cir., Sept. 18,
2015), the Eleventh Circuit recently granted federal habeas relief on an ineffective assistance of
penalty phase counsel claim because Mr. Hardwick showed prejudice on a pre-AEDPA standard
of review. Id. at *11. During the penalty phase of Mr. Hardwick’s trial, counsel did not call a
single witness and did not establish any evidence in mitigation. Id. at *2. Nonetheless, the jury
voted for death by only a vote of seven to five. Id. In postconviction, Mr. Hardwick was able to
establish multiple statutory and non-statutory mitigators existed at the time of the penalty phase:
The length and magnitude of Hardwick’s substance abuse and dependency are

24

Virginia requires a unanimous vote for a death sentence. See Va. Code §19.2-264.4.
Therefore, Mr. Williams would have only needed to move one juror to spare his life. A factual
scenario similar to Mr. Johnson and Mr. Hardwick because although Florida requires only a
simple majority; in their cases, the jury voted 7 to 5. Therefore, only a single juror would have
had to have voted against death for a life sentence to be imposed. See Parker v. State, 904 So.2d
370 (Fla. 2005).
64

78a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 65 of 114

well-established. At the time of the murder, Hardwick had been sniffing, smoking,
injecting, drinking, or otherwise ingesting a wide variety of drugs and alcohol on a
regular basis for more than half of his twenty-five years. Hardwick had already
begun his alcohol and drug use by age twelve. His mother neglected him and
placed him in a boys’ home at age seven, but he repeatedly ran away and returned
to his physically abusive father who gave him drugs and alcohol to keep him
occupied. By age thirteen, Hardwick was having alcohol-induced blackouts and
contracted hepatitis from dirty intravenous needles. In 1974, at age fifteen,
Hardwick attempted suicide twice; first by drug overdose, and then by slashing his
wrists. Dr. Toomer opined at the evidentiary hearing that when substance abuse
begins at such a young age and occurs for an extended period of time, it generally
results in significant psychological and functional impairment. In his words, the
end is result is “an individual who is unable to function effectively, i.e ., in terms
of what we call executive functioning[:] weighing alternatives, projecting
consequences, managing what we call high order thought....”
The record is also uncontroverted as to Hardwick’s heavy intake of drugs and
alcohol around the time of the murder. Several of his associates averred that they
saw him taking quaaludes, smoking marijuana, and drinking vodka the day before
the murder. At least one witness described him sweating heavily, shaking, and
acting erratically shortly after the murder occurred; another recalled that his
speech was incoherent and slurred. Correctional officer Mary Braddy saw
Hardwick shortly after his incarceration, two days after the murder, and testified
that he did not appear to be aware of her presence, his eyes were glassy and
vacant, and he appeared to be either high or intoxicated.
***
Lay witness accounts, evaluations by mental health experts, and Hardwick’s
life-history records all tell a clear, consistent tale of abuse, neglect, and
dysfunction. Hardwick’s father was an alcoholic and physically abusive of both
Hardwick’s mother and Hardwick himself—to the point of wrenching Hardwick's
shoulder out of its socket on one occasion. Another time Hardwick’s father beat
his son “with a belt so badly that the blood came up to the skin.” Hardwick’s
father also would “take his shoe and kick [Hardwick] with it.” Hardwick’s family
lived in poverty because his father, a severe alcoholic, spent much of his money
on alcohol and could not maintain a job. Hardwick’s family lived in substandard
housing, moved frequently, and did not have adequate food and clothing. His
father beat his mother, leaving cuts, bruises, and black eyes. His mother was
emotionally detached and unable to provide the attention, discipline, and care
Hardwick needed. After his parents divorced when he was four, Hardwick was
frequently left to fend for himself during his pre-teen years, sometimes
hitchhiking alone between his father’s house in South Carolina and his mother
and step-father’s residence in Florida. Neither location was safe: his mother
65

79a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 66 of 114

neglected him to avoid triggering her new husband’s jealous rage, and his father
would beat him. At age seven, Hardwick was placed in a boys’ home because his
mother was pregnant again and could not take care of him. Hardwick repeatedly
ran away from the institution to return to his abusive father in South Carolina.
Eventually, social services found the father’s home unfit and placed Hardwick in a
foster home. Hardwick’s mother had a total of eleven children with three different
husbands and never took care of Hardwick either. By the age of eleven, Hardwick
had begun drinking alcohol, sniffing glue, and smoking marijuana. Over the
course of his teenage years, Hardwick was in and out of juvenile institutions for a
variety of theft and drug-related offenses. His institutional records include reports
of depression, mood swings, and multiple suicide attempts. At one point,
Hardwick was diagnosed with schizophrenia and the records show his
medications included Thorazine, Sinequan, and Elavil. In sum, there is ample
evidence of “the kind of troubled history [the Supreme Court] ha[s] declared
relevant to assessing a defendant’s moral culpability.” See Wiggins, 539 U.S. at
535, 123 S.Ct. at 2542.
Id. at *12-13.
A cursory comparison of the similarities between the deficient25 conduct of Mr.
Rodriguez’s counsel and the cases above could cause the Court to conclude that Mr. Rodriguez
met the difficult burden imposed by Strickland. Indeed, there are many factual similarities.
However, when the Court considers the facts relevant to a prejudice analysis and scrutinizes the
factual differences, it becomes clear that Mr. Rodriguez has not satisfied the prejudice prong.
There is no question that the substance of the non-statutory mitigation provided by Mr.
Rodriguez’s family and friends in Cuba is troubling. Mr. Rodriguez did not have an idyllic
childhood. The reports established that Mr. Rodriguez was the subject of abuse at the hands of
his own family. He had been abandoned by his father and had no one to look out for him. He

25

Counsel for Mr. Rodriguez failed to conduct any investigation into mitigation evidence
(See Hardwick, 2015 WL 5474275 at *2), failed to review vital records where potential
mitigation would have appeared (See Johnson, 643 F.3d at 920), and failed to investigate certain
information based on the mistaken impression that he was unable to travel to Cuba (See
Williams, 529 U.S. at 398). However, these similarities go to the deficiency prong rather than the
prejudice prong.
66

80a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 67 of 114

was of low intelligence and failed at most things he tried to do. Mr. Rodriguez was often the
subject of ridicule from both his family and peers.
However, Mr. Rodriguez left home when he was thirteen years old and, in 1979,
immigrated to the United States. There is nothing in the record to suggest that Mr. Rodriguez
was subject to subsequent abuse. While Mr. Rodriguez did engage in certain anti-social and
criminal behavior once in the United States, Mr. Rodriguez also married, had a child, held
various jobs as a taxi cab and tow truck driver, and attempted to assimilate by learning English,
maintaining a bank account, and establishing relationships in the community. Further, Mr.
Rodriguez did not suffer from a serious drug or alcohol addiction. Mr. Rodriguez had not been
diagnosed with a major mental disorder (i.e.: schizophrenia, paranoia, bipolar disorders, major
depressive disorders, schizoaffective disorders, pervasive developmental disorders,
obsessive-compulsive disorders, panic disorders and post traumatic stress). Unlike Mr.
Hardwick, on the day of the murder, Mr. Rodriguez did not exhibit erratic behavior nor was he
under the influence of any mind-altering substance.
The facts of Mr. Rodriguez’s adult life are vastly different from those of Terrell Johnson,
Terry Williams, and John Hardwick. Mr. Johnson would drink “‘[q]uite often’ [which] caused
him to black out, and [] it was ‘typical’ for him not to clearly remember events that took place
while he was drinking.” Johnson, 643 F.3d at 926. Mr. Williams is “borderline mentally
retarded, had suffered repeated head injuries, and might have mental impairments organic in
origin.” Williams, 529 U.S. at 370. Mr. Hardwick, who was only twenty-five but with a life-long
history of substance abuse at the time of the murder, was seen “taking quaaludes, smoking
marijuana, and drinking vodka the day before the murder.” Hardwick, 2015 WL 5474275 at *12.

67

81a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 68 of 114

Here, Mr. Rodriguez was 32 years old at the time of the crime. ([DE 15-17] at 49). He had
lived and been away from his abusive family for at least ten years (perhaps longer given his time
spent in the Merchant Marines and in a Cuban jail). His uncontradicted self-report was that he
had not used drugs or alcohol for several years prior to the murder. Unlike Mr. Johnson, Mr.
Williams, and Mr. Hardwick, Mr. Rodriguez’s troubled childhood did not manifest itself in a
direct and obvious manner in his adulthood. Whether truly absent or simply by failure to prove
otherwise, Mr. Rodriguez has not shown a compelling link between his troubled childhood and
his criminal conduct such that a reasonable probability exists that the mitigation would have
produced a different result at sentencing. Moreover, the mitigation evidence of Mr. Rodriguez’s
childhood would have been substantially weakened by the chronological remove between his
childhood and the murder. See Rose v. McNeil, 634 F.3d 1224 (11th Cir. 2011)(quoting
Cummings v. Sec’y for Dep’t of Corr., 588 F.3d 1331, 1369 (11th Cir. 2009) (finding petitioner
Cummings’s proposed penalty-phase testimony was weak and noting specifically as to his
childhood evidence, “Cummings was 33 years old when he murdered Good, and the State would
have stressed that his childhood was many years behind him”)).
Further, it is not inconsequential that Mr. Rodriguez’s jury made a unanimous
recommendation for a sentence of death. In Florida, the State need only convince seven jurors to
vote for death in order for the jury to make a death recommendation. Here, because Mr.
Rodriguez’s jury was unanimous, he would have to show a reasonable probability that, absent his
counsel’s deficient performance, he could have convinced six of the twelve jurors to vote for

68

82a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 69 of 114

life.26 This encumbrance is one that the Court can take into account when considering the
reasonable probability of a different result at sentencing. “Given the jury’s seven-to-five vote
here, if only one additional juror had been persuaded to vote for a life sentence, the jury’s
advisory sentence would have been interpreted as a recommendation of life imprisonment, rather
than the death penalty. Hardwick, 2015 WL 5474275 at *19, n. 16. Without doubt, it is more
difficult to show prejudice here than when there is a single juror at issue. Taking this into
consideration, as one of the many considerations at issue here, when re-weighing the mitigation
and aggravation, the Court concludes that Mr. Rodriguez did not succeed in establishing that
there is a reasonable probability that the jury would have returned a sentence other than death.
Even if Dr. Latterner had been called at the penalty phase to testify that Mr. Rodriguez had
satisfied two statutory mitigators regarding his ability to appreciate the criminality of his actions
and had an impaired ability to conform his conduct within the requirements of the law, Mr.
Rodriguez still met four statutory aggravators. The trial court gave considerable weight to the
four statutory aggravators. When re-weighing this mitigation against aggravation, the two
statutory mitigators found by Dr. Latterner combined with the non-statutory mitigation in the
witness summaries does not create a reasonable probability of a different result at sentencing. In
addition, had Dr. Latterner testified during the penalty phase, Mr. Rodriguez’s prior criminal
convictions could have become known to the jury. Wood v. Allen, 542 F.3d 1281, 1313 (11th
Cir.2008)(“[W]e have rejected prejudice arguments where mitigation evidence was a ‘two-edged
sword’ or would have opened the door to damaging evidence.”). The Court must consider the

26

“In Florida, a vote of six jurors for life constitutes a recommendation against the death
penalty.” Cave v. Singletary, 971 F.2d 1513, 1519 (11th Cir.1992).
69

83a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 70 of 114

effect that the prior felony convictions for drug trafficking or escape, which were otherwise
inadmissible, would have had on the jury had they become aware of them.27 Jones v. Warden,
753 F.3d 1171, 1187 (11th Cir. 2014)(“Here, had Jones’s counsel attempted to offer a more
detailed presentation about his childhood and life history, it seems to us that there is “not just a
reasonable probability, but a virtual certainty that [Jones’s] ‘good’ mitigation evidence would
have led to the introduction of ‘bad’ evidence, too.”).
In totality, when considering the testimony of Marlen Castellano, the two statutory
mitigating factors found by Dr. Latterner, and the non-statutory mitigation provided by the family
and friends of Mr. Rodriguez in Cuba and re-weighing all mitigating evidence against the four
aggravating factors proven at trial, Mr. Rodriguez’s prior felonies, and a unanimous jury
recommendation for death, the Court cannot say that, but for counsel’s deficient performance,
there is a reasonable probability that Mr. Rodriguez would have been sentenced to life as
opposed to death. “‘A reasonable probability is a probability sufficient to undermine confidence
in the outcome.’ Strickland, supra, at 694, 104 S.Ct. 2052.” Woodford v. Visciotti, 537 U.S. 19
(2002). While it is possible that the mitigation offered in postconviction might have resulted in a

27

In Florida, one of the enumerated aggravating circumstances is “[t]he defendant was
previously convicted of another capital felony or of a felony involving the use or threat of
violence to the person.” Fla. Stat §921.141(5)(b). The statute has been interpreted by the Florida
Supreme Court to mean “life-threatening crimes in which the perpetrator comes in direct contact
with a human victim.” See Ford v. State, 374 So.2d 496 (Fla.1979); Lewis v. State, 398 So.2d
432 (Fla. 1981)(“two convictions of breaking and entering with intent to commit a felony, two
convictions of escape, one conviction of grand larceny, and one conviction of possession of a
firearm by a convicted felon. We hold that none of these crimes falls within the meaning of this
aggravating circumstance as defined by the statute.”). While the record is not clear as to whether
the State thought that Mr. Rodriguez’s prior convictions for drug trafficking and escape met the
statutory criteria for a felony “involving the use or threat of violence to the person” - what is
clear is that both parties believed that the convictions were inadmissible if Mr. Rodriguez did not
open the door. (See [DE 15-32] at 38-39).
70

84a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 71 of 114

life sentence, the Court does not find that it is reasonably probable. “It is not enough ‘to show
that the errors had some conceivable effect on the outcome of the proceeding. Counsel’s errors
must be ‘so serious as to deprive the defendant of a fair trial, a trial whose result is reliable.’”
Harrington v. Ritcher, 562 U.S. 86, 104 (2011)(citation omitted). Mr. Rodriguez has not
established prejudice. Habeas relief is denied.
Claim IV. Factual Findings on Mental Retardation
Mr. Rodriguez’s fourth claim for federal habeas relief is similar to Claim II. (See [DE 1]
at 54-120). Here, Mr. Rodriguez is not focused on a misapplication of clearly established federal
law but; rather, an unreasonable determination of the facts by the state court. ([DE 1] at 120).
Mr. Rodriguez asserts three principle arguments in support of his claim: (1) Mr. Rodriguez has
demonstrated that he has significantly subaverage intellectual functioning; (2) Mr. Rodriguez has
significant limitations in adaptive functioning; and (3) Mr. Rodriguez has demonstrated that his
adaptive deficits had an onset prior to age 18. All three arguments challenge the state courts’
findings regarding expert testimony.
The Florida Supreme Court found that “there is no evidence that Rodriguez has ever had a
reliable IQ score of 70 or below. Furthermore, there is no evidence that Rodriguez exhibits
adaptive behavior deficits.” Rodriguez, 110 So.3d 441 (Fla. 2013). Ultimately, the court
concluded “that the trial court’s finding that Rodriguez is not mentally retarded is supported by
competent, substantial evidence and [we] affirm the denial of relief.” Id.
Florida Rule 3.203 Hearing
On March 27, 2009, the trial court held an evidentiary hearing wherein Mr. Rodriguez and
the State presented witnesses to testify to Mr. Rodriguez’s intellectual quotient and adaptive

71

85a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 72 of 114

deficits. Mr. Rodriguez’s expert, Dr. Ricardo Weinstein, found that he was mentally retarded.
([DE 15-256] at 2). The State’s expert, Dr. Enrique Suarez, found he was not. ([DE 15-276] at
17).
In support of his claim that he is ineligible for the death penalty because he is mentally
retarded, Mr. Rodriguez called twelve witnesses to testify. The vast majority of these twelve
witnesses were Florida Department of Corrections employees called to rebut the findings of the
State’s expert witness. In forming his expert opinion, Dr. Suarez had each of these witnesses
complete an adaptive behavior questionnaire about Mr. Rodriguez. The results of the
questionnaires were used as one of the bases for Dr. Suarez’s expert opinion. Mr. Rodriguez
challenged the accuracy and validity of those questionnaires. The witness testimony is below.
First, Mr. Rodriguez called Jennifer Sagle. Ms. Sagle is a psychological specialist at
Union Correctional Institution. ([DE 15-248] at 22). Ms. Sagle met and evaluated Mr. Rodriguez
for a total of two hours and forty-five minutes. She assessed that Mr. Rodriguez was a S1 which
is a psych-grade 1, meaning that she saw no immediate need for a referral to psychiatry for
medication or intensive counseling. On one occasion, Mr. Rodriguez exhibited “abnormal sexual
behavior” such that Ms. Sagle filed a disciplinary report. (Id. at 31). After she filed the report,
Mr. Rodriguez refused to attend his psychological assessment appointments. Ms. Sagle
communicated with Mr. Rodriguez in English and did not feel that there was a language barrier.
(Id. at 30).
Second, Lisa Wiley testified. Ms. Wiley is also a psychological specialist at Union
Correctional Institution. ([DE 15-249] at 13). She testified that Mr. Rodriguez has not voiced
any complaints nor has he exhibited signs of depression. She attempted to conduct IQ testing but

72

86a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 73 of 114

Mr. Rodriguez refused to cooperate. In fact, Mr. Rodriguez has never had his IQ tested by the
Department of Corrections. Ms. Wiley was aware that Mr. Rodriguez had previously worked as
a mechanic, electrician, and carpenter. She testified that Mr. Rodriguez communicates in
English. (Id. at 31). In her progress reports, Ms. Wiley reported that Mr. Rodriguez was
“intelligent and verbally productive.” (Id. at 4).
Third, Officer John Flaherty testified. Officer Flaherty was one of several officers from
Union Correctional Institution who testified at the hearing. ([DE 15-250] at 20). Officer
Flaherty completed an adaptive deficits questionnaire administered by the State’s expert. (Id. at
35). On direct examination, Officer Flaherty testified that his answers on the questionnaire were
largely guesses as he would not have personally witnessed Mr. Rodriguez answering the phone,
starting conversations on topics of interest to others, repeating stories or jokes, ordering his meals
in a restaurant, carrying money, packing his clothes for an overnight trip, mailing letters at the
post office, using a public restroom or showing caution around hot or dangerous items. ([DE 15251] at 11). However, the officer did observe Mr. Rodriguez watching TV and ordering from the
prison canteen.
Fourth, Ms. Leonila Dale testified. Ms. Dale knew Mr. Rodriguez from when they both
lived in Cuba. Ms. Dale has visited Mr. Rodriguez twice since he has been incarcerated on death
row. ([DE 15-251] at 28). While on death row, Mr. Rodriguez corresponded with Ms. Dale in
writing, including providing her instructions for how to have his son come to visit him and which
items he would like purchased from Walmart. (Id. at 36). Ms. Dela testified that Mr. Rodriguez
“is not stupid.” (Id. at 40).
Fifth, Mr. Diogenes Navarro testified. Mr. Navarro knew Mr. Rodriguez from when they

73

87a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 74 of 114

were imprisoned in Cuba. ([DE 15-253] at 21). Later, both Mr. Navarro and Mr. Rodriguez both
immigrated to the United States. They reconnected as friends. Mr. Navarro testified that Mr.
Rodriguez would buy jewelry at an inflated price and then turn around and pawn it a much lower
price. (Id. at 27-28). Mr. Navarro also testified that Mr. Rodriguez did not order from menus
when they dined at restaurants. However, he also testified that Mr. Rodriguez likely had him
order food when the ate together because Mr. Navarro was more familiar with the restaurants.
(Id. at 40).
Sixth, Mr. Rodriguez called Ricardo Weinstein, PhD. ([DE 15-254] at 9). Dr. Weinstein
is a psychologist. He earned his master’s degree in clinic and humanistic psychology from
Merrill Institute in Detroit, Michigan and his PhD from International College in Los Angeles,
California (a tutorial institution). (Id. at 11). Neither of these institutions were still in existence
at the time of the hearing. (Id. at 14). Dr. Weinstein interviewed Mr. Rodriguez extensively over
a two day period. Dr. Weinstein spent approximately six hours a day conducting formal
intelligence testing, including the WAIS III in the Spanish language. (Id. at 36). Dr. Weinstein
administered the Mexican WAIS tests but “normed” it to United States standards. ([DE 15-258]
at 11). Mr. Rodriguez tested 59-69 on verbal skills, 55-69 on performance with his full scale
score being 55-65. ([DE 15-255] at 1). Dr. Weinstein also administered a Wood Cort Munaz at
45-51 and a C Tonny where Mr. Rodriguez scored 44. On four prior occasions, Mr. Rodriguez
had tested below the cut-off for sub-average intelligence. In 1998, his full scale score was 59-69,
later in 1998 his score was 53-64, in 2004 his score was 54-63 and in 2008, his score was 52-68.
Dr. Weinstein found this consistency to show a lack of malingering on Mr. Rodriguez’s part.
Ultimately, Dr. Weinstein concluded that Mr. Rodriguez met the first criteria for mental

74

88a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 75 of 114

retardation. (Id. at 15).
Dr. Weinstein testified that he believes that an adaptive deficits test must be done as a
retrospective evaluation. ([DE 15-255] at 32). The testing guidelines suggest that the evaluator
should obtain school records, medical records, employment records, Social Security records, and
driving records. Dr. Weinstein testified that the information he garnered from various sources of
information in Cuba was that Mr. Rodriguez “had some delay” in acquiring developmental
milestones. (Id. at 37). Further, he did not learn at school and was sent to special education
programs. He “exhibited social limitations” and poor judgment. (Id. at 38). Dr. Weinstein did
find that Mr. Rodriguez had “mild adaptive behavior” which “allows you to live in the
community, society.” (Id. at 39). Dr. Weinstein testified that criminal behavior “is not
something you use to determine adaptive behavior.” (Id. at 40). Dr. Weinstein testified that Mr.
Rodriguez functions on a sixth grade educational level; he can do no more than basic addition
and subtraction and cannot recite the alphabet. Ultimately, Dr. Weinstein concluded that Mr.
Rodriguez met the second criteria for mental retardation and exhibited those adaptive deficits
before the age of 18. ([DE 15-256] at 2).
On cross-examination, Dr. Weinstein was questioned about disparities in Mr. Rodriguez’s
prior test scores wherein he showed above-average intelligence. Dr. Weinstein was also
questioned as to whether or not Mr. Rodriguez’s IQ score should be adjusted for his education
level, and, if so, whether his IQ would be above 70. (Id. at 32). However, Dr. Weinstein rejected
that assertion. The prosecution challenged whether or not Mr. Rodriguez should be able to
communicate in both Spanish and English, been a tow truck and taxi-cab driver, been involved in
a drug trafficking operation in New York, Virginia, and Florida, draft detailed letters to his

75

89a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 76 of 114

girlfriend and draw a watch that he wanted her to purchase if he indeed had an IQ below 70 and
adaptive deficits. (See [DE 15-258] & [DE 15-259). Dr. Weinstein testified that “[t]here is,
again, no relevance to what he can do. What is relevant is what he can not do, in order to
diagnose mental retardation.” ([15-257] at 22).
Following Dr. Weinstein, Mr. Rodriguez called to two well-qualified and experienced
expert witnesses. However, neither opined on Mr. Rodriguez’s intelligence level or his adaptive
functioning; rather, they opined solely on how the American Association of Intellectual and
Developmental Disabilities and Diagnostic and Statistical Manual of Mental Disorders (the
“DSM”) defines mental retardation. More importantly, they testified as to how experts in the
field define and analyze adaptive deficits. (See [DE 15-261] at 1-12).
The first of those two experts was Dr. Marc Tasse. ([DE 15-261] at 12). Dr. Tasse is an
associate professor at the University of South Florida. Dr. Tasse has a PhD in Psychology
Research, Clinical from the University of Quebec and a postdoctoral fellowship at the Ohio State
University. Dr. Tasse is a member of Division Five which is the “testing and measurement”
division of the AAIDD. (Id. at 15). Dr. Tasse testified that the gold standard in testing for mental
retardation is the “Wechsler scale [and] the Stanford Benay [sic].” (Id.). Dr. Tasse further
testified that in his practice, “generally we diagnose mental retardation in children, school age
children, that’s probably where most people get diagnosed in mental retardation.” (Id. at 31).
However, should a child not be tested at an early age, then intellectual adaptive functioning is
assessed and a determination must be made if such deficits were current before the age of 18. A
retrospective analysis must be done. According to Dr. Tasse, this is the process used when
making a benefits determination by the Social Security Administration. (Id. at 31). The current

76

90a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 77 of 114

testing for adaptive functioning was not normed nor developed in a prison setting nor were they
normed or developed for prison guards to be the respondents. Dr. Tasse did an evaluation of and
opined on the mental retardation of Darryl Atkins28. (Id. at 36). On cross-examination, Dr. Tasse
testified that he does agree that prison records can be reviewed but that they should “get a lot less
weight than in the community.” (Id. at 40). Dr. Tasse testified that if a country is culturally and
economically significant below the United States, the ABAS II should not be used.
Dr. Tasse further testified that he had never met Juan David Rodriguez and offered no
final opinion on whether or not he is mentally retarded. ([DE 15-266] at 12). Initially, Dr. Tasse
admitted that he had used the ABAS II with someone who was incarcerated but it was for the
purpose of self-evaluation. (Id. at 40). However, he later testified that he had previously had
prison guards complete ABAS evaluations and had testified as to the results during an Atkins
hearing. ([DE 15-269] at 2).
Next, Dr. Thomas Oakland testified. Dr. Oakland is a licensed educational psychologist
and professor from the University of Florida. ([DE 15-262] at 22). Dr. Oakland has a PhD from
Indiana University. Dr. Oakland is a Fulbright scholar who has written and published on the
subject of mental retardation domestically and internationally. Dr. Oakland testified that Florida
law is consistent with the DSM’s definition of adaptive deficits. ([DE 15-263] at 8-9). The
DSM identifies ten adaptive skills; two or more will constitute a deficit in adaptive behavior.
(Id. at 10). The clinical instrument used to assess adaptive behavior is called the Adaptive
Behavior Assessment System (“ABAS”). Dr. Oakland co-authored this test. (Id. at 12). The test

28

Darryl Atkins was the petitioner in Atkins v. Virginia, the seminal United States
Supreme Court case on the constitutionality of executing mentally retarded persons.
77

91a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 78 of 114

has been normed based on age and nationality. It has not been normed for the prison population
because adaptive behavior and decreased intellectual functioning must occur concurrently. (Id. at
23).
Wendy Herndon Hall also testified. Ms. Hall is a licensed practical nurse employed at the
Union Correctional Institution. (Id. at 11). Ms. Hall makes daily rounds on death row and has
occasionally spoken with Mr. Rodriguez. Ms. Hall was asked to complete an adaptive behavior
questionnaire for Mr. Rodriguez but she declined because she “didn’t feel comfortable that [she]
had enough knowledge.” (Id. at 17). However, she did complete a “mental health” questionnaire
wherein she gave answers but should have also indicated if she was guessing. Counsel went
through the form on direct examination and Ms. Hall admitted that there were many questions
that she should have indicating that she was guessing but she did not do so. Ultimately, Ms. Hall
testified that “I know I wouldn’t give you a form to fill out for [an] incarcerated person.” (Id. at
34).
On cross-examination, Ms. Hall testified that she also works part-time at a mental health
clinic with people who are mildly mentally retarded. ([DE 15-270] at 12). Based on her
experience, Ms. Hall testified that she has never seen Mr. Rodriguez have any problems in his
adaptive behavior, does not believe that he would have a problem living independently, and has
never expressed any delusions or hallucinations. (Id. at 13).
Next, Mr. Rodriguez called Marcus Sweat. (Id. at 17). At one time, Officer Sweat was a
corrections officer at Union Correctional Institution and he was assigned to death row. Officer
Sweat testified that he would come into contact with Mr. Rodriguez when he delivered the mail.
However, Officer Sweat testified that he hardly ever spoke to Mr. Rodriguez because “it’s not

78

92a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 79 of 114

professional.” (Id. at 21). Similar to Ms. Hall, Officer Sweat answered a questionnaire regarding
Mr. Rodriguez’s adaptive behavior. Officer Sweat testified that he too “guessed” on certain
questions but did not indicate that his answers were guesses. Officer Sweat testified that he
answered some of the questions considering how he thought Mr. Rodriguez would have
interacted “on the outside.” (Id.)
Sergeant Robert Boone was called to testify. ([DE 15-271] at 14). At the time of his
testimony, Sergeant Boone had worked at Union Correctional Institution for 14 years. Sergeant
Boone testified that he did not have much interaction with Mr. Rodriguez. (Id. at 16). However,
he also completed an adaptive behavior assessment on Mr. Rodriguez. Sergeant Boone was
unable to complete the questionnaire in one sitting because of his work obligations so he
answered it over a period of time. Sergeant Boone found the test “odd” because it asked lots of
questions regarding things that there was no way he could have observed Mr. Rodriguez doing.
(Id. at 23). Sergeant Boone testified that “it just didn’t make any sense to me.” (Id. at 24). As
did the two witnesses before him, Sergeant Boone also testified that, upon reflection, he
“guessed” on some of the questions but did not indicate that he was guessing. (Id. at 30-40).
Sergeant Boone testified that he had family members who had intellectual disabilities and he has
not ever noticed any adaptive deficits with Mr. Rodriguez. ([DE 15-272] at 7).
Finally, Sergeant Henry Walker testified. (Id. at 9). Sergeant Walker has been a sergeant
at Union Correctional Institution since 2003. Sergeant Walker is only sometimes assigned to
work on death row. He testified that he is “familiar” with Mr. Rodriguez. (Id. at 12). Sergeant
Walker was asked to complete the ABAS II, Assessment form. Sergeant Walker testified that he
was instructed to respond to the questions as though they were hypothetical questions. Sergeant

79

93a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 80 of 114

Walker “adapt[ed] the question to the custodial setting.” (Id. at 21). Nonetheless, Sergeant
Walker did testify that certain of his answers were “guesses” and should have been indicated as
such. Following Sergeant Walker’s testimony, the defense rested.
The State’s first witness was Sergeant Mike Young. ([DE 15-273] at 6). Sergeant Young
had previously testified regarding Mr. Rodriguez’s mental health but at the time of the Rule
3.203 hearing, Sergeant Young had passed away. Without objection, his prior testimony was
admitted into evidence. (Id. at 7). Sergeant Young testified that Mr. Rodriguez’s “cognitive
value seemed above average, probably, as far as verbal communication in English.” ([DE 15224] at 27). He further testified that in his six years working on death row with Mr. Rodriguez
he has never seen anything which would indicate that he was intellectually impaired. (Id.) On
cross-examination, Sergeant Young testified that he had no training in psychology or psychiatry.
(Id. at 37).
The State’s next witness was Andres Falcon. (Id. at 8). Detective Falcon is a homicide
detective for the Miami-Dade Police Department. Detective Falcon testified that while Mr.
Rodriguez was incarcerated, he contacted the Miami-Dade Police Department to advise them that
he had information regarding an unrelated homicide investigation. (Id.). Thereafter, Detective
Falcon and his partner went to interview Mr. Rodriguez at the Department of Corrections. Mr.
Rodriguez implicated someone involved in the murder investigation and was seeking “leniency
for the charges filed against him” and was inquisitive about an immigration hold. (Id. at 13).
Detective Falcon testified that Mr. Rodriguez did not seem gullible or suffering from any
adaptive deficits at the time he interviewed him. In fact, Detective Falcon testified that Mr.
Rodriguez was “as cunning as anybody I’ve ever met.” (Id. at 17).

80

94a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 81 of 114

The State’s final witness was Dr. Enrique Suarez. (Id. at 19). Dr. Suarez is a psychologist
licensed in the State of Florida. Dr. Suarez received his Master’s degree and PhD from Baylor
University. Dr. Suarez testified that he had done “hundreds” of mental retardation assessments
in the forensic area. (Id. at 22). Dr. Suarez testified that when he looks at adaptive behavior as
part of his assessment for mental retardation, he considers “the present time frame.” (Id. at 26).
Dr. Suarez testified that he had reviewed the entire record including depositions, department of
corrections records, defense expert reports, police reports, and he conducted an in-person
evaluation of Mr. Rodriguez on death row. The evaluation was conducted in Spanish and was
video-taped. (Id. at 34). Mr. Rodriguez provided Dr. Suarez with factual information regarding
his life prior to him turning age 18. For example, Mr. Rodriguez told Dr. Suarez that he joined
the Merchant Marines in Cuba when he was only 13. Mr. Rodriguez told him that he had
procured a fake identification so that he could enlist as a minor. (Id. at 37-38). While in the
Merchant Marines, he traveled to Africa, Angola, Cape Town, Mexico, Spain and Canada. (Id. at
38). Dr. Suarez testified that Mr. Rodriguez “could write and communicate pretty effectively” in
both English and Spanish. (Id. at 39). Mr. Rodriguez has a pen pal in Holland with whom he
communicates with in English. Mr. Rodriguez completed an adult education program while in
federal prison. ([DE 15-274] at 6). The federal authorities found that Mr. Rodriguez was of
“average intelligence.” (Id. at 9). Dr. Suarez testified that Mr. Rodriguez’s prior employment
history was significant to the assessment of adaptive behavior. Dr. Suarez found his involvement
in drug trafficking to be of similar significance. According to Dr. Suarez, Mr. Rodriguez was a
self-described drug mule who trafficked drugs to various states on the east coast. Dr. Suarez
opined that this level of complexity and involvement showed adaptive behavior not consistent

81

95a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 82 of 114

with mental retardation.
In order to determine Mr. Rodriguez’s intellectual functioning, he administered the Wexler
Adult Intelligence Scale that is normed in Spain. ([DE 12-275] at 1). Mr. Rodriguez tested to be
a full scale score of 60, verbal score of 70, and a non-verbal performance was the 58.3 percentile.
(Id. at 4). Mr. Rodriguez tested very low on the TONI with a score of 63 which is below the
score achieved by a six year old. Dr. Suarez found these results to be “incongruent.” (Id. at 7).
In addition, Dr. Suarez gave a Validity Indicator Profile test. Mr. Rodriguez tested as having an
invalid profile, meaning that there was no correlation because he tested as poorly on items that
could be answered by a five year old and those that were extremely challenging. (Id. at 8). Dr.
Suarez also administered the dot counting test. (Id. at 10). Mr. Rodriguez was found to have not
given “the amount of effort that one sees when someone is in the norm process of that test when
there is no reason to not do a good effort.” (Id. at 12). Dr. Suarez administered the MMPI-II test
which is a test of psychopathology and personality. The test results were “invalid protocol
evaluations over reporting of extreme symptoms.” (Id. at 13). Dr. Suarez concluded that the test
scores showed “competent in IQ level.” (Id. at 15). Dr. Suarez testified that he did not have the
respondents “guess” on the ABAS testing that was completed by the Department of Corrections
staff. Overall, Dr. Suarez concluded that the ABAS results did not support a diagnosis of mental
retardation. Dr. Suarez ultimate conclusion was that within a degree of medical certainty that
Juan David Rodriguez is not mentally retarded. ([DE 15-276] at 17).
On cross examination, Dr. Suarez testified that he would not do a retrospective analysis
unless Mr. Rodriguez met the second prong of the Atkins test, then he would conduct a
retrospective analysis for the purposes of the third prong. ([DE 15-277] at 22). Dr. Suarez also

82

96a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 83 of 114

testified that while the ABAS was not normed using prison guards, Dr. Oakland’s book does
referenced prison and residential centers. However, Dr. Suarez did admit that the test manual
contains an admonition “not to use Corrections Officers on this instrument.” (Id. at 35). Dr.
Suarez testified that he did not rely solely on the ABAS assessments done by corrections staff but
rather considered it as one piece that came from the standardize instrument. During Dr. Suarez’s
testimony, Mr. Rodriguez had an outburst wherein he was removed from the courtroom. ([DE
15-278] at 11).
Shortly thereafter, the State rested its case. The parties submitted written closing
arguments. On December 10, 2010, the trial court entered a thorough and detailed order denying
Mr. Rodriguez’s motion to vacate sentence and for a determination of mental retardation as a bar
to execution. (See [DE 15-240, 15-241, 15-242]). The court found that the results obtained by
Dr. Weinstein on the Mexican WAIS III were “not reliable” and that the results of the WAIS
given by Dr. Suarez was also invalid due to the “Defendant’s malingering.” ([DE 15-242] at 2).
The court concluded that “[t]here are no valid test results to establish that the Defendant’s IQ is
less than 70.” (Id.) However, the court went further and analyzed whether or not Mr. Rodriguez
exhibited adaptive deficits. The court concluded that “there is absolutely no evidence that
Defendant exhibits deficits in his adaptive behavior and that they manifested before the age of
18.” (Id.) Having failed to carry his burden of proving the three elements necessary to establish
that he is mentally retarded, the court denied his motion. On appeal, the Florida Supreme Court
affirmed finding that “there is no evidence that Rodriguez has ever had a reliable IQ score of 70
or below. Furthermore, there is no evidence that Rodriguez exhibits adaptive behavior deficits.”
Rodriguez, 110 So.3d at 441.

83

97a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 84 of 114

In order for Mr. Rodriguez to be granted federal habeas relief, he must show that these
findings of fact resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the state court proceeding and Mr. Rodriguez must
rebut, by clear and convincing evidence, the presumption of correctness given to the state court’s
factual findings. See 28 U.S.C. §§ 2254(d)(2) & (e)(1). He has not done so.
A determination as to whether a person is mentally retarded is a finding of fact. See
Holladay v. Allen, 555 F.3d 1346, 1353 (11th Cir. 2009)(citation omitted). Here, the Florida
Supreme Court found that no valid test results showed that Mr. Rodriguez has an IQ result below
70. The key being a “valid” test result. Dr. Weinstein performed an intelligence test designed
for persons from Mexico. Mr. Rodriguez is from Cuba. Moreover, Dr. Weinstein normed the
test to the version of the WAIS test used in the United States even though Mr. Rodriguez was not
tested using the United States version of the test. Given the facts here, it is not unreasonable for
the state court to have found that Mr. Rodriguez did not produce valid test results to support his
claim. Stated differently, the state habeas court’s denial of Mr. Rodriguez’s mental retardation
claim is not based on an unreasonable determination of the facts given the record that was
presented. See, e.g., Lewis v. Thaler, 701 F.3d 783, 793–95 (5th Cir. 2012). Moreover, even if
the Court were to disagree with this determination that is not enough to grant federal habeas
relief because the standard is much higher. Indeed, Mr. Rodriguez would have to show that no
“reasonable jurist could decide otherwise” based on the facts presented. Based on the testimony
presented, he has failed to meet the burden as required by 28 U.S.C. §2254.
However, even if Mr. Rodriguez had shown significantly subaverage general intellectual
functioning - regardless of the testing score defined by the State of Florida - he must still show

84

98a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 85 of 114

his subaverage intelligence to exist concurrently with deficits in adaptive behavior and
manifested during the period from conception to age 18. On this requirement, the Florida
Supreme Court found that “there is no evidence that Rodriguez exhibits adaptive behavior
deficits.” Rodriguez, 110 So.3d at 441. While this determination gives little information as to
whether or not the Florida Supreme Court rejected testimony which may have shown adaptive
deficits or if the court did not find that any evidence of adaptive deficits was ever presented, it
matters little to the Court’s conclusion. “Where a state court’s decision is unaccompanied by an
explanation, the habeas petitioner’s burden still must be met by showing there was no reasonable
basis for the state court to deny relief.” Richter, 131 S.Ct. at 784. “If this standard is difficult to
meet, that is because it was meant to be.” Id. at 786. Here, there was a multitude of evidence
which showed Mr. Rodriguez’s adaptive behavior both before and after his incarceration. As an
immigrant to the United States, Mr. Rodriguez learned to speak and write in English, he obtained
employment which qualified as more than menial and which required certain skills not consistent
with someone who had even mild mental retardation, he understood the workings of the criminal
justice system including posting bond and offering information to the police in order to receive
more favorable treatment. As a juvenile, Mr. Rodriguez created a false identification so that he
could join the Merchant Marines and travel internationally. During a previous incarceration
within the federal bureau of prisons system, Mr. Rodriguez was accessed by prison staff and
completed an adult education course without comment as to any intellectual or adaptive
deficiencies. Quite the opposite, in that, staff found him to be of normal intelligence. All in all,
there was certainly ample evidence which would support a finding by the Florida Supreme Court
that Mr. Rodriguez had not met his burden of establishing adaptive deficits. The Florida

85

99a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 86 of 114

Supreme Court’s determination is supported by the record and was not an unreasonable decision.
Further, Mr. Rodriguez has not provided clear and convincing evidence to rebut the presumption
this Court is to apply to factual findings of state court. Habeas relief is denied.
Claim V. Evidentiary Hearing
Mr. Rodriguez’s fifth claim for relief requests an evidentiary hearing so that he may
develop the factual basis for a Brady claim and an ineffective assistance of guilt phase counsel
claim. ([DE 1] at 172). Mr. Rodriguez raised these claims in his Rule 3.851 motion. The circuit
court held a Huff hearing.29 The circuit court entered a summary denial of these claims without
an evidentiary hearing. Having not been granted an evidentiary hearing at the state court level,
Mr. Rodriguez seeks an evidentiary hearing here. For the reasons that follow, his request is
denied.
It had long been that in order to be entitled to an evidentiary hearing in federal court, a
habeas petitioner must show a reasonable attempt to pursue an evidentiary hearing in state court
and that his request was refused. Further, such a hearing should assist in the resolution of his
claim. As such, § 2254(e)(2) did not bar a district court from holding an evidentiary hearing.
See Breedlove v. Moore, 279 F.3d 952, 960 (11th Cir. 2002). If a prisoner “alleges facts that, if
true, would entitle him to relief, then the district court should order an evidentiary hearing and
rule on the merits of his claim.” Holmes v. United States, 876 F.2d 1545, 1552 (11th Cir. 1989)
(internal quotations omitted). In 2011, the law changed.

29

Huff v. State, 622 So.2d 982, 983 (Fla.1993) (requiring a hearing upon the filing of a
postconviction motion and answer to determine whether an evidentiary hearing is needed and to
hear argument on legal issues).
86

100a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 87 of 114

In Cullen v. Pinholster, 131 S.Ct. 1388 (2011), the United States Supreme Court held that
federal courts must first determine whether a petitioner satisfies §2254(d) before they may
consider new evidence acquired during a federal hearing. Therefore, the Court must look at the
state court record to determine, considering only the record before the state court, if the state
court’s adjudication “resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established federal law, as determined by the Supreme Court of the United
States,” or “resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the state court proceeding.” 28 U.S.C. § 2254(d)(1)-(2). It is
only if the Court makes such a determination that an evidentiary hearing can be held in federal
court. Then a de novo review of the claim, including the newly presented evidence, can be
conducted. “A federal court must then resolve the claim without the deference AEDPA
otherwise requires.” Panetti v. Quarterman, 551 U.S. 930, 953-54 (2007).
While Mr. Rodriguez’s case differs slightly from Cullen in that no state evidentiary
hearing was ever held, the rationale of the holding in Cullen is equally applicable. Cullen
explicitly states that a district court cannot use evidence presented in federal court for the first
time when making a §2254(d) determination where the state court did not have such evidence
before it. Cullen, 131 S.Ct. at 1399. Accordingly, the Court must first review the record and the
Florida Supreme Court’s decision for reasonableness.30
Mr. Rodriguez argues that he is entitled to an evidentiary hearing to develop the factual

30

In the petition, Mr. Rodriguez does not acknowledge the barrier Cullen created to his
request for an evidentiary hearing in federal court. The Court finds that Cullen is applicable to
Mr. Rodriguez’s request for an evidentiary hearing.
87

101a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 88 of 114

basis for his claim.31 One of the basis for this argument is that he is entitled to a hearing because
his claim was summarily denied in “the Florida state court.” ([DE 1] at 185). This statement is
not entirely accurate. While the trial court summarily denied these claims without hearing, the
Florida Supreme Court, the state’s highest court, reviewed and denied the claims on their merits.
Without doubt, the Court must give AEDPA deference to such a determination.32 “A state court’s
determination that a claim lacks merit precludes federal habeas relief so long as ‘fairminded
jurists could disagree’ on the correctness of the state court's decision.” Harrington, 131 S.Ct. at
786 (quoting Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)).
A. Brady/Giglio claim
Mr. Rodriguez’s first sub-claim is that the State “failed to disclose material exculpatory
evidence in violation of Brady v. Maryland, 373 U.S. 83, 87 (1963) and presented false and/or
misleading evidence in violation of Giglio v. United States, 405 U.S. 150 (1972).” ([DE 1] at
172-73). Specifically, Mr. Rodriguez alleges that the state “knew its theory of Mr. Rodriguez as

31

To the extent that Mr. Rodriguez’s is arguing a freestanding claim for federal habeas
relief based on the denial of an evidentiary hearing in state court, it is not cognizable here. “It is
beyond debate that Petitioner is not entitled to relief on these grounds. We have held the state
court’s failure to hold an evidentiary hearing on a petitioner’s 3.850 motion is not a basis for
federal habeas relief.” Anderson v. Sec’y, Dep’t of Corr., 462, F.3d 1319 (11th Cir. 2006)(citing
Spradley v. Dugger, 825 F.2d 1566, 1568 (11th Cir. 1987); see Carroll v. Sec'y, Dep't of Corr.,
574 F.3d 1354, 1365 (11th Cir.), cert. denied, 130 S.Ct. 500 (2009).
32

Even if the Florida Supreme Court had also summarily denied these claims, Section
2254(d) applies even where there has been a summary denial. See Richter, 562 U.S. at 786. In
these circumstances, Mr. Rodriguez could satisfy the “unreasonable application” prong of §
2254(d)(1) only by showing that “there was no reasonable basis” for the Florida Supreme Court’s
decision. Id. at 784. “[A] habeas court must determine what arguments or theories ... could have
supporte[d] the state court’s decision; and then it must ask whether it is possible fairminded
jurists could disagree that those arguments or theories are inconsistent with the holding in a prior
decision of this Court.” Id. at 786.
88

102a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 89 of 114

the mastermind and principal person responsible for the planning and carrying out of the crime
was both factually inaccurate and misleading.” (Id. at 177). The Florida Supreme Court rejected
Mr. Rodriguez’s argument.
To establish a Brady violation, the defendant must show the following: (1) that
the evidence at issue is favorable to him, either because it is exculpatory or
because it is impeaching; (2) that the evidence was suppressed by the State, either
willfully or inadvertently; and (3) that the suppression resulted in prejudice.
Sochor v. State, 883 So.2d 766, 785 n. 23 (Fla. 2004). Rodriguez has not, and
cannot, demonstrate that the State suppressed the information in question. During
closing argument of the guilt phase, Rodriguez’s trial counsel argued that Tata
was the mastermind behind the crime, had obtained “inside” information about
the victim’s schedule from a former employee of the victim, planned the crime
with Fernandez, and had chosen Rodriguez as a scapegoat. This is the very
information that Rodriguez now alleges the State withheld from him. Thus, the
record refutes Rodriguez’s Brady claim.
Intertwined with the Brady claim, Rodriguez also argues that the State committed
a GiglioFN9 violation by presenting testimony “it knew or should have known was
false” regarding Rodriguez’s role in the crime, including the testimony of Ramon
Fernandez identifying Rodriguez as the shooter. A Giglio violation is established
when a petitioner shows that (1) a witness gave false testimony; (2) the prosecutor
knew the testimony was false; and (3) the statement was material. Sochor, 883
So.2d at 785 n. 23. Rodriguez has not shown that the testimony presented was
actually false or that the prosecutor had any knowledge of allegedly false
testimony. In fact, Fernandez’s testimony was consistent with other witnesses who
testified at trial about Rodriguez’s role in the crime.
FN9. Giglio v. United States, 405 U.S. 150, 92 S.Ct. 763, 31 L.Ed.2d 104
(1972).
Thus, we conclude that the summary denial of Rodriguez’s Brady/Giglio claim
was proper. See Gorby v. State, 819 So.2d 664, 676 (Fla. 2002) (rejecting Brady
and Giglio claims as insufficiently pled or wholly conclusory).
Rodriguez, 919 So.2d at 1269-70. As the Court reviews the decision of the Florida Supreme
Court for reasonableness, it must first determine if the court applied the appropriate legal
standard. Below is the clearly established federal law governing this claim.
Brady v. Maryland, 373 U.S. 83 (1963)
89

103a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 90 of 114

In Brady, the Supreme Court established three criteria a criminal defendant must prove in
order to establish a violation of due process resulting from the prosecution’s withholding of
evidence. Specifically, the defendant alleging a Brady violation must demonstrate: (1) that the
prosecution suppressed evidence, (2) that the evidence suppressed was favorable to the defendant
or exculpatory, and (3) that the evidence suppressed was material. United States v. Severdija,
790 F.2d 1556, 1558 (11th Cir. 1986). Evidence is material “only if there is a reasonable
probability that, had the evidence been disclosed to the defense, the result of the proceeding
would have been different.” United States v. Stewart, 820 F.2d 370, 374 (11th Cir. 1987)
(quoting United States v. Bagley, 473 U.S. 667, 682 (1985)).
Giglio v. United States, 405 U.S. 150 (1972)
Giglio claims are a “species of Brady error” and exist “when the undisclosed evidence
demonstrates that the prosecution’s case included perjured testimony and that the prosecution
knew or should have known of the perjury.” Ventura v. Att’y Gen., 419 F.3d 1269, 1276-77
(11th Cir. 2005). A prosecutor has a duty to disclose evidence of any promise made by the state
to a prosecution witness in exchange for his testimony. See Giglio v. United States, 405 U.S. 150
(1972). This is especially true when the testimony of the witness is essential to the state’s case.
See Haber v. Wainwright, 756 F.2d 1520, 1523 (11th Cir. 1985). To make out a valid Giglio
claim, a petitioner “must establish that (1) the prosecutor knowingly used perjured testimony or
failed to correct what he subsequently learned was false testimony; and (2) such use was material
- i.e., that there is any reasonable likelihood that the false testimony could have affected the
judgment.” Davis v. Terry, 465 F.3d 1249, 1253 (11th Cir. 2006) (per curiam) (quotation marks,
alterations, and citation omitted).

90

104a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 91 of 114

Here, the Florida Supreme Court correctly identified clearly established federal law and
made a reasonable application to the facts. In order to be granted habeas relief, Mr. Rodriguez
must show that the court made an “unreasonable determination of the facts in light of the
evidence presented in the state court proceeding.” 28 U.S.C. § 2254(d)(2). The two principle
factual determinations at issue here that were made by the Florida Supreme Court were: (1)
information was not suppressed and (2) the testimony was not false. The Court considers the
facts that were before the state court.
opening statements
When the trial of Juan David Rodriguez began, the State told the jury about a twenty year
old “kid” named Ramon Fernandez. ([DE 15-20] at 12). Mr. Fernandez was friends with Carlos
Sponsa.33 Mr. Sponsa asked Mr. Fernandez to put up his car as collateral to a bail bondsman for
Mr. Rodriguez. Mr. Fernandez agreed. According to the State, Mr. Fernandez never saw his car
again. (Id.). The State argued that in order for Mr. Rodriguez to get Mr. Fernandez’s car returned
from the bail bondsman, Mr. Rodriguez plotted to rob Abelardo Saladrigas. Mr. Sponsa and Mr.
Fernandez rode with Mr. Rodriguez and waited while he robbed the victim. However, Mr.
Fernandez did not stay in the car; rather, he went to the second floor of the shopping center. At
the time of the murder, Mr. Fernandez was able to see the victim fall after being shot and beg for
his life. Mr. Fernandez was able to clearly identify Mr. Rodriguez as the shooter. (Id. at 17).
The State argued that Mr. Rodriguez may have gotten away with murder had it not been for his
“greed.” (Id. at 18). The State contended that Mr. Rodriguez’s downfall was the robbery which

33

There are portions of the record which lists Carlos Sponsa’s last name as “Ponce.” To
be consistent, the Court will identify him as “Sponsa” in congruence with the Florida Supreme
Court.
91

105a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 92 of 114

occurred the next day. Mr. Rodriguez was said to be the ringleader of a group of younger men all
of whom were going to rob Ralph Leiva. (Id. at 21). However, things did not go as planned and
Mr. Leiva ended up shooting back at the men. According to the State, as they were fleeing the
scene, Mr. Fernandez dropped the gun that Mr. Rodriguez had stolen from Mr. Saladrigas onto
the front lawn of the Leiva’s home. The police eventually traced the gun back to Mr. Saladrigas
and the police located a fingerprint in the stolen car to a George Hernandez. George Hernandez
told the police to speak with Ramon Fernandez. Once the police interviewed Ramon Fernandez,
he confessed as to his role in the robbery and implicated Mr. Rodriguez as the shooter. (Id. at
23). The State informed the jury that Mr. Fernandez confessed before any “deals are made with
the police.” (Id.).
The facts alleged in the defense’s opening statement is unknown. It was never transcribed
was not part of the record considered by the state courts.34 (DE 33] at 1).
trial testimony
During the State’s case, twenty-one witnesses testified. One of those witnesses was
Ramon Fernandez. [DE 31-1]. Mr. Fernandez was with Mr. Rodriguez on the night of the
murder of Abelardo Saladrigas. Mr. Fernandez was also a participant in the failed robbery
attempt of Ralph Leiva along with Mr. Rodriguez. This testimony was consistent with the

34

When reviewing the state court transcripts, it was apparent that the opening statement
was not located chronologically in the record. As it was unclear as to whether the statement was
transcribed but located elsewhere else in the record or if the transcription did not exist, the Court
ordered the State to “produce a transcript of defense counsel’s opening argument. If no transcript
is produced, the State of Florida must certify that an exhaustive search was undertaken but it has
been unable to locate the transcript.” ([DE 32] at 2). The State responded that “it does not have a
copy of the transcript of Petitioner’s counsel’s opening statement at the guilt phase” and that
“[t]he opening statement was never made a part of the state court record.” ([DE 33] at 2-3).
92

106a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 93 of 114

State’s opening statement to the jury. Mr. Fernandez’s trial testimony is the subject of the instant
Brady/Giglio claim.
At trial, Mr. Fernandez testified that he was introduced to Mr. Rodriguez by a mutual
friend. ([DE 31-1]). Mr. Fernandez allowed Mr. Rodriguez to put his car up as collateral with a
bail bondsman. In fact, Mr. Fernandez and Mr. Rodriguez were first introduced to each other at
the bail bondsman’s office. Mr. Rodriguez was supposed to return within two hours, give the
bondsman cash, and Mr. Fernandez’s car would be returned. However, Mr. Rodriguez never
returned. Mr. Fernandez never saw his car again. Mr. Fernandez testified that, on the night of
the murder, he had ridden to the Central Auto Parts Shopping Center with Mr. Sponsa. When
they arrived, Mr. Sponsa told Mr. Fernandez that Mr. Rodriguez was going to rob a store owner
for the cash needed to pay the bondsman so that Mr. Fernandez would have his car returned. (Id.
at 145). Mr. Fernandez waited in the car with Mr. Sponsa while Mr. Rodriguez went to rob the
store owner. At a certain point, Mr. Fernandez got out of the car and walked to the second floor
of the shopping center. It was there that he heard shots fired. Mr. Fernandez then exited the
stairs and saw Mr. Rodriguez running behind Mr. Saladrigas yelling for him to give up his Rolex
watch. (Id. at 151). When Mr. Saladrigas was being chased, Mr. Rodriguez had a briefcase and a
gun in his hands. Mr. Fernandez testified that he saw Mr. Rodriguez shoot Mr. Saladrigas and
then steal his watch. Mr. Rodriguez and Mr. Fernandez both ran and drove away in Mr.
Rodriguez’s car.
The following day, Mr. Fernandez met up with Mr. Rodriguez and several others at a local
cafeteria. Another robbery was planned. Mr. Fernandez testified that Mr. Rodriguez and Mr.
Sponsa were the two who orchestrated the robbery. (Id. at 174). The robbery did not go as

93

107a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 94 of 114

planned and, eventually, Mr. Fernandez was arrested by police on June 3, 1988. Mr. Fernandez
testified that at the time of his arrest, the police “did not make [him] any deals or promises.” (Id.
at 184). Mr. Fernandez testified that he confessed his involvement in the murder and attempted
robbery to the police without any promises or deals. Mr. Fernandez further testified that he was
not threatened “in any way to make [him] confess to something [he] did not do.” ([DE 15-22] at
5). Mr. Fernandez later testified that he had entered into an agreement to testify truthfully and
that the State would recommend a sentence of seventeen to twenty-seven years to the sentencing
judge. (Id.). Mr. Fernandez testified that prior to making the plea agreement, he had told several
lies to the police. Mr. Fernandez corrected those falsehoods once he entered into the plea
agreement. Primarily, the lies that Mr. Fernandez told concerned his level of involvement or facts
that he made up to protect his friends who were also involved in the attempted robbery. (Id. at 9).
On cross-examination, Mr. Fernandez admitted to having lied in his deposition, which was
taken after he had entered into the plea agreement. One specific area of testimony which was
relevant was that Mr. Fernandez testified in deposition that it was Mr. Sponsa’s idea to rob Mr.
Leiva. Mr. Fernandez did not testify that it was also Mr. Rodriguez’s idea to commit the robbery
until trial. However, at trial, Mr. Fernandez was adamant that it was both Mr. Sponsa and Mr.
Rodriguez’s idea to rob Mr. Leiva. The two knew that drugs and money were present in the
home. Mr. Fernandez’s testimony that Mr. Rodriguez was the shooter of Mr. Saladrigas has not
changed over time and was consistent from the time he was arrested until trial.
Further, Jose Arzola, a former employee of Mr. Saladrigas identified Mr. Rodriguez as the
person who came to the auto parts store just before it had closed on the night Mr. Saladrigas was
murdered. ([DE 15-22] at 83). Mr. Arzola picked Mr. Rodriguez out of a line-up at the Dade

94

108a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 95 of 114

County jail. Mr. Arzola testified at trial that Mr. Rodriguez was the person he saw and spoke
with at the auto parts store the day of the murder. (Id. at 99).
The State also presented the testimony of Sergio Valdez. ([DE 15-24] at 36). Mr. Valdez
was also present during the robbery of Mr. Leiva. Mr. Valdez testified that he first met Mr.
Rodriguez the night that Mr. Saladrigas was murdered. At that time, Mr. Rodriguez and Mr.
Sponsa came over to discuss a robbery they were planning for the next day. Mr. Valdez, along
with three other friends, discussed going to stake out the house beforehand with Mr. Sponsa and
Mr. Rodriguez. Mr. Rodriguez told everyone where and what time to meet the next day. (Id. at
48-49). At the meeting point, Mr. Rodriguez told everyone which car to ride in when they left
for the Leiva home. Further, Mr. Rodriguez told Mr. Valdez that his role was to tie up the
occupants of the home. Mr. Valdez also testified that on the drive to the Leiva home, Mr.
Rodriguez confessed to having “done a job the day before, and that he had stolen a thousand
dollars and a Rolex watch.” (Id. at 54). Mr. Rodriguez said he had shot “an elder person.” (Id. at
54). Mr. Valdez was arrested on June 9, 1988. At that time, the police made no promises to Mr.
Valdez nor did they threaten him. Mr. Valdez made a full confession and served fifteen months
in jail prior to his testifying at Mr. Rodriguez’s trial.
Next, Francisco Reyes testified. ([DE 15-25] at 110). Mr. Reyes was incarcerated at the
same time as Mr. Rodriguez and Mr. Fernandez. Mr. Reyes testified that while Mr. Rodriguez
did not specifically confess to the murder of Abelardo Saladrigas, Mr. Rodriguez had told him
that if he “could get rid of Ramon Fernandez, they would never know he [Mr. Rodriguez] was
the one that killed or murdered.” (Id. at 117). Mr. Reyes also testified that Mr. Rodriguez had
offered him “$3000, if I would speak to his lawyer over the phone and say that Ramon had told

95

109a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 96 of 114

me that he was the one that committed the crime.” (Id. at 119). Mr. Reyes testified that he was
not promised anything, including reduced jail time, for his testimony.
The State called Detective Frank Castillo to testify. ([DE 15-23] at 102). Detective
Castillo is a homicide detective with the City of Miami Police Department. (Id. at 103).
Detective Castillo was the first police officer to interview Mr. Fernandez when he was arrested.
Without the promise of any plea deal or reduced sentence, Mr. Fernandez inculpated himself in
the murder of Mr. Saladrigas and the home invasion of the Leiva home. Detective Castillo
testified that Mr. Fernandez described, in detail, the events that occurred during the murder of
Mr. Saladrigas. (Id. at 118-19). Mr. Fernandez had identified Mr. Rodriguez as the shooter. It
was not until after Mr. Fernandez was arrested and charged that he was offered a reduced
sentence in exchange for his testimony.
closing arguments
During closing argument, defense counsel argued to the jury that because Ramon
Fernandez dropped Mr. Saladrigas’ gun on Mr. Leiva’s lawn, he knew that the police would
eventually find him. Mr. Fernandez knew he would be facing the electric chair so he “got
together with his teenage buddies and they decided they were going to pin everything on Juan
David Rodriguez.” ([DE 15-30] at 74). Indeed, counsel argued that “[t]his man has been selected
by this little gang of teenagers, including [Carlos Sponsa] who was never arrested, as their
scapegoat.” Moreover, counsel argued that Mr. Fernandez had a motive to lie because he wanted
Mr. Rodriguez to take “the rap for an entire gang of teenagers.” (Id. at 78).
Here, Mr. Rodriguez argues that the State failed to disclose material exculpatory evidence
in violation of Brady v. Maryland and presented false and/or misleading evidence in violation of

96

110a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 97 of 114

Giglio v. United States. (See [DE 1] at 173). In support of these arguments, Mr. Rodriguez
asserts that the State “failed to disclose evidence” and that the State “knew or should have
known” that testimony given by its witnesses “was patently false.” Yet, Mr. Rodriguez does not
assert a factual basis for these assertions other than he believes that he was not the “mastermind”
or “principal person” behind these crimes; rather, it was Mr. Sponsa. (See [DE 1] at 177). The
only factual support for this assertion in his federal habeas petition is an argument made by
postconviction counsel during the Huff hearing. (See id. at 178). Counsel’s argument was
equally as vague as the allegations made in the instant petition. Essentially, counsel told the
court that Mr. Fernandez “would testify at an evidentiary hearing that what he testified to in front
of the jury is not what happened and Mr. Fernandez is probably the most important witness in the
trial.” ([DE 15-80] at 63). Counsel concluded his argument by stating that “we haven’t been able
to fully plead this because we don’t have all the records.” (Id. at 368).
Here, Mr. Rodriguez asserts that the Florida Supreme Court erred because his assertions
were not “merely a rendition of the same information argued by defense counsel at trial.” ([DE 1]
at 180). However, the record reflects, that defense counsel argued to the jury in closing argument
that Ramon Fernandez and Carlos Sponsa killed Abelardo Saladrigas. ([DE 15-30] at 70).
Counsel asserted that because Mr. Fernandez dropped Mr. Saladrigas’ gun on the front lawn of
Mr. Leiva’s house during the home invasion robbery, he knew he would be discovered as a
participant in the crimes. Therefore, he already planned what he would say when Detective
Castillo interviewed him knowing that he would be facing the electric chair. (Id. at 72). “The
boy knows he is looking at the electric chair. He knows his days are numbered because he
dropped the gun.” (Id. at 73). Defense counsel alleged that “Ramon Fernandez got together with

97

111a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 98 of 114

his teenage buddies and they decided they were going to pin everything on Juan David
Rodriguez.” (Id. at 74).
Now, Mr. Rodriguez argues the information that Mr. Fernandez testified to was critical in
several respects. ([DE 1] at 180). Mr. Rodriguez asserts that Mr. Fernandez was “ coerced by
state agents” and “was being pressured to testify consistent with the State’s theory of the crime.”
([DE 1] at 180.). Mr. Rodriguez has not offered any evidence to support these statements.
Even accepting those allegations as true, the Florida Supreme Court found that because
“defense counsel argued that [Carlos Sponsa] was the mastermind behind the crime” and because
“Fernandez’s testimony was consistent with other witnesses who testified at trial about
Rodriguez’s role in the crime” the summary denial of “Rodriguez’s Brady/Giglio claim was
proper.” Rodriguez, 919 So.2d at 1270.

The Court does not find this determination to be

unreasonable.
In order to establish a Brady violation, Mr. Rodriguez must establish that the evidence that
was withheld was material. Evidence is material “only if there is a reasonable probability that,
had the evidence been disclosed to the defense, the result of the proceeding would have been
different.” United States v. Stewart, 820 F.2d 370, 374 (11th Cir. 1987). At trial, defense counsel
argued that, in order to avoid a death sentence, Mr. Fernandez lied to the police during his
interrogation and on the stand during trial. Mr. Rodriguez’s current argument that Mr. Fernandez
did so at the urging of the police as opposed to his own self-preservation does not make the
Florida Supreme Court’s determination that information was not suppressed unreasonable.
Moreover, Mr. Fernandez was not the only witness to testify that Mr. Rodriguez was the shooter
in the robbery of Mr. Saladrigas. Therefore, even if Mr. Fernandez had not testified, there was

98

112a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 99 of 114

sufficient evidence to support a guilty verdict absent the “withheld” evidence. Mr. Rodriguez
alleged that Mr. Fernandez was coerced and pressured to testify. Yet, the State also presented the
testimony of Francisco Reyes, Jose Arzola, and Sergio Valdez. These witnesses all inculpated
Mr. Rodriguez in some fashion whether it be by direct or circumstantial evidence. Further,
Detective Castillo testified that Mr. Fernandez freely and voluntarily confessed and made
inculpating statements regarding Mr. Rodriguez.
Therefore, it was not unreasonable for the Florida Supreme Court to have determined that
“Fernandez’s testimony was consistent with other witnesses who testified at trial about
Rodriguez’s role in the crime.” Rodriguez, 919 So.2d at 1270. Under these circumstances, Mr.
Rodriguez can only satisfy the “unreasonable application” prong of § 2254(d)(1) by showing that
“there was no reasonable basis” for the Florida Supreme Court’s decision. Harrington, 131 S.Ct.
at 784. He has not done so. Habeas relief must be denied.
B.

Ineffective Assistance of Counsel at the Guilt Phase

Mr. Rodriguez’s second sub-claim is that his counsel was ineffective for: (I) failing to
investigate and prepare for trial, (ii) failing to request a severance, and (iii) failing to object to an
in-court identification. During the Rule 3.850 postconviction proceedings, the trial court
summarily denied these claims without an evidentiary hearing. Rodriguez, 919 So.2d at 1270.
However, the Florida Supreme Court reviewed and denied the claims on the merits. The Court
reviews each argument below.
I. failure to investigate and prepare for trial
Within this sub-claim, Mr. Rodriguez alleges three specific deficiencies. Mr. Rodriguez
contends that counsel “failed to list Jose Montalvo as a witness and procure his appearance at

99

113a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 100 of 114

trial.” ([DE 1] at 184). Second, he contends that counsel “failed to refute the State’s theory that
Mr. Rodriguez planned the crime.” (Id.). Finally, he asserts that counsel “failed to discuss the
plea agreement with Mr. Rodriguez prior to trial.” (Id.). The Florida Supreme Court found that
Mr. Rodriguez either failed to show deficiency and prejudice or the claims were disputed by the
record and meritless. The Court does not find that the Florida Supreme Court’s determination
was unreasonable.
Jose Montalvo
Jose Montalvo worked in a cafeteria in the same shopping center complex as Mr.
Saladrigas. When Mr. Montalvo heard gun shots on the night of the murder, Mr. Montalvo ran
to aide Mr. Saladrigas. Mr. Montalvo testified during deposition that when he spoke to Mr.
Saladrigas, he told Mr. Montalvo that he was shot by “a little fat one.” ([DE 15-27] at 18). This
testimony was contradictory to the testimony of the detective who testified that Mr. Saladrigas
described his assailant as “tall and thin.” (Id. at 15). At the time of trial, despite being under
subpoena, Mr. Montalvo left the United States and went to Honduras. When defense counsel
sought to introduce his deposition testimony into evidence, the State objected arguing that his
deposition testimony was hearsay and that defense counsel had failed to list Mr. Montalvo on
their witness list. The court agreed. Defense counsel was not permitted to admit Mr. Montalvo’s
testimony into the record. Here, Mr. Rodriguez asserts that this failure prejudiced him at trial.
The Florida Supreme Court found no prejudice.
In his deposition testimony to defense counsel over a year after the shooting,
Montalvo testified that the victim described his shooter as little and fat, adjectives
which are not descriptive of Rodriguez who is tall and thin. Rodriguez asserts that
Montalvo's testimony would have contradicted that of a police officer who
testified that the victim described his assailant as tall and thin. Rodriguez contends
that trial counsel was unable to present Montalvo's testimony at trial because
100

114a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 101 of 114

counsel failed to list Montalvo as a witness as required by Florida Rule of
Criminal Procedure 3.220(d)(1)(A). While it is true that trial counsel failed to list
Montalvo as a trial witness, this failure in and of itself does not mean that
Montalvo would have been excluded from testifying at trial had he been present.
See Tomengo v. State, 864 So.2d 525, 529 (Fla. 5th DCA 2004) (“Excluding a
defense witness because the defense failed to disclose the witness, or to timely
disclose the witness, is a ‘severe sanction’ that ‘should be a last resort reserved for
extreme or aggravated circumstances.’ ”) (quoting Livigni v. State, 725 So.2d
1150, 1151 (Fla. 2d DCA 1998)). Counsel did subpoena Montalvo and attempted
to procure his testimony for trial. Montalvo left town before being called to testify
and could not be located despite counsel’s efforts to do so. Finally, even if
counsel’s performance was deficient in this regard, Rodriguez cannot show
prejudice. Montalvo gave contradictory accounts to the police and prosecutor
shortly after the crime, stating that the victim gave him no description of his
assailants. Additionally, even if Montalvo had testified at trial and had testified
consistent with his deposition statement, his testimony would have been
contradicted by a number of witnesses who either described the shooter as tall and
thin or identified Rodriguez as the assailant and contradicted by Rodriguez’s own
admissions about committing the crime.
Rodriguez, 919 So.2d at 1270-71. Mr. Rodriguez argues that the Florida Supreme Court
employed a prejudice analysis which “runs afoul of clearly established federal law.” ([DE 1] at
189). Specifically, Mr. Rodriguez asserts that the court erroneously considered credibility which
“is a matter strictly within the province of a jury” and that the court should have speculated on
the effect that the testimony would have had on the jury and “not to discount it to irrelevance
because it may have contradicted other testimony provided at trial.” (Id.).35
To show prejudice, Mr. Rodriguez would need to establish that his counsel’s conduct
rendered his trial “fundamentally unfair.” Devier v. Zant, 3 F.3d 1445, 1451 (11th Cir. 1993);

35

Mr. Rodriguez also contends that the Florida Supreme Court erred in concluding that
counsel’s performance was not deficient. However, because the Court does not find the court’s
prejudice analysis unreasonable, it need not consider deficiency. See Hall v. Head, 310 F.3d 683,
699 (11th Cir. 2002) ( “[A]lthough there is evidence in the record to support the district court’s
finding of deficient performance, we need not and do not ‘reach the performance prong of the
ineffective assistance test [because we are] convinced that the prejudice prong cannot be
satisfied.’”).
101

115a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 102 of 114

Strickland, 466 U.S. at 694. Prejudice exists if ‘‘there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.”
Rompilla v. Beard, 545 U.S. 374, 390 (2005) (citations omitted). Mr. Rodriguez failed to show a
reasonable probability that the result of his trial would have been different had his counsel called
Mr. Montalvo to testify.
Even if counsel did procure Mr. Montalvo to testify during the guilt phase, at best, he
would have offered testimony which differed from the State’s witnesses regarding Mr.
Saladrigas’ identification of his assailant. The Florida Supreme Court took that fact into account
when it determined that Mr. Rodriguez was not prejudiced. This analysis was not an
unreasonable application of clearly established law. Indeed, the court is required to consider all
the testimony (including the testimony which was not presented due to counsel’s deficiency) and
determine whether there was a reasonable probability that the result of the proceeding would
have been different. The Florida Supreme Court considered all of the testimony and found it to
be conflicting. This was neither an unreasonable application of federal law nor was it an
unreasonable determination of the facts. Habeas relief is denied as to this sub-claim.
Refute the State’s Theory
Mr. Rodriguez’s second argument is that his counsel’s performance was deficient for
failing to refute the State’s theory that Mr. Rodriguez planned the crime. ([DE 1] at 184). Mr.
Rodriguez asserted this sub-claim on appeal from the denial of his Rule 3.850 motion. The
Florida Supreme Court found the argument to be without merit.
Rodriguez also claims trial counsel was ineffective for failing to refute the State’s
theory that Rodriguez planned the crime. However, trial counsel aggressively
cross-examined the State’s witnesses, pointed out inconsistencies in prior
statements made by key witness Fernandez, and emphasized Fernandez's plea
102

116a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 103 of 114

agreement with the State. During closing argument, counsel also argued that
Rodriguez had nothing to do with this crime and that Tata and Fernandez were the
true perpetrators. Thus, trial counsel vigorously litigated these issues and his
performance was not deficient in this regard. Rodriguez’s real claim appears to be
that counsel did not prevail on this defense at trial. This does not constitute
ineffective assistance and relief was properly denied. See Teffeteller v. Dugger,
734 So.2d 1009, 1020 (Fla.1999).
Rodriguez, 919 So.2d at 1271. In his federal habeas petition, Mr. Rodriguez made only a passing
reference to this assertion in the overall summary of his claim. (See [DE 1] at 184). In the
substantive argument portion of the petition, Mr. Rodriguez did not assert this as a basis for
federal habeas relief. Instead, he limited his sub-claims to “failure to procure witness Montalvo”
and “failure to discuss plea agreement.” ([DE 1] at 184-190). Therefore, this argument has been
abandoned and is waived. See Cole v. Att’y Gen., 712 F.3d 517 (11th Cir. 2013).
Plea Offer
Mr. Rodriguez’s third argument for federal habeas relief is that his counsel failed to
“effectively” relay the terms of a plea offer to Mr. Rodriguez. ([DE 1] at 193). Mr. Rodriguez
also asserts that counsel “abdicated his duty to the State and literally left Mr. Rodriguez without
effective assistance while listening to the State’s rendition of the plea.” (Id.). Mr. Rodriguez
acknowledges that he was made aware of the plea offer but asserts that because this “all occurred
within a two hour window” and must be taken in the context of his “limited cognitive
functioning, his limited education, possible language barriers, and additional mental health issues
which have been pled throughout his postconviction appeals.” Therefore, he did not fully
understand the “implications of rejecting the offer and proceeding to trial.” (Id. at 195). The
record reflects a different set of facts.
On the day before trial, the State announced that it had conveyed a plea offer to defense

103

117a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 104 of 114

counsel which would be resolved with a “plea to second-degree murder, life-imprisonment with a
three year minimum mandatory” with the sentence to run concurrent with any sentence given for
several pending probation violations ([DE 15-18] at 6). The court then asked defense counsel if
he wanted to talk with Mr. Rodriguez. Counsel advised the court that “Your honor, I have
communicated that plea offer to Mr. Rodriguez just two hours ago. It is the first time that the plea
offer has been made to me.” (Id. at 7). Counsel then stated that “Mr. Rodriguez just told me that
he would refuse that plea.” (Id.) Counsel further remarked that “[h]e is listening to Mr.
Kastrenakis as far as the content of the plea. Perhaps he has something else to say.” (Id.) At
which point, Mr. Rodriguez advised the court that he refused the plea offer “because I did not kill
him and I want them to condemn the one that did the killing, and they know I didn’t do it.” (Id. at
8). In turn, the court advised that “[a]ll I want you to know is that you are playing with your
life.” Mr. Rodriguez responded “[e]xactly.” (Id.)
Based on this record, the Florida Supreme Court found the claim to be without merit.
Rodriguez’s claim that trial counsel did not discuss the plea agreement with him is
also refuted by the record. The State informed the trial court about its plea offer
and trial counsel indicated that Rodriguez had refused the offer. When questioned
by the court, Rodriguez stated that he had refused the plea because he did not
commit the crime. Additionally, Dr. Haber’s deposition testimony specifically
notes his discussion with Rodriguez about the proffered agreement. Rodriguez
told Dr. Haber that he had discussed the plea offer with his attorney, but refused it
because he did not commit the crime and would rather be dead than go to prison.
Thus, this claim is without merit and was properly denied.
Rodriguez, 919 So.2d at 1271. Mr. Rodriguez’s claim is not that counsel failed to discuss the
plea agreement with him. Rather, his claim is that counsel failed to “effectively” discuss the plea
offer. Nonetheless, it does not change the result here. The Florida Supreme Court reasonably
determined that the claim was without merit because Mr. Rodriguez clearly stated that he would

104

118a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 105 of 114

not accept a plea offer because he did not commit the crime for which he was accused. This
determination was reasonable and factually supported by the record. Habeas relief is denied.
ii. failure to request a severance
Mr. Rodriguez next claims that counsel was ineffective for failing to request a severance.
([DE 1] at 195). Mr. Rodriguez was initially charged with five counts related to the home
invasion of the Leiva family. Mr. Rodriguez was also charged with the first degree murder of
Abelardo Saladrigas. Mr. Rodriguez asserts that his counsel was constitutionally ineffective for
failing to seek severance of the home invasion charges from the first degree murder charges.
([DE 1] at 196). Had counsel done so, Mr. Rodriguez asserts, “that would have drastically
altered [the] outcome of this case.” (Id.). Mr. Rodriguez argues that he was prejudiced by his
counsel’s failure because joinder of the offenses resulted in “evidence from each crime”
bolstering the proof of the other and “by relying upon evidence from both separate criminal
events, the State was able to tip the scales in its favor in front of the jury to argue that Mr.
Rodriguez was guilty of both crimes.” (Id. at 203). The Florida Supreme Court found otherwise.
Rodriguez also claims ineffectiveness based on counsel’s failure to request a
severance of the homicide charges from the charges related to the home invasion
robbery and shooting. Rodriguez alleges that the jury was contaminated by the
consideration of the home invasion evidence. Florida Rule of Criminal Procedure
3.150(a) provides for the joinder of offenses when the offenses are “based on the
same act or transaction or on [two] or more connected acts or transactions.” The
offenses here were interconnected. Rodriguez used the gun taken from the murder
victim during the home invasion the next day. In fact, the gun was recovered from
that scene. The two crimes involved common participants. On the way to the
home invasion, Rodriguez admitted his involvement in the events of the previous
day and told his companion that the Rolex watch on his arm had been stolen from
the victim at the auto parts store. The crimes were also part of a common scheme
to obtain money so that Rodriguez could pay money he owed to a bondsman. The
two crimes were also connected by temporal and geographic proximity. Thus,
even if counsel had requested a severance of the crimes, he was not likely to
prevail. See Livingston v. State, 565 So.2d 1288, 1290 (Fla.1990) (finding no error
105

119a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 106 of 114

in consolidating burglary and murder-robbery charges in same trial because the
crimes were connected in “an episodic sense because they occurred only hours
apart in the same small town and because the pistol stolen in the burglary became
the instrument for effecting the armed robbery and murder”). Therefore, this claim
is without merit and was properly denied.
Rodriguez, 919 So.2d at 1271-72. The Florida Supreme Court considered whether or not
counsel’s performance was deficient by analyzing state law. Therefore, this Court’s
determination of whether or not counsel’s performance was deficient as required by Strickland
will be based on the presumption that the state court’s decision on whether or not counsel should
have objected to joinder or argued for severance pursuant to state law is correct. It is not this
Court’s role to re-examine the underlying merits claim applying state law. Estelle v. McGuire,
502 U.S. 62, 67–68 (1991) (reiterating that “it is not the province of a federal habeas court to reexamine state-court determinations on state-law questions”).
While a failure to sever could amount to a due process violation, Mr. Rodriguez has made
no such argument. Instead, he argues that his counsel’s failure to request a severance constituted
ineffective assistance of counsel - not because of any federal constitutional right - but because
any such request would have been granted pursuant to state law. This does not raise a cognizable
federal habeas claim. See § 2254(a) (“[A] district court shall entertain an application for a writ of
habeas corpus in behalf of a person in custody pursuant to the judgment of a State court only on
the ground that he is in custody in violation of the Constitutional or laws or treaties of the United
States.” Therefore, the Court does not consider the actual merits of the underlying claim.
The Court’s role is to only consider whether or not the Florida Supreme Court’s resolution
of the ineffective assistance of counsel claim pursuant to the Sixth Amendment was an
unreasonable application of clearly established law. It was not. Having found that if counsel had

106

120a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 107 of 114

asked for a severance, Mr. Rodriguez would not have prevailed precludes a finding of deficiency
pursuant to Strickland. This is consistent with federal law. It is axiomatic that counsel cannot
be deficient for raising a non-meritorious objection. Owen v. Sec’y for Dep’t of Corr., 568 F.3d
894, 915 (11th Cir. 2009) (“As the underlying claim lacks merit, [] counsel cannot be deficient
for failing to raise it.”). Habeas relief is denied.
iii. failure to object to in court identification
Mr. Rodriguez’s final argument is that his attorney failed to object when the State called
Mr. Saladrigas’ sister-in-law, Lupe Saladrigas, to identify Mr. Saladrigas’ photograph on his
driver’s license. ([DE 1] at 205). Mr. Rodriguez argues that counsel’s “failure to provide a
specific contemporaneous objection to the introduction of the improper identification testimony
was deficient performance that fell below acceptable standards for counsel at a capital trial.”36
(Id. at 210). Further, Mr. Rodriguez argues that he was prejudiced because the “jury[] heard
testimony designed to inflame them and evoke sympathy for the victim and his family.” (Id.).
The Florida Supreme Court disagreed.
Rodriguez also complains that counsel should have objected when the deceased
victim’s sister-in-law was permitted to give identification testimony. As a general
rule, members of a victim’s family should not identify a victim at trial where
nonrelated, credible witnesses are available to make such identification. See Welty
v. State, 402 So.2d 1159 (Fla.1981). This rule prevents the interjection of matters

36

Mr. Rodriguez’s assertion is misleading. The record shows that counsel objected when
the driver’s license was shown to Mrs. Saladrigas for identification based on relevancy grounds.
([DE 15-20] at 85). The objection was overruled. When the State sought to move Mr.
Saladrigas’ driver’s license into evidence, counsel again objected. (Id. at 86). The objection was
again overruled. Therefore, to title this claim as one for a “failure to object” is inaccurate.
Rather, Mr. Rodriguez’s claim is that counsel failed to make a proper objection pursuant to “the
well-established provision in Florida prohibiting a member of the deceased victim’s family from
testifying for purposes of identifying the victim where other non-related, credible witnesses are
available.” ([DE 1] at 206).
107

121a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 108 of 114

not germane to the issue of guilt and ensures that the sympathy of the jury is not
evoked by the emotional testimony of a family member. Id. However, the
sister-in-law’s testimony related to matters beyond identification of the victim,
including identification of property on the victim’s person at the time of the
shooting and a recounting of the victim’s statements to her immediately after he
was shot. Therefore, counsel was not deficient in failing to object to this
testimony. See Mills v. State, 462 So.2d 1075, 1079 (Fla.1985) (finding no error in
allowing victim's father to testify to identify stolen property). Furthermore, the
record does not indicate that this testimony had the underlying purpose of gaining
the sympathy of the jury or of prejudicing it against Rodriguez. Id. Thus, the claim
was properly denied by the trial court.
Rodriguez, 919 So.2d at 1272. Mr. Rodriguez argues that this determination “is an unreasonable
determination of facts in light of the record.” ([DE 1] at 209). However, the record supports the
court’s factual determination that Mrs. Saladrigas testified to information other than the
identification and the Court must give it deference. State court findings of fact, as opposed to
mixed determinations of law and fact, are subject to the presumption of correctness; the
petitioner may only rebut this presumption with “clear and convincing evidence.” 28 U.S.C. §
2254(e)(1). This presumption of correctness applies equally to factual determinations made by
state trial and appellate courts; it is applicable to both explicit and implicit factual
determinations. Marshall v. Loneberger, 459 U.S. 422 (1983); Cunningham v. Zant, 928 F.2d
1006 (11th Cir. 1991); Bui v. Haley, 321 F.3d 1304, 1312 (11th Cir. 2003). Mr. Rodriguez has
not provided any clear and convincing evidence to rebut the Florida Supreme Court’s findings.
Moreover, similar to his prior claim for habeas relief, this claim also relies on a state court’s
determination of state law. State courts are the arbiters of state law. See Estelle v. McGuire, 502
U.S. 62 (1991).
Nonetheless, the Court has reviewed the testimony and does not find the Florida Supreme
Court’s interpretation to be an unreasonable determination of facts. At trial, Mrs. Saladrigas

108

122a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 109 of 114

testified that she had seen the victim wearing the same Rolex watch that was in the possession of
Mr. Rodriguez after the murder. ([DE 15-20] at 80). Mrs. Saladrigas also testified about the
statements made by Mr. Saladrigas after he had been shot but before he died wherein he
identified his assailants as “two mulattos.” (Id. at 89). Mrs. Saladrigas’ testimony was less than
sixteen pages of the transcript. The Court agrees with the Florida Supreme Court that there is no
indication in the record that Mrs. Saladrigas’ testimony was used to garner sympathy from the
jury or prejudice Mr. Rodriguez. As the testimony was not objectionable, trial counsel’s
performance cannot be deemed deficient. “[T]he failure to raise nonmeritorious issues does not
constitute ineffective assistance.” Bolender v. Singletary, 16 F.3d 1547, 1573 (11th Cir. 1994).
Habeas relief must be denied.
Claim VI: Ineffective Assistance of Appellate Counsel
Mr. Rodriguez’s final claim for federal habeas relief is that he was denied effective
assistance of appellate counsel on direct appeal. ([DE 1] at 211). Mr. Rodriguez argues there
were constitutional violations that occurred during his trial which were “‘obvious on the record’
and ‘leaped out upon even a casual reading of the transcript.’” (Id. at 211-12). Mr. Rodriguez
also contends that “[t]he lack of appellate advocacy on [my] behalf is identical to the lack of
advocacy present in other cases in which the Supreme Court of Florida has granted habeas corpus
relief.” (Id.). Mr. Rodriguez summarizes his argument as one where he “was denied his right of
confrontation and a fair and impartial trial.” Specifically, he asserts that “the court erroneously
failed to allow trial counsel to ask questions of the lead detective as to the arrest status of a key
participant, Carlos Sponsa...” (Id. at 213). In conjunction with this argument, Mr. Rodriguez also
asserts that “[a]ppellate counsel was ineffective for failing to ensure that the record on appeal

109

123a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 110 of 114

was complete and that all pretrial proceedings were transcribed for the purposes of the appeal.”
(Id. at 214).37 Mr. Rodriguez first raised this claim in his state habeas corpus proceeding.38 The
Florida Supreme Court rejected his argument.
Rodriguez argues the State improperly painted the picture that he was the
mastermind of the crime and that he was unable to rebut this perception because
trial counsel was not allowed to question Detective Frank Castillo regarding
Carlos “Tata” Sponsa, who allegedly was a principal in the crimes. Rodriguez
also argues that appellate counsel was ineffective for failing to raise this claim on
direct appeal.
At trial, the State explained that it intended to call Detective Castillo as a witness
several times during the trial. Initially, the State explained, it would limit
questioning to prior consistent statements made by coparticipant and key State
witness Ramon Fernandez before he was offered a plea deal by the State. During
this questioning, Detective Castillo also testified that Fernandez named the
defendant Rodriguez and Tata as conspirators and participants in the robbery and
murder. During cross-examination, trial counsel attempted to ask Detective
Castillo whether Tata had been arrested. The State objected to the line of
questioning, arguing that is was beyond the scope of the direct examination, and
the trial judge sustained the objection.

37

The Florida Supreme Court denied this portion of the claim as insufficiently pled.
Rodriguez, 919 So.2d at 1287. (“Rodriguez has not sufficiently pled this claim as he has not
explained what issues he was unable to raise as a result of any missing or inaccurate record.
Thus, Rodriguez is not entitled to relief on this claim.”).
38

Mr. Rodriguez raised the following claims in his petition for a writ of habeas corpus:
(1) appellate counsel was ineffective for failing to raise numerous issues, including improper
prosecutorial argument, improper jury instructions, the unconstitutionality of Florida’s death
penalty statute, the improper admission of opinion testimony, the introduction of gruesome and
misleading photographs, the improper exclusion of testimony regarding [Carlos Sponsa]
non-arrest, and an incomplete record on appeal; (2) the Florida Supreme Court failed to conduct
a meaningful harmless error analysis when considering the effect of improper prosecutorial
argument and inadmissible hearsay testimony in the direct appeal case; and (3) the
constitutionality of the first-degree murder indictment must be revisited in light of the United
States Supreme Court’s decisions in Ring v. Arizona, 536 U.S. 584 (2002), and Apprendi v. New
Jersey, 530 U.S. 466 (2000). Here, Mr. Rodriguez has only raised a claim of ineffective
assistance of appellate counsel regarding the improper exclusion of testimony regarding [Carlos
Sponsa] non-arrest, and an incomplete record on appeal.
110

124a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 111 of 114

While the trial court may have erred by not allowing defense counsel to pursue
this line of questioning during the detective’s initial testimony, any error in this
regard was harmless beyond a reasonable doubt. See State v. DiGuilio, 491 So.2d
1129 (Fla.1986). Later in the State’s case, Detective Castillo was recalled by the
State and testified that Tata had not been arrested despite a search for him by law
enforcement and an outstanding probation violation warrant. On
cross-examination, defense counsel was able to elicit that there was no warrant for
the arrest of Tata for the murder of Saladrigas, despite Tata’s involvement as a
principal in the crime. Further, Detective Castillo could offer no explanation why
a warrant had not been issued for Tata. During closing argument, defense counsel
pointed out Tata’s alleged role in the murder, the lack of an arrest warrant against
him, and his absence from the proceedings. Because Rodriguez would not have
prevailed on this claim on direct appeal, appellate counsel cannot be deemed
ineffective for failing to raise the claim. Freeman, 761 So.2d at 1070-71.
Rodriguez, 919 So.2d at 1286-87. In order for the Court to grant Mr. Rodriguez federal habeas
relief, the Florida Supreme Court’s determination on his ineffective assistance of appellate
counsel claim would have to satisfy the “unreasonable application” prong of § 2254(d)(1) only by
showing that “there was no reasonable basis” for the decision. Harrington, 131 S.Ct. at 784.
After a thorough review of the state court record, Mr. Rodriguez has failed to meet that high
threshold.
In assessing an appellate attorney’s performance, we are mindful that “the Sixth
Amendment does not require appellate advocates to raise every non-frivolous
issue.” Id. at 1130-31. Rather, an effective attorney will weed out weaker
arguments, even though they may have merit. See id. at 1131. In order to establish
prejudice, we must first review the merits of the omitted claim. See id. at 1132.
Counsel’s performance will be deemed prejudicial if we find that “the neglected
claim would have a reasonable probability of success on appeal.” Id.
Philmore v. McNeil, 575 F.3d 1251, 1264-65 (11th Cir. 2009).
In analyzing Mr. Rodriguez’s claim, the Florida Supreme Court presumed that the trial
court erred when it did not allow defense counsel to pursue this line of questioning but found that
“any error in this regard was harmless beyond a reasonable doubt.” Rodriguez, 919 So.2d at
1286-87. The court determined that if the underlying claim would not have been a meritorious
111

125a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 112 of 114

claim because the error was harmless39, appellate counsel cannot be found ineffective for failing
to assert that claim. The record does not support granting Mr. Rodriguez relief.
During the initial cross-examination of Detective Castillo, defense counsel could not
inquire about whether he had ever arrested Carlos Sponsa. ([DE 15-23] at 141). When defense
counsel asked the question, the State objected.
MR. KASTRENAKIS: Objection, Judge. Beyond the scope of my direct examination.
THE COURT: Sustained.
MR. KALISCH: We went over this pretrial, and Your Honor gave me specific permission
to go into it. It’s cross examination.
THE COURT: No, sir. You can’t go into it. Perhaps at another time, limiting you to the
testimony, the specific subject matter of this particular witness.
MR. KALISCH: May I approach the bench?
THE COURT: No. Go ahead.
Sir, I am ordering you to go on with your cross-examination.
(Id. at 142).
However, when the State recalled Detective Castillo to testify, defense counsel was
permitted to inquire about Mr. Sponsa. Specifically, defense counsel asked if Mr. Sponsa was “a
principal in this case” to which the detective responded “yes, he is” ([DE 15-26] at 68). Counsel
also asked, “[t]o this day, Detective Castillo, do you have a warrant out for the arrest of Carlos
Sponsa for the murder of Abelardo Saladrigas?” (Id. at 69). The detective replied, “No, I don’t.”

39

“Florida courts apply the more petitioner-friendly Chapman standard of whether the
constitutional error is “harmless beyond a reasonable doubt.” See Pittman v. State, 90 So.3d 794
(Fla. 2011); Guzman v. State, 868 So.2d 498, 507–08 (Fla. 2003).” Trepal v. Sec’y, Dep’t. of
Corr., 684 F.3d 1088, 1111 (11th Cir. 2012). “The standard Chapman set for harmlessness of
constitutional trial error was whether the reviewing court was “able to declare a belief that [the
error] was harmless beyond a reasonable doubt.” Id. at 1112.
112

126a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 113 of 114

(Id.). The detective also testified that he did not know and could not tell the jury why there was
no warrant out for Carlos Sponsa’s arrest.
During closing argument, defense counsel argued to the jury that “[Carlos Sponsa],
according to Detective Castillo, has never been arrested in connection with this case. As a matter
of fact, they haven’t even [sic] an arrest warrant out for him for the murder of Abelardo
Salidrigas. [sic]” (Id. at 57-58). Counsel further argued that “[Mr. Rodriguez] has been selected
by this little gang of teenagers, including [Carlos Sponsa] who has never been arrested, as their
scapegoat.” (Id. at 78).
Given the record, the Court does not find that the determination of the Florida Supreme
Court to be unreasonable. Defense counsel was able to cross-examine the detective on this issue,
albeit at a later point in the trial. Given the law, the Court does not find the harmless error
analysis unreasonable. As the error was harmless, the Court is unable to find the state court’s
determination on deficiency unreasonable. Here, reasonable professional judgment supports
appellate counsel’s decision to not pursue this claim on direct appeal. Even if the wisdom of
counsel’s decision was questionable, fairminded jurists could disagree about the reasonableness
of this decision. Accordingly, habeas relief must be denied.
VI. CONCLUSION
For all the reasons set forth above, it is:
ORDERED AND ADJUDGED that Juan David Rodriguez’s Petition for Writ of Habeas
Corpus [DE 1] is DENIED. All pending motions are denied as moot. A Certificate of
Appealability is GRANTED as to Claim III and Claim IV:
Whether the district court erred in the de novo determination of Juan David
Rodriguez’s ineffective assistance of penalty phase counsel claim?
113

127a

Case 1:13-cv-24567-JAL Document 35 Entered on FLSD Docket 01/04/2016 Page 114 of 114

and
Whether or not the Florida Supreme Court’s determination of Juan David
Rodriguez’s claim that he is mentally retarded pursuant to Atkins v. Virginia was
an unreasonable determination of facts as required by the AEDPA?
The undersigned is persuaded that Mr. Rodriguez has shown that “jurists of reason could
disagree with the district court’s resolution of his constitutional claim or that jurists could
conclude the issues presented are adequate to deserve encouragement to proceed further.” MillerEl v. Cockrell, 537 U.S. 322, 327 (2003)(citation omitted). The Clerk of the Court is instructed
to CLOSE the case.
DONE AND ORDERED in Chambers at Miami, Florida this 4th day of January, 2016.

____________________________________
JOAN A. LENARD
UNITED STATES DISTRICT JUDGE
Copies to:
Counsel of Record

114

128a

Rodriguez v. State, 219 So.3d 751 (2017)
42 Fla. L. Weekly S483

Gavin, Staff Attorney, Southern Region, Fort Lauderdale,
Florida, for Appellant

219 So.3d 751
Supreme Court of Florida.

Pamela Jo Bondi, Attorney General, Tallahassee, Florida;
and C. Suzanne Bechard, Assistant Attorney General, Tampa,
Florida, for Appellee

Juan David RODRIGUEZ, Appellant,
v.
STATE of Florida, Appellee.

Opinion
PER CURIAM.

No. SC15–1795
|
[April 20, 2017]
Synopsis
Background: After defendant was convicted of first-degree
murder, armed robbery, conspiracy to commit a felony,
attempted armed robbery, armed burglary with an assault,
aggravated assault, and attempted first-degree murder, and
was sentenced to death, 1990 WL 10551261, defendant's
convictions were affirmed by the Supreme Court, 609
So.2d 493, on direct appeal. Defendant subsequently filed
a second successive postconviction relief petition, seeking
vacatur of his death sentence. The Circuit Court, Miami-Dade
County, No. 131988CF018180B000XX, Nushin G. Sayfie, J.,
summarily denied petition. Defendant appealed.

Holdings: The Supreme Court held that:
postconviction court did not make credibility findings that
conflicted with medical standards;
postconviction court sufficiently evaluated manifestation
before age 18 in considering intellectual disability claim; and
evidentiary hearing was not warranted on defendant's
postconviction intellectual disability claim.
Affirmed.
*752 An Appeal from the Circuit Court in and for
Miami–Dade County, Nushin G. Sayfie, Judge—Case No.
131988CF018180B000XX
Attorneys and Law Firms
Neal A. Dupree, Capital Collateral Regional Counsel, Rachel
Day, Assistant Capital Collateral Regional Counsel, and Scott

This case is before this Court on appeal from an order denying
a motion to vacate a sentence of death under Florida Rule of
Criminal Procedure 3.851. We have jurisdiction under article
V, section 3(b)(1), Florida Constitution. For the reasons that
follow, we affirm the judgment and sentence.

FACTS AND PROCEDURAL HISTORY
The instant case is Juan David Rodriguez's second successive
postconviction appeal. “Juan David Rodriguez was convicted
of first-degree murder, armed robbery, conspiracy to commit
a felony, attempted armed robbery, armed burglary with
an assault, aggravated assault, and attempted first-degree
murder.” Rodriguez v. State (Rodriguez I), 609 So.2d
493, 495 (Fla. 1992). Rodriguez's convictions stem from a
shooting at a shopping center on May 13, 1988, and an
attempted home invasion robbery the next day. The facts are
summarized in detail in Rodriguez's direct appeal. Id. at 495–
97. We briefly discuss the facts as they relate to Rodriguez's
postconviction claims.
Seeking to discharge a debt, Rodriguez led Ramon Fernandez
and Carlos “Tata” Sponsa to a shopping center. Id. at 495.
Rodriguez accosted Abelardo Saladrigas in the shopping
center parking lot, shot him, and took his watch and briefcase,
which held cash and a revolver. Id. at 496. Saladrigas died
after hospitalization. Id. Eye-witnesses observed the attack
and the men fleeing in a blue Mazda. Id. at 495.
The next day, Rodriguez joined Fernandez, Sponsa, and
several other men at a residence to stage a home invasion
robbery. Rodriguez v. State (Rodriguez II), 919 So.2d 1252,
1259 (Fla. 2005). On the way to the residence, Rodriguez
told Sergio Valdez about the shooting in the shopping center
parking lot. Id. The owner of the residence averted the home
invasion by firing a gun at the men. Id. Fernandez dropped
the stolen revolver from the previous day as the men ran from
the home. Id. at 1260. When arrested, Fernandez confessed,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

129a

1

Rodriguez v. State, 219 So.3d 751 (2017)
42 Fla. L. Weekly S483

told police about his role in the shopping center shooting,
and described Rodriguez's involvement. Id. Rodriguez was
arrested, charged, and found guilty of all charges. Id.
Prior to the penalty phase, Rodriguez moved for appointment
of a mental health expert to evaluate him for mitigation, and
the trial court granted the motion. Id. at 1270. Dr. Leonard
Haber testified that *753 Rodriguez claimed to have left
school after the first grade to work and that he demonstrated
a lack of effort during Dr. Haber's evaluation. Id. Dr. Haber
found signs that Rodriguez might be brain damaged, but
determined that “the activities in which Rodriguez engaged ...
belied a finding of [intellectual disability].” Id. at 1265.
Dr. Haber suggested further testing, which Dr. Noble David
conducted and which revealed that Rodriguez was normal.
The penalty phase began on March 25, 1990:
Rodriguez was found guilty of all charges which were
tried together. By a vote of twelve to zero the jury
recommended that he be sentenced to death in connection
with the Saladrigas murder. The court followed this
recommendation, finding three aggravating factors: 1)
prior conviction of violent felony; 2) the murder was
committed during a robbery and for financial gain; and 3)
the murder was especially heinous, atrocious, or cruel, and
one nonstatutory mitigating factor: Rodriguez had a good
marriage and family life.
Rodriguez I, 609 So.2d at 497. Rodriguez raised multiple
claims related to his guilt and penalty phases on direct
appeal,1 and this Court affirmed his death sentence. Id. at 501.
Rodriguez filed his initial postconviction motion on
September 12, 1994, and filed amended motions in October
1995, April 1997, and July 1997.2 *754 Rodriguez II, 919
So.2d at 1260. Following a Huff3 hearing, the circuit court
granted an evidentiary hearing on two ineffective assistance
of trial counsel claims relating to his alleged intellectual
disability. Id. at 1260–61. Both Dr. Haber, who evaluated
Rodriguez for trial, and Dr. Latterner, who evaluated
Rodriguez for his postconviction claims, testified at the
hearing. Id. at 1275. Dr. Latterner's evaluation contradicted
Dr. Haber's findings.
Dr. Latterner assessed Rodriguez with an IQ score of 64,
found he was likely to have been born intellectually disabled,
and opined that Rodriguez had difficulty appreciating the
criminality of his actions and conforming his behavior to the
law. Id. at 1265–66. Based on the conflicting expert testimony

and Rodriguez's courtroom behavior, which demonstrated
awareness and understanding of the proceedings, the circuit
court found that while Rodriguez had a low IQ, he was not
intellectually disabled. Id. at 1266. This Court concluded
that because Rodriguez was not intellectually disabled, he
could not establish that any alleged deficiency of trial counsel
prejudiced him for the purposes of his ineffective assistance
of counsel claims. Id. at 1267. This Court also denied
Rodriguez's petition for habeas corpus relief.4 Id. at 1259.
The circuit court summarily denied Rodriguez's first
successive postconviction motion.5 This Court remanded the
summary denial for an evidentiary hearing on Rodriguez's
intellectual disability claim. Rodriguez v. State (Rodriguez
III), 968 So.2d 557 (Fla. 2007) (table). The circuit court held
the evidentiary hearing on January 3, 2011, and subsequently
denied relief. Rodriguez appealed, and this Court determined
that Rodriguez failed to demonstrate adaptive behavior
deficits or a reliable IQ score below 70. Rodriguez v. State
(Rodriguez IV), 2013 WL 462069 (Fla. Feb. 6, 2013).
On December 19, 2013, Rodriguez filed a habeas petition
in the Southern District of Florida, which was ultimately
denied after the Southern District denied a motion to stay
pending the determination of Hall v. Florida, ––– U.S. ––––,
134 S.Ct. 1986, 188 L.Ed.2d 1007 (2014). Order Denying
Petition, *755 Rodriguez v. State, Case No. 13–cv–62567
(S.D. Fla. Jan. 4, 2016). Rodriguez filed a second successive
motion for postconviction relief on May 26, 2015. Rodriguez
claimed that Hall entitled him to further litigate his intellectual
disability claim.
The circuit court conducted a Huff hearing on his intellectual
disability claim at which Rodriguez agreed that he had
presented evidence regarding all the elements of intellectual
disability in prior proceedings. Rodriguez claimed that
he was entitled to a new evidentiary hearing under Hall
because Hall made improper the requirement of concurrent
adaptive deficits to establish intellectual disability. Over the
State's objection, the circuit court allowed Rodriguez to
file a memorandum of law containing additional arguments
following the Huff hearing.
Rodriguez's subsequent memorandum argued that he had
satisfied all pleading requirements of Florida Rule of
Criminal Procedure 3.851 and that evidence from his
prior hearings had been improperly evaluated under Hall.
The circuit court summarily denied the second successive
postconviction motion, finding that Rodriguez's prior

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

130a

2

Rodriguez v. State, 219 So.3d 751 (2017)
42 Fla. L. Weekly S483

evidentiary hearing on intellectual disability and other
proceedings provided him with the full protections afforded
by Atkins and Hall.

ANALYSIS
Rodriguez appealed the circuit court's denial of his Hall claim
on February 19, 2016. Rodriguez also filed in this Court
a motion requesting permission for supplemental briefing
on Hurst v. Florida, ––– U.S. ––––, 136 S.Ct. 616, 193
L.Ed.2d 504 (2016), which was decided January 12, 2016.
This Court allowed the supplemental briefing, and Rodriguez
challenged his death sentence as unconstitutional under Hurst.
We address both Rodriguez's Hall and Hurst claims.

I. Whether Rodriguez is Entitled to Relief under Hall
Rodriguez argues that the circuit court erred in refusing to
grant an evidentiary hearing on his intellectual disability
claim. A circuit court may summarily deny a claim if it
is legally insufficient or positively refuted by the record.
Mann v. State, 112 So.3d 1158, 1161 (Fla. 2013). A decision
on whether to grant an evidentiary hearing for a successive
postconviction motion is a pure question of law reviewed de
novo. Id. at 1162.
This Court has determined that Hall is retroactive under
Witt v. State, 387 So.2d 922 (Fla. 1980). Walls v. State,
41 Fla. L. Weekly S466, S469 (Fla. Oct. 20, 2016). Thus,
we must determine whether Hall requires relief in this case.
Hall established that Florida courts should allow defendants
with IQ scores above 70 to present evidence of the other
prongs of intellectual disability at an evidentiary hearing.
This Court has also interpreted Hall to mean that no single
factor may be dispositive and that “if one of the prongs is
relatively less strong, a finding of intellectual disability may
still be warranted based on the strength of the other prongs.”
Oats v. State, 181 So.3d 457, 467–68 (Fla. 2015). Rodriguez
argues that Hall also requires postconviction courts to make
all determinations, including credibility findings, in a manner
deferential to the standards of the medical community and that
the use of those standards entitles him to a new evidentiary
hearing.
In summarily denying the claim, the circuit court below
considered the entire record and the evidence presented at
Rodriguez's July 20, 2015, Huff hearing. The circuit court

determined that Rodriguez received the full benefit of the
protection provided by Atkins and Hall in prior proceedings.
To determine whether summary denial was appropriate, this
Court must *756 determine whether Hall requires increased
deference to the standards of the medical community. We also
consider whether the record conclusively refutes Rodriguez's
claim that the circuit court below improperly relied upon one
single factor and it was dispositive in violation of Oats and
Hall. Finally, we consider whether Rodriguez is entitled to a
new evidentiary hearing based on the changes in Hall in light
of similar cases.

A. Whether Hall Requires Courts to Make Credibility
Findings in Accordance with Medical Authorities
Rodriguez contends that his prior evidentiary hearing does not
comport with Hall because the circuit court made credibility
findings that conflict with medical standards not in evidence.
Specifically, Rodriguez contends that credibility findings
made by the circuit court contradict medical standards
detailed in a publication of the American Association on
Intellectual and Developmental Disabilities (AAIDD). See
American Association on Intellectual and Developmental
Disabilities, The Death Penalty and Intellectual Disability,
(Edward A. Polloway, ed., 2015). Rodriguez also contends
that Cardona v. State, 185 So.3d 514 (Fla. 2016), supports
his position because it held that a circuit court wrongfully
discarded the opinions of medical experts in evaluating
intellectual disability. Id. at 527. Rodriguez further argues
that he is entitled to a new evidentiary hearing because Jones
v. State, 966 So.2d 319 (Fla. 2007), guided the previous
determination regarding his disability in violation of Hall. We
affirm the summary denial below because Rodriguez's claims
are conclusively refuted by the record. See Mann, 112 So.3d
at 1162.
The language Rodriguez cites in Hall does not stand for
the proposition that credibility findings are improper when
they conflict with medical standards. Instead, the language
justifies the expansion of Florida's definition of intellectual
disability to encompass more individuals than just those
with full-scale IQ scores below 70. See Hall, 134 S.Ct.
at 1993–95. Hall looks to the medical community “[t]o
determine if Florida's cutoff rule is valid,” but does not
change credibility determinations in intellectual disability
proceedings. Id. at 1993. The United States Supreme Court
has clarified that “Hall indicated that being informed by the
medical community does not demand adherence to everything

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

131a

3

Rodriguez v. State, 219 So.3d 751 (2017)
42 Fla. L. Weekly S483

stated in the latest medical guide.” Moore v. Texas, ––– U.S.
6

––––, 137 S.Ct. 1039, 1049, 197 L.E.2d 416 (2017). This
Court does not reweigh evidence or second guess a circuit
court's credibility determinations. Nixon v. State, 2 So.3d 137,
141 (Fla. 2009) (quoting Brown v. State, 959 So.2d 146, 149
(Fla. 2007)).
Even if Hall increases deference to medical standards as
Rodriguez claims, the circuit court in the prior proceeding
weighed the testimony of multiple experts and made its
findings based on competent, substantial evidence. See
Rodriguez IV, 110 So.3d at 441. Dr. Weinstein evaluated
Rodriguez's IQ using the Mexican WAIS–III test and United
States norms and testified that he believed Rodriguez was
intellectually disabled. Dr. Suarez opined that the appropriate
test for a Cuban immigrant like Rodriguez was not the
Mexican WAIS–III but the Spanish version because Cuban
culture more closely aligns with Spanish culture. Dr. Suarez
further opined that the proper way to accommodate Rodriguez
using the Mexican WAIS–III would be to use Mexican
norms to obtain scaled scores and United States norms to
calculate *757 the final score. Dr. Suarez also testified
that according to his tests, Rodriguez was malingering and
that none of his IQ scores below 70 were reliable. Doctors
Tasse and Oakland also offered expert opinions on evaluating
intellectual disability.
The circuit court ultimately found Dr. Suarez's testimony most
credible. The circuit court agreed that the Mexican WAIS–
III test administered by Dr. Weinstein was unreliable because
Rodriguez was not a member of the population with whom the
test is intended to be used. The circuit court also determined
that the IQ scores obtained by Dr. Suarez were unreliable
because of Rodriguez's malingering. The circuit court also
found that Rodriguez had not provided sufficient evidence
to establish adaptive functioning deficits or onset before age
18. This Court does not reweigh evidence or second guess
credibility findings on appeal. See Nixon, 2 So.3d at 141.
Contrary to Rodriguez's claim, the circuit court did not
disregard his IQ scores by simply ignoring expert opinions as
occurred in Cardona, 185 So.3d at 526–27. In Cardona, the
circuit court disregarded tests that experts recommended for
the Spanish-speaking, Cuban defendant based solely on the
translation of tests from English to Spanish. Id. at 525–27. The
circuit court in Cardona followed a rigid interpretation of the
Florida Administrative Code, which permits only “specific
tests ... interpreted by trained personnel in conformance with
the instructions provided by the producer of the test,” rather

than accepting the accommodations the experts “considered
acceptable in the field in order to provide the best estimate
possible as to [the defendant's] IQ, in light of the fact that the
tests available to them were not as reliable in this situation.”
Id. at 526. The trial court in Cardona also failed to perform
“a comprehensive analysis of all three prongs [of intellectual
disability] as set forth in Hall and its progeny.” Id. at 527. The
circuit court's evaluation of Rodriguez's scores in this case
does not suffer from the same errors.
Unlike Cardona, the circuit court in this case did not evaluate
the IQ scores based on a strict reading of the Florida
Administrative Code, but a careful weighing of all the
evidence presented. The circuit court concluded that Dr.
Weinstein's administration of the test was unreliable based on
Dr. Suarez's expert testimony about proper accommodations.
The circuit court found the score Dr. Suarez obtained
unreliable because of Rodriguez's malingering. The circuit
court noted that even if the scores below 70 were reliable,
Rodriguez had not demonstrated adaptive deficits or onset
before age 18. The circuit court also considered all three
prongs of intellectual disability, further distinguishing this
case from Cardona.
Finally, Rodriguez contends that he is entitled to a new
hearing because Jones, 966 So.2d 319, guided the evaluation
of his intellectual disability in a manner contradicting
standard medical practices and, therefore, is in violation of
Hall. In Jones, we rejected the argument that “in determining
whether a person experiences deficits in adaptive functioning,
only the person's childhood behavior is considered,” in
favor of evaluating both long-term and current adaptive
functioning. Id. at 325–27. Medical standards indicate that
experts cannot accurately evaluate adaptive functioning in
a prison setting. See AAIDD, The Death Penalty and
Intellectual Disability, supra, at 189. Rodriguez argues that
to the extent that Jones requires a defendant to exhibit
present deficits in adaptive functioning, Jones encourages
the unreliable practice of evaluating defendants in prison.
Rodriguez asks this Court to find that his prior proceeding
violated *758 Hall to the extent that the circuit court relied
on Jones.
Even if Rodriguez's interpretation of Hall were correct, the
circuit court considered more than just adaptive functioning
testing conducted in prison. The circuit court evaluated longterm evidence, including testimony of Rodriguez's friends
who knew him as a child, Dr. Weinstein's testimony regarding
behavior alleged to demonstrate adaptive functioning deficits

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

132a

4

Rodriguez v. State, 219 So.3d 751 (2017)
42 Fla. L. Weekly S483

and regarding interviews of Rodriguez's friends and family,
and testimony of other experts who either evaluated
Rodriguez or testified to medical standards related to
intellectual disability. While the circuit court followed Jones
in considering IQ alongside present adaptive functioning,
it also considered evidence from family and friends as
Rodriguez argues that the AAIDD and Hall require.

The full scale score of 60 obtained on the WAIS is invalid
according to Dr. Suarez, who administered the test, because
of the Defendant's malingering. There are no valid test
results to establish that the Defendant's IQ is less than 70.
Even if this Court accepts the IQ test results of Dr.
Weinstein and it is assumed that the Defendant's IQ is less
than 70, there is absolutely no evidence that Defendant
exhibits deficits in his adaptive behavior and that they
manifested before the age of 18. Dr. Weinstein testified that
the Defendant leaving the Merchant Marines because he
fell in love is an example of poor judgment. Millions of
men who are not mentally retarded have left the military for
a *759 job, a family and even the love, or perceived love,
of a woman. The fact that he may have acted on impulse
and not reasoning does not render him mentally retarded.

Hall does not change the standards for credibility
determinations in prior proceedings. The record conclusively
refutes Rodriguez's claim because the circuit court made
findings supported by competent, substantial evidence in
prior proceedings. See Mann, 112 So.3d at 1162.

B. Whether One Factor Was Dispositive of Rodriguez's
Intellectual Disability Claim in Violation of Oats
In applying Hall, this Court has held that the test for
intellectual disability must include comprehensive analysis
of all three prongs. See Oats, 181 So.3d at 459, 467 (citing
Brumfield v. Cain, ––– U.S. ––––, 135 S.Ct. 2269, 2278–
82, 192 L.Ed.2d 356 (2015)); Cardona, 185 So.3d at 527.
Rodriguez contends that the circuit court failed to evaluate
all three prongs in tandem after his evidentiary hearing in
the prior proceeding and that this Court did not evaluate
manifestation before age 18 in affirming the circuit court's
decision. We affirm the circuit court's summary denial
because the record conclusively refutes Rodriguez's claim.
See Mann, 112 So.3d at 1162.
The circuit court considered Rodriguez's current IQ and
adaptive deficits based on the experts' tests and testimony.
Dr. Weinstein believed that there was no need to demonstrate
previous adaptive deficits before age 18, and the other experts
disagreed. Rodriguez's friends familiar with him before age
18 testified that he had good hygiene, could care for himself,
and could drive. The circuit court made findings as to
Rodriguez's IQ, adaptive functioning deficits, and age of
onset in its order finding that he is not intellectually disabled:
The court finds that the results obtained from Dr. Weinstein
on the Mexican WAIS III are not reliable. Dr. Weinstein
conceded that IQ tests must be given to a representative
example of the population with whom it is intended to
be used. IQ norming, according to Dr. Suarez, takes into
account a person's culture and level of education. He stated
that if the person is not a member of the population that was
used to formulate the norm, the results are meaningless.

The Defendant has failed to carry his burden of proving
the three elements necessary to establish that he is
mentally retardation [sic]: significantly subaverage general
intellectual functioning existing concurrently with deficits
in adaptive behavior and manifested during the period from
conception to age 18.
Given this discussion of all three prongs in the circuit
court's order and the related evidence both in the record
and described throughout the order, the record conclusively
refutes Rodriguez's claim that the circuit court did not
consider each prong of the intellectual disability test in
tandem.
This Court did fail to discuss whether evidence below
showed onset before age 18 in its opinion in affirming
the circuit court's order. See Rodriguez IV, 110 So.3d at
441. Nevertheless, this Court had the full record below at
its disposal, including the circuit court's holistic review of
all three prongs, in determining that Rodriguez had not
demonstrated intellectual disability. See id. While Rodriguez
is correct that this Court did not mention evidence of onset
before age 18 in affirming the circuit court's decision, he
cannot demonstrate that this Court did not consider the record,
which shows no reliable evidence of early onset presented at
his prior evidentiary hearing.
Summary denial was appropriate because the record reflects
that the circuit court made findings as to all three prongs and
evaluated them as a whole in denying Rodriguez's claim. See
Mann, 112 So.3d at 1162. Therefore, we deny relief on this
claim. Finally, we consider whether Rodriguez is entitled to
an evidentiary hearing based on the changes in Hall in light
of our recent decisions.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

133a

5

Rodriguez v. State, 219 So.3d 751 (2017)
42 Fla. L. Weekly S483

C. Whether Rodriguez is Entitled to a New Evidentiary
Hearing under Hall
Rodriguez contends that this Court cannot speculate as to
whether Hall might affect the testimony of experts or how
the defense presented his case at the prior hearing. While the
change in Hall could have affected how the defense prepared,
it is unlikely that the change would affect the outcome in
this case. Rodriguez had IQ scores below 70 such that a
finding of intellectual disability was possible prior to Hall,
and Rodriguez's defense had every opportunity to present its
best case at his prior Atkins evidentiary hearing. Therefore,
this case is distinguishable from cases warranting Hall relief.
The facts in this case—specifically the findings made after
the prior evidentiary hearing as to each prong of intellectual
disability—distinguish this case from the clear Hall error this
Court found in Oats, 181 So.3d at 471, and Cardona, 185
So.3d at 527. In Oats, the circuit court wrongfully determined
that the defendant failed to establish onset before age 18 and
limited its inquiry to that single prong in violation of Hall.
Oats, 181 So.3d at 471. In Cardona, the trial court wrongfully
ignored expert recommendations as to the best language
accommodation for IQ tests in rejecting the defendant's IQ
scores and wrongfully found IQ dispositive of the holistic
intellectual disability inquiry. 185 So.3d at 525–27. In
contrast, the circuit court considered evidence concerning all
three prongs of intellectual disability in both Rodriguez's prior
proceeding and in the summary denial below. In addition,
Rodriguez introduced evidence of his intellectual disability
at a hearing on his ineffective assistance of counsel claims
during his initial postconviction proceeding, which this
Court found insufficient to demonstrate intellectual disability.
Rodriguez II, 919 So.2d at 1267.
*760 Rodriguez had a full Atkins evidentiary hearing,
a prior hearing discussing his intellectual disability in

relationship to an ineffective assistance of counsel claim, and
a robust defense at each proceeding. Rodriguez's argument
regarding Hall's effect on credibility determinations is legally
insufficient. The record conclusively refutes his argument
that one prong was dispositive of his claim. Based on the
foregoing, we affirm the circuit court's summary denial of
Rodriguez's Hall claim. Next, we turn to his claim under
Hurst.

II. Rodriguez is Not Entitled to Relief under Hurst
This Court has determined that Hurst should not be applied
retroactively to those cases final on direct appeal before
Ring was decided. Asay v. State, 210 So.3d 1, 7 (Fla.2016).
Because Rodriguez's death sentence was final in 1993,
Rodriguez is not entitled to Hurst relief. Therefore, we deny
relief on this claim.

CONCLUSION
Based on the foregoing, we affirm the circuit court's summary
denial of an evidentiary hearing on Rodriguez's Hall claim,
find that Rodriguez is ineligible for Hurst relief, and affirm
his death sentence.
It is so ordered.

LABARGA, C.J., and LEWIS, and QUINCE, JJ., concur.
PARIENTE, CANADY, and POLSTON, JJ., concur in result.
LAWSON, J., did not participate.
All Citations
219 So.3d 751, 42 Fla. L. Weekly S483

Footnotes

1

Rodriguez raised the following guilt phase claims on direct appeal:
(1) It was error to compel him to proceed without the presence of a defense witness and to refuse to permit him to
introduce that witness's prior deposition testimony; 2) it was fundamental error to conduct a joint trial for the first-degree
murder and the charges stemming from the attempted home invasion; 3) it was error to admit the victim's sister-in-law's
identification testimony; and 4) inadmissible hearsay testimony was introduced to improperly bolster the testimony of
the State's chief witnesses.
Rodriguez I, 609 So.2d at 497. Rodriguez raised the following penalty phase claims:

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

134a

6

Rodriguez v. State, 219 So.3d 751 (2017)
42 Fla. L. Weekly S483

2

3
4

5
6

(1) the death penalty is disproportionate in this case; 2) the prosecutor's comments on the defendant's demeanor off
the witness stand rendered the sentencing proceedings unfair; 3) the homicide was not heinous, atrocious, or cruel;
4) the sentencing order is deficient and reflects that the trial court failed to consider certain mitigating factors; 5) the
trial court considered the impassioned pleas of family members, contrary to Booth v. Maryland, 482 U.S. 496, 107
S.Ct. 2529, 96 L.Ed.2d 440 (1987), overruled by Payne v. Tennessee, 501 U.S. 808, 111 S.Ct. 2597, 115 L.Ed.2d 720
(1991); and 6) Florida's death penalty statute is unconstitutional.
Id. at 500, 107 S.Ct. 2529.
Rodriguez raised 12 issues regarding the original denial of postconviction relief and three claims relating to relinquishment
of jurisdiction:
(1) [T]he trial court erred in denying a new penalty phase where the evidentiary hearing showed that trial counsel
failed to investigate and present mental health mitigation and the mental health expert rendered inadequate mental
health assistance; (2) the trial court erred in allowing the State to prepare the sentencing order; (3) the trial court erred
in summarily denying his claims of a Brady[ v. Maryland, 37 [373] U.S. 83 [83 S.Ct. 1194, 10 L.Ed.2d 215] (1963) ]
violation based on the State's failure to disclose information concerning Tata, an Ake[ v. Oklahoma, 470 U.S. 68, 105
S.Ct. 1087, 84 L.Ed.2d 53 (1985) ] violation based on failure to provide him with an adequate mental health evaluation,
and ineffective assistance of trial counsel based on counsel's failure to investigate or prepare for trial, to request a
severance of offenses, and to object to various other errors at trial; (4) Rodriguez was denied effective assistance of
counsel due to the failure of various agencies to comply with his public records requests; (5) the trial judge displayed
judicial bias at trial and during the postconviction proceedings; (6) trial counsel was ineffective in failing to object to
jury instructions regarding the aggravating circumstances, burden shifting, the jury's responsibility for sentencing, and
an automatic aggravating circumstance; (7) prosecutorial misconduct occurred during the closing argument; (8) the
Florida death penalty statute is unconstitutional; (9) an incomplete record on direct appeal led to ineffective assistance
of counsel; (10) the Rule Regulating the Florida Bar 4–3.5(d)(4) prohibition on communication with jurors restricts
Rodriguez's access to the courts; (11) impermissible victim impact was considered in Rodriguez's sentencing; and (12)
Rodriguez did not receive a fundamentally fair trial because of cumulative error. ... (13) [T]he trial judge should have
disqualified himself from presiding over Rodriguez's original postconviction proceedings; (14) he was not afforded a
full and fair hearing on the sentencing order issue during relinquishment of jurisdiction; and (15) the trial court erred in
denying him relief on the merits of the sentencing order issue after the evidentiary hearing.
Rodriguez II, 919 So.2d at 1262.
Huff v. State, 622 So.2d 982 (Fla. 1993).
In his habeas petition, “Rodriguez raise[d] several claims of ineffective assistance of appellate counsel. He also
question[ed] this Court's harmless error analysis on direct appeal and ask[ed] this Court to revisit the constitutionality of
his indictment in light of the subsequent decisions in Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed.2d
435 (2000), and Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002).” Rodriguez II, 919 So.2d at 1262.
Rodriguez's first successive postconviction motion raised two claims: (1) Rodriguez is intellectually disabled under Atkins
v. Virginia, 536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002); and (2) Florida Rule of Criminal Procedure 3.203
violates the Sixth, Eighth, and Fourteenth Amendments to the United States Constitution. Rodriguez II, 919 So.2d at 1267.
Unlike the defendant in Moore, Rodriguez's intellectual disability was evaluated under “the generally accepted,
uncontroversial intellectual-disability diagnostic definition,” and this Court follows the same three-part standard. Moore,
137 S.Ct. at 1045.

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

135a

7

Rodriguez v. State, Not Reported in So. Rptr. (2017)

2017 WL 2598492
Only the Westlaw citation is currently available.
Supreme Court of Florida.

Juan David RODRIGUEZ, Appellant(s)
v.
STATE of Florida, Appellee(s)
CASE NO.: SC15–1795
|
JUNE 15, 2017

Lower Tribunal No(s).: 131988CF018180B000XX
Opinion
*1 Appellant's Motion for Rehearing is hereby denied.

LABARGA, C.J., and PARIENTE, LEWIS, QUINCE,
CANADY, and POLSTON, JJ., concur.
LAWSON, J., did not participate.
All Citations
Not Reported in So. Rptr., 2017 WL 2598492
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

136a

1

137a

138a

139a

140a

141a

142a

143a

144a

145a

146a

147a

148a

149a

150a

151a

152a

153a

154a

155a

156a

157a

158a

159a

160a

161a

162a

163a

164a

165a

166a

167a

168a

169a

170a

171a

172a

173a

174a

175a

176a

177a

178a

179a

180a

181a

182a

183a

184a

185a

186a

187a

188a

189a

190a

Rodriguez v. State, 110 So.3d 441 (2013)

110 So.3d 441 (Table)
Unpublished Disposition
(The decision of the Supreme Court of
Florida is referenced in the Southern
Reporter in a table captioned ‘Florida
Decisions Without Published Opinions.’)
Supreme Court of Florida.

Juan David RODRIGUEZ, Appellant(s)
v.
STATE of Florida, Appellee(s).
No. SC11–202.
|
Feb. 6, 2013.
Opinion
*1 Juan David Rodriguez, a prisoner under sentence of
death, appeals the trial court's order denying his Motion to
Vacate Sentence of Death and for Determination of Mental
Retardation as a Bar to Execution. After an evidentiary
hearing, the trial court concluded that Rodriguez is not
mentally retarded under Florida Rule of Criminal Procedure
3.203. We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.
We conclude that the trial court's finding that Rodriguez is
not mentally retarded is supported by competent, substantial
evidence and affirm the denial of relief.

To establish mental retardation as a bar to the imposition
of the death penalty, Rodriguez must prove each of
the following three elements: (1) significantly subaverage
general intellectual functioning; (2) concurrent deficits in
adaptive behavior; and (3) manifestation of the condition
before age eighteen. See Fla. R.Crim. P. 3.203(b); see also
§ 921.137(1), (4), Fla. Stat. (2009); Franqui v. State, 59
So.3d 82 (Fla.2011). “ ‘[S]ignificantly subaverage general
intellectual functioning’ correlates with an IQ of 70 or below.”
Jones v. State, 966 So.2d 319, 329 (Fla.2007). Here, there is
no evidence that Rodriguez has ever had a reliable IQ score of
70 or below. Furthermore, there is no evidence that Rodriguez
exhibits adaptive behavior deficits. Thus, Rodriguez has
failed to prove that he is mentally retarded under Florida law.
Accordingly, we affirm the trial court's order which concluded
that Rodriguez is not mentally retarded. We also deny
Rodriguez's claim that Florida's scheme for the assessment of
mental retardation in post-conviction death penalty cases is
unconstitutional.
It is so ordered.

POLSTON, C.J., and PARIENTE, LEWIS, QUINCE,
CANADY, LABARGA, and PERRY, JJ., concur.
All Citations
110 So.3d 441 (Table), 2013 WL 462069

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

191a

1

